<html>
<title> - KEEPING THE SPACE ENVIRONMENT SAFE FOR CIVIL AND COMMERCIAL USERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   KEEPING THE SPACE ENVIRONMENT SAFE
                     FOR CIVIL AND COMMERCIAL USERS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

                           Serial No. 111-22

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
48-787                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. MCCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant

                            C O N T E N T S

                             April 28, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    17

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    18
    Written Statement............................................    19

                               Witnesses:

Lieutenant General Larry D. James, Commander, 14th Air Force, Air 
  Force Space Command; Commander, Joint Functional Component 
  Command for Space, U.S. Strategic Command
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    25

Mr. Nicholas L. Johnson, Chief Scientist for Orbital Debris, 
  Johnson Space Center, National Aeronautics and Space 
  Administration (NASA)
    Oral Statement...............................................    27
    Written Statement............................................    28
    Biography....................................................    30

Mr. Richard DalBello, Vice President, Legal and Government 
  Affairs, Intelsat General Corporation
    Oral Statement...............................................    30
    Written Statement............................................    32
    Biography....................................................    37

Dr. Scott Pace, Director, Space Policy Institute, Elliott School 
  of International Affairs, George Washington University
    Oral Statement...............................................    39
    Written Statement............................................    41
    Biography....................................................    46

Discussion
  Iridium-Cosmos Collision and Going Forward.....................    47
  Commercial and Foreign Data Sharing............................    49
  International Agreements on Orbital Objects....................    51
  Iridium and Cosmos Collision and Military Concerns.............    53
  Russia's Policy on Orbital Debris..............................    54
  Status of Current Debris Creation..............................    54
  Increasing Satellite Strength..................................    55
  Future of CFE..................................................    56
  Future of CFE With Commercial Industry.........................    57
  Costs and Benefits of Monitoring...............................    58
  Private Industry Charging for Satellite Data...................    59
  Characteristics of Current Debris..............................    60
  CFE Resource and Priority Concerns.............................    61
  CFE Computer Analyses..........................................    62
  Debris Risks...................................................    63
  Timeline for Debris Warning....................................    64

             Appendix 1: Answers to Post-Hearing Questions

Lieutenant General Larry D. James, Commander, 14th Air Force, Air 
  Force Space Command; Commander, Joint Functional Component 
  Command for Space, U.S. Strategic Command......................    68

Mr. Nicholas L. Johnson, Chief Scientist for Orbital Debris, 
  Johnson Space Center, National Aeronautics and Space 
  Administration (NASA)..........................................    73

Mr. Richard DalBello, Vice President, Legal and Government 
  Affairs, Intelsat General Corporation..........................    76

Dr. Scott Pace, Director, Space Policy Institute, Elliott School 
  of International Affairs, George Washington University.........    80

             Appendix 2: Additional Material for the Record

Statement of Marion C. Blakey, President and CEO, Aerospace 
  Industries Association.........................................    86

Statement of the Secure World Foundation.........................    88


   KEEPING THE SPACE ENVIRONMENT SAFE FOR CIVIL AND COMMERCIAL USERS

                              ----------                              


                        TUESDAY, APRIL 28, 2009

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   Keeping the Space Environment Safe

                     for Civil and Commercial Users

                        tuesday, april 28, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

I. Purpose

    The House Committee on Science and Technology's Subcommittee on 
Space and Aeronautics is convening a hearing to examine the challenges 
faced by civil and commercial space users as space traffic and space 
debris populations continue to grow. The Subcommittee will explore 
potential measures to improve information available to civil and 
commercial users to avoid in-space collisions as well as ways to 
minimize the growth of future space debris. The hearing will focus on 
the following questions and issues:

        <bullet>  What are the current and projected risks to civil and 
        commercial space users posed by other spacecraft and space 
        debris?

        <bullet>  What information and services are currently available 
        to civil and commercial space users in terms of real-time data 
        and predictive analyses?

        <bullet>  What can be done to minimize the growth of space 
        debris?

        <bullet>  What is the level of coordination among military, 
        civil, and commercial space users in the sharing of space 
        situational awareness information?

        <bullet>  Have shortcomings been identified by civil and 
        commercial space users with regards to the availability of 
        situational awareness information they need? How are these 
        shortcomings being addressed?

        <bullet>  Have civil and commercial space users identified 
        their long-term situational awareness needs? What options are 
        being considered to address them?

II. Witnesses

Lt. Gen. Larry D. James, Commander, 14th Air Force, Air Force Space 
Command, and Commander, Joint Functional Component Command for Space, 
U.S. Strategic Command

Mr. Nicholas Johnson, Chief Scientist for Orbital Debris, National 
Aeronautics and Space Administration

Mr. Richard DalBello, Vice President of Government Relations, Intelsat 
General Corporation

Dr. Scott Pace, Director of the Space Policy Institute, George 
Washington University

III. Overview

    Ensuring the future safety of civil and commercial spacecraft and 
satellites is becoming a major concern. The February 2009 collision 
between an Iridium Satellite-owned communications satellite and a 
defunct Russian Cosmos satellite above Northern Siberia highlighted the 
growing problem of space debris and the need to minimize the chances of 
in-space collisions. That collision also increased the number of pieces 
of space debris circling the Earth, a debris population that had 
already experienced a significant increase two years earlier following 
a Chinese anti-satellite weapons test that created thousands of 
fragments. As recently as last month, astronauts aboard the Space 
Shuttle and the International Space Station maneuvered the connected 
crafts to avoid a piece of space debris that NASA believed could 
potentially have led to an impact.
    While several nations such as Russia, France, Germany and Japan 
have some form of space surveillance capability, these systems are not 
interconnected and are neither as capable nor as robust as the United 
States' Space Surveillance Network (SSN). SSN consists of a world-wide 
network of 29 ground-based sensors that are stated to be capable of 
tracking objects as small as five centimeters orbiting in Low-Earth 
Orbit (LEO)--that is, the region of space below the altitude of 2,000 
km (about 1,250 miles). Many remote sensing satellites use LEO, as do 
all current crewed orbital space flights. However, to be useful, 
information on potential collisions obtained through tracking efforts 
needs to be disseminated to all space users, including non-governmental 
entities. Furthermore, the data needs to be of sufficient accuracy that 
predictions of possible collisions can be computed with a high level of 
confidence. That level of confidence is essential in light of the 
implications of making evasive maneuvers. If a space user knows that a 
particular object in space poses a collision risk to a satellite or 
spacecraft, the user can potentially maneuver the satellite or 
spacecraft to avoid the debris. However, flight changes to avoid 
potential collisions come at a high price since satellites carry 
limited quantities of fuel and avoidance maneuvers could result in 
decreased operational life.
    Following congressional direction, the Air Force's Space Command 
initiated a three-year Commercial and Foreign Entities (CFE) Pilot 
Program in 2005 aimed at providing space users with tracking 
information and analytical services. The program gradually transitioned 
support responsibilities from the National Aeronautics and Space 
Administration (NASA) to the Air Force's Space Command; up until 2005, 
orbital data had been provided on NASA Goddard Space Flight Center's 
Orbital Information Group (OIG) web site free of charge. The Air Force 
also provides, for a fee, advanced analytical support such as on-orbit 
assessment of conflicts and pre-launch safety screenings. Legislation 
allows space surveillance data and analysis to be provided to any 
foreign or domestic governmental or commercial entity, so long as 
providing the data and analysis is in the national security interests 
of the United States. Furthermore, before being provided with such 
data, a non-U.S. Government entity must enter into an agreement with 
the Secretary of Defense agreeing to (a) reimburse the Department for 
costs DOD incurs in providing data support and (b) not transfer any 
data or technical information received under the agreement without the 
approval of the Secretary. Nevertheless, desirous of having 
capabilities of its own, the European Union has initiated an effort to 
research what is required to develop a European Space Surveillance 
Awareness System.
    Many questions remain as to how to improve space situational 
awareness with an ever growing population of spacecraft and 
international operators. Improvements in information services, 
capabilities, resources, and coordination will all have to be 
addressed. In addition, although organizations and individuals have 
examined the pros and cons of potential space traffic management 
approaches or international ``rules of the road,'' at this point, there 
does not appear to be a consensus on the appropriate long-term 
framework for space traffic management.
    Testimony at this hearing should provide the Subcommittee with an 
assessment of (1) what is being done to keep the space environment safe 
for civil and commercial space users given the growing number of 
satellites, spacecraft, and space debris, (2) how future propagation of 
space debris can be mitigated, (3) what space surveillance awareness 
capabilities and services are currently available, and (4) what 
challenges civil and commercial users face trying to get enhanced space 
surveillance awareness information. Keeping the space environment safe 
for civil and commercial users involves protection from a multitude of 
factors besides space debris, such as adverse space weather phenomena 
and radio frequency interference. However, this hearing will focus 
primarily on issues associated with space debris.

IV. Potential Hearing Issues

    The following are some of the potential issues that may be raised 
at the hearing:

        <bullet>  What practices do civil and commercial space 
        operators utilize to minimize the risk of collision in space?

        <bullet>  Should we be concerned about the projected worldwide 
        growth in space traffic and debris generation? Could the risks 
        of collisions in space grow to unacceptable levels?

        <bullet>  What is the status of the U.S. Government-sanctioned 
        Commercial and Foreign Entities (CFE) Pilot Program? What are 
        the lessons learned so far? What are the Department of 
        Defense's (DOD) plans for providing a CFE capability in the 
        future?

        <bullet>  What techniques and procedures can space operators 
        use to minimize the future growth of orbital debris? What are 
        the biggest challenges to reducing the growth of orbital 
        debris?

        <bullet>  What space situational awareness system would 
        commercial space users like to have in place in 10 years? How 
        far are we from having such a system today and what will need 
        to be done to make it possible?

        <bullet>  A comprehensive space situational awareness system 
        that meets the needs of the military, civil, and commercial 
        space sectors would seem to require the involvement of each of 
        those sectors both domestically and internationally. Are there 
        any good governance models that could be used to construct and 
        operate such a comprehensive system?

        <bullet>  How does DOD coordinate with commercial space users? 
        For example, what major issues have been raised at the series 
        of meetings between DOD leadership and the CEOs of the top 10 
        commercial satellite companies focusing on enhancing 
        cooperation to improve surveillance and what are the plans for 
        addressing those issues?

        <bullet>  How can coordination among military, civil, and 
        commercial users be enhanced relative to both orbital debris 
        mitigation and collision avoidance?

        <bullet>  What can be done to address the shortcomings in 
        current space situational awareness information, predictive 
        capabilities, and supporting infrastructure to enable safe 
        civil and commercial space operations in the future?

        <bullet>  What are the key policy questions that need to be 
        addressed in determining the best path forward for keeping the 
        space environment safe for civil and commercial users?

        <bullet>  Are international ``rules of the road'' needed to 
        prevent future in-space collisions and debris growth?

V. Background

The Space Debris Threat
            Space Environment
    Since 1957, there have been several thousand payloads launched into 
space. These launches have contributed to an ever growing population of 
man-made objects in space, which have themselves generated an even 
larger amount of orbital debris. NASA defines orbital debris ``as any 
object placed in space by humans that remains in orbit and no longer 
serves any useful function or purpose. Objects range from spacecraft to 
spent launch vehicle stages to components and also include materials, 
trash, refuse, fragments, or other objects which are overtly or 
inadvertently cast off or generated.'' These objects, ranging in size 
from that of a microscopic paint chip to a large defunct satellite, can 
travel at speeds up to 11 km/second.
    Most of today's spacecraft operate in two major orbital altitudes. 
The most populated is Low-Earth Orbit (LEO), where many scientific and 
human spacecraft operate between altitudes of 320 km and 2,000 km. The 
other is Geostationary Orbit (GEO), which is populated primarily by 
communication satellites that orbit as the same speed as the Earth so 
as to continuously face one region of the planet. These satellites 
operate at an altitude of approximately 36,000 km. There are 
approximately 900 operational spacecraft currently in orbit. Of those, 
approximately 800 are maneuverable.

            Extent of Orbital Debris in Space
    The first fragmentation of a man-made satellite occurred in 1961. 
Since then, there have been over 190 spacecraft fragmentations, and 
four accidental collisions resulting in the generation of debris (there 
has been only one collision between two intact spacecraft). Even though 
some of the debris from these fragmentations has fallen out of orbit, 
numerous other incidents over the years have increased the overall 
population of space debris dramatically. According to an Aerospace 
Corporation study, ``the creation rate of debris has out-paced the 
removal rate, leading to a net growth in the debris population in low-
Earth orbit at an average rate of approximately five percent per 
year.''
    The majority of Earth's orbital debris currently resides in LEO 
between the altitudes of 600 km and 1,500 km, where there is an 
estimated 300,000 pieces of debris one cm in size or greater. Of that 
number, there are more that 18,000 objects that are five cm or greater 
in size. Objects that are between one cm and 10 cm in size are of 
primary concern to spacecraft in LEO as these are the most difficult 
pieces to track and have enough mass to completely disable a 
spacecraft.
    The orbital lifetime of debris varies, as some pieces can re-enter 
the Earth's atmosphere within several days of their fragmentation, 
while some pieces can stay in orbit for over several hundred years. 
Currently, more debris is being accumulated in orbit than is falling 
out of orbit. According to a NASA study completed in 2006 which assumes 
no new launches of any kind past 2005, in-orbit collisions will sustain 
the current population of debris, even as other objects decay into the 
atmosphere. As indicated in a NASA Orbital Debris Quarterly 
publication, by 2055, collisions will become the primary source of 
debris generation. Even though a majority of the debris lies in LEO 
orbit, concerns are still growing over the future of GEO as it a highly 
valuable and fairly costly area to place a satellite. Debris that 
continuously fly at GEO altitude are too high to be affected by 
atmospheric drag and rarely fall back to Earth. It is also extremely 
difficult to track and characterize objects less that 1 m in GEO with 
current technologies.

            Causes of Fragmentation
    Space debris comes in many different forms, but the velocity at 
which these objects move in relation to the object they impact is what 
makes them potentially lethal. A piece of debris as small as one cm can 
potentially destroy a satellite, while an object less that 0.1 cm can 
penetrate an astronaut's suit during an Extra Vehicular Activity (EVA).
    Debris can be created in a number of ways, from actual collisions 
to incidents occurring during spacecraft separation. The most common 
causes of fragmentations are propulsion-related incidents that involve 
remaining fuel or pressurized components exploding in discarded rocket 
stages. This type of event was prevalent in the 1970s and 1980s but has 
since slowed due to increased mitigation techniques practiced 
worldwide. Until recently, the objects from these events constituted 
about 40 percent of current orbital debris.
    Other sources of fragmentation debris include accidental 
collisions, battery explosions, fuel leaks, failures of attitude 
control systems, failures during orbital injection maneuvers and other 
unidentified causes. Not all of these fragmentation events create 
equivalent amounts of debris. The damage and subsequent results of a 
collision in orbit are dependent on multiple variables such as velocity 
and design of the structure as well as the angle of collision. For 
example one collision in the mid-1990s of a European satellite involved 
a small piece of debris striking an extended antenna, which resulted in 
only one piece of debris being generated.
    The more troubling type of fragmentation event is the intentional 
breakups that are deliberately taken, such as in the form of an anti-
satellite weapons test. Such actions have historically led to very 
accurate strikes and thus produced larger amounts of debris than other 
collisions and self generated explosions.

            Risks Generated by Orbital Debris
    Since January 2007, there have been three major debris generating 
incidents that have increased Earth's orbital debris environment 
significantly. As a result, the risks to active and non-active 
spacecraft have greatly increased. Experts have predicted that it is 
only matter of time until there is another large debris generating 
collision.
    The International Space Station (ISS) flies at an average altitude 
of 349 km to 358 km and the Hubble Space Telescope flies at an altitude 
of 570 km. For the remainder of its manifest, the Space Shuttle will 
fly only to these two orbits and as such are subject to their orbital 
hazards. The upcoming STS-125 flight will allow crew aboard the Shuttle 
Atlantis to repair the Hubble Space Telescope. Recent reviews of the 
threat of an orbital debris strike have remained nearly constant since 
its initial review last September. Since that time, the recent Iridium-
Cosmos collision has added to the debris field in LEO and represents a 
71 percent increase in the amount of threatening debris to STS-125. Due 
to its low altitude in LEO, the ISS' risk of collision will be lower 
than that of spacecraft that operate at higher altitudes in LEO. 
Nevertheless, the ISS still remains at risk from micro-meteoroid and 
orbital debris strikes. The possibility of having to maneuver the ISS 
away from harmful debris will remain constant throughout its life-time. 
Typically, an ISS maneuver takes approximately 30 hours to plan and 
execute.
    In addition to on-orbit risks, there are economic consequences that 
flow from the increase in orbital debris and a potential lack of 
adequate situational awareness. The need to maneuver leads to the use 
of limited spacecraft fuel supplies, which can shorten the on-orbit 
operational lifetime of the spacecraft. Another economic consequence 
could be the disruption of data and services of commercial satellites. 
Even if they aren't actually struck, maneuvering satellites out of 
harm's is costly, as data and service continuity become disrupted as a 
result of the maneuver.
    Over the past several years, there have been several incidents 
which contributed to the rise in the number of orbital debris:

        <bullet>  Iridium 33--Cosmos 2251 Satellite Collision: On 
        February 10, 2009, a U.S. Iridium communications satellite 
        collided at a near right angle to a decommissioned Russian 
        Cosmos communications satellite at an altitude of 790 km. This 
        was the first hypervelocity collision of two `intact' 
        spacecraft ever. According to Space News, the collision created 
        at least 823 pieces of trackable debris (with many smaller 
        pieces not yet cataloged) and increased the risk of a debris 
        strike on the Space Shuttle by approximately six percent. The 
        majority of this debris will remain a threat to other 
        satellites in LEO for decades.

        <bullet>  Chinese A-SAT test on Fengyun-1C: In January of 2007, 
        the Chinese government launched an SC-19 missile at one of 
        their country's decommissioned weather satellites and destroyed 
        it. It is the worst fragmentation event in the history of space 
        flight and at the time, accounted for more than 25 percent of 
        cataloged objects in LEO. The estimated debris population 
        larger than one cm in size generated by the collision will 
        eventually exceed 150,000. Resultant debris has already 
        enveloped the Earth and now poses a threat to all spacecraft in 
        LEO.

        <bullet>  Russian spent stage explosion--Russian Arabsat 4: A 
        Russian upper stage from a Proton rocket exploded in February 
        2007, almost a year after its launch to GEO failed, creating an 
        initial amount of over 1,100 pieces of trackable debris. The 
        cause of the explosion was determined to be leftover fuel in 
        the failed stage that was ignited by several possible sources.

    Mr. Nicholas Johnson, a witness at the hearing, will be able to 
provide additional details on the risks associated with these recent 
events.

Space Surveillance Capabilities
    Although the U.S. has the most capable space surveillance system in 
the world, other countries also utilize radars and telescopes to 
perform similar tracking activities. Limited in their space 
surveillance capabilities, other nations must use information generated 
by the U.S. system to supplement their own data.

            U.S. Space Surveillance Capabilities
    Space surveillance refers to the ability to detect, track, and 
identify objects in space. Surveillance services used by space 
transportation users include calculation of debris-clear launch 
trajectories and in-orbit debris tracking and collision warnings. The 
primary supplier of space surveillance capability is the Space 
Surveillance Network (SSN), consisting of a world-wide network of 29 
ground-based sensors including electro-optical, conventional and 
phased-array radars. The SSN permits the cataloging of objects in 
space. According to an April 2009 presentation by a representative of 
NASA's Orbital Debris Program Office to the NASA Advisory Council, the 
number of cataloged objects has increased by more than 30% since 
January 2007. The catalog currently accounts for more than 14,000 
objects in orbit.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The SSN can collect data about objects' altitude, orbit, size, and 
composition. The capabilities of the network are limited by the debris' 
size and altitude, however. Initially, the SSN could not detect or 
track objects smaller than 10 centimeters in LEO, and only objects 30 
centimeters and larger could be continuously tracked. Remote sensing 
satellites typically use LEO, as do most manned space flights. In March 
2003, the sensitivity of the SSN was enhanced so that objects as small 
as five centimeters orbiting in LEO can be tracked. As altitude 
increases, the ability of the SSN's sensors to detect small objects 
decreases. Consequently, objects in Geosynchronous Orbit (GEO) need to 
be located through optical instruments (as opposed to radar) and also 
must be at least one meter across to be tracked. Satellites in GEO 
orbit the Earth once a day at an altitude of approximately 35,786 
kilometers (about 22,236 miles). Satellites in geostationary orbit are 
primarily used for communications and meteorology.
    Protection of NASA assets is a major concern. The Joint Space 
Operations Center (JSpOC) within the U.S. Strategic Command provides 
collision avoidance analysis for the Space Shuttle and International 
Space Station (ISS). During NASA missions, the JSpOC computes possible 
close approaches of other orbiting objects to the Space Shuttle or ISS. 
The JSpOC also conducts re-entry assessments for objects including 
prediction of time, location of atmospheric reentry, and potential 
ground impact.
    Space surveillance capabilities are likely to improve in the next 
few years. The Air Force's Space Based Space Surveillance (SBSS) 
Program, initiated in 2003, will consist of a single satellite and 
associated command, control, communications, and ground processing 
equipment when operational. The SBSS satellite, scheduled for launch in 
2009, is scheduled to operate 24 hours a day, seven days a week, to 
collect positional and characterization data on Earth-orbiting objects 
of potential interest to national security. The SSN's only space borne 
sensor to date, the space-based visible (SBV) sensor carried aboard the 
Midcourse Space Experiment (MSX) satellite, was retired in June 2008 
after nearly 12 years of operation. DOD considers SBSS to be an 
essential element in developing a space situational-awareness 
capability. In an article published in Space News, it was reported that 
``SBSS will allow airmen to monitor satellites in the geosynchronous 
orbit 24 hours a day, which Space Command can't presently do with its 
Ground-based Electro-Optical Deep Space Surveillance (GEODSS) system. 
Airmen on the ground can only collect data on satellites using the 
GEODSS at night when the sun is reflecting on the targeted satellite.'' 
This is because unlike ground sensors, the space-based SBSS is not 
limited by lighting conditions, weather, or atmospheric distortion.
    One of the SSN's oldest systems is the Space Fence which grew out 
of an effort by the Naval Research Laboratory to detect and track 
satellites that did not emit signals as part of their normal 
operations. Ushered into existence as the Naval Space Surveillance 
System (NSSS) in 1961, the Space Fence is composed of three 
transmitters and six receivers interspersed across the southern United 
States. As reported by C4ISR Journal, DOD is considering upgrading the 
Space Fence with more powerful radars and sites overseas for more 
expansive coverage. According to an article in Inside the Air Force, 
the service hopes to award a concept development phase contract in July 
2009. The upgraded Space Fence will be capable of detecting tenfold the 
amount of objects in Low- and Medium-Earth Orbit. It also will be able 
to monitor objects five centimeters in diameter, compared to the 30-
centimeter limit of the legacy asset. According to Inside the Air 
Force, the Air Force anticipates ``that the winning contractor will 
deliver the initial, southern hemisphere coverage Space Fence sensor 
``no later than fiscal year 2015'' and deliver all expected blocks of 
coverage by FY20.'' ''

            International Space Surveillance Capabilities
    Other countries also have space tracking capabilities, but they are 
not on par with the SSN. For example, according to an article in Space 
News, the Russian-led International Scientific Optical Network, based 
at Moscow's Keldysh Institute of Applied Mathematics, includes some 25 
optical telescopes, mainly in the republics of the former Soviet Union, 
that can be deployed on a case-by-case basis as part of commercial 
transactions. But this network's focus is on objects in geostationary 
orbit, the operating orbit for most commercial satellites but far above 
LEO regions where debris is of most concern. French, German, and 
Japanese systems are also in use. For example:

        <bullet>  France has developed a radar system called Graves 
        (Grand Reseau Adapte a la Veille Spatiale), a demonstrator 
        which has been operational since 2005 and can watch the sky up 
        to 1,000 km above the French territory. According to its 
        developer, ONERA, the Graves system consists of ``specific 
        radar combined with an automatic processing system that creates 
        and updates a database of the orbital parameters for the 
        satellites it detects.'' Graves is operated by the French Air 
        Force.

        <bullet>  The European Space Agency (ESA) collaborates with the 
        operators of the German TIRA system (Tracking and Imaging 
        Radar), located at FGAN (Research Establishment for Applied 
        Science), near Bonn, Germany. According to ESA's Space Debris 
        web site, TIRA has a 34-meter dish antenna. The radar also 
        conducts beam park experiments, where the radar beam is pointed 
        in a fixed direction for 24 hours so that the beam scans 
        360<SUP>+</SUP> in a narrow strip on the celestial sphere 
        during a full Earth rotation. During such experiments, the web 
        site says, TIRA can detect debris and determine ``coarse orbit 
        information for objects of diameters down to two cm at 1000 km 
        range.''

        <bullet>  According to a report on ``Space Debris Related 
        Activities in Japan'' presented by Japanese representatives to 
        the UN's Committee on the Peaceful Uses of Outer Space 
        (COPUOUS) in February, 2009, observation of objects in 
        geosynchronous orbit (GEO) and determination of their orbit 
        characteristics are routinely carried out using Japanese 
        optical telescopes. Research to develop software that can 
        automatically detect smaller objects in GEO is progressing. 
        Japanese representatives also said that LEO observations are 
        being conducted using radar telescopes and that research to 
        observe objects in LEO is also being conducted using high-speed 
        tracking optical telescopes.

U.S. Space Surveillance Services
    To be useful, information related to potential in-space collisions 
that is obtained through tracking efforts needs to be disseminated to 
all affected space users, including non-governmental entities. If a 
space user knows that a particular object in space poses a collision 
risk to a satellite or spacecraft, the user can maneuver the satellite 
or spacecraft to avoid the debris. However, avoidance maneuvers consume 
valuable fuel supplies, which translates into a reduced operational 
life. Since collisions in space increase the amount of debris, it is in 
the interest of all parties concerned to ensure space users have access 
to relevant space surveillance data. Initially, the data from the SSN 
had been made available through NASA's Orbital Information Group's 
(OIG) web site.
    However, in November 2003, the Congress directed the Secretary of 
Defense through the 2004 National Defense Authorization Act [P.L. 108-
136, Section 913] to provide space surveillance data to any foreign or 
domestic governmental or commercial entity, so long as it was 
consistent with national security. The Secretary delegated 
implementation responsibility to the Secretary of the Air Force in 
October 2004. The national policy of providing space surveillance 
information was further articulated in the President's National Space 
Policy dated August 31, 2006. In achieving the goals of the national 
policy, the Secretary of Defense was assigned responsibility for 
supporting the space situational awareness requirements of the Director 
of National Intelligence and conducting space situational awareness for 
``the United States government; U.S. commercial space capabilities and 
services used for national and homeland security purposes; civil space 
capabilities and operations, particularly human space flight 
activities; and, as appropriate, commercial and foreign space 
activities.''
    With regards to orbital debris, the National Space Policy 
acknowledges that orbital debris poses a risk to continued reliable use 
of space-based services and operations and to the safety of persons and 
property in space. Consequently, the policy states that ``the United 
States shall seek to minimize the creation of orbital debris by 
government and non-government operations in space in order to preserve 
the space environment for future generations.'' The policy also states 
that the ``United States shall take a leadership role in international 
fora to encourage foreign nations and international organizations to 
adopt policies and practices aimed at debris minimization and shall 
cooperate in the exchange of information on debris research and the 
identification of improved debris mitigation practices.''

            Commercial and Foreign Entities (CFE) Pilot Program
    Pursuant to the legislative direction, the Air Force Space Command 
implemented the Commercial and Foreign Entities (CFE) Pilot Program. 
The CFE pilot program was designed to be implemented in three phases 
over a three-year period, gradually transitioning CFE support 
responsibilities from NASA to the Air Force's Space Command. In 
addition to the free orbital data previously provided on NASA's OIG web 
site, the Air Force offered to provide, for a fee, advanced analytical 
support such as on-orbit conjunction assessment and pre-launch safety 
screenings. The Air Force's goal was to provide increased situational 
awareness for commercial and foreign operators, thereby improving 
orbital safety for all space vehicles. The previously cited legislation 
allows space surveillance data and analysis to be provided to any 
foreign or domestic governmental or commercial entity, so long as 
providing the data and analysis is in the national security interests 
of the United States. Furthermore, before being provided with such 
data, a non-U.S. Government entity must enter into an agreement with 
the Secretary of Defense agreeing to (a) pay for any fee charged by the 
Secretary to reimburse the Department for the costs of providing space 
surveillance data support under the agreement and (b) not transfer any 
data or technical information received under the agreement without the 
approval of the Secretary.
    The Air Force selected the Aerospace Corporation to operate the CFE 
Support Office (CSO) and tasked it to interface with commercial and 
foreign entities on behalf of the Air Force Space Command and develop 
the Space-Track.org web site to replace the NASA OIG web site. 
Initially, the CFE pilot program was scheduled to last three years and 
end in May 2007. However, in October 2006, the Congress extended the 
pilot's end date to September 30, 2009 [P.L. 109-364, Section 912]. 
Aviation Week and Space Technology recently reported that the CFE 
program is scheduled to transition from the Air Force Space Command to 
the U.S. Strategic Command later this year.
    According to the Air Force, the CFE Pilot Program was to be 
implemented in three phases, Phase 1 being a transitionary one where 
the CSO activated the Space-Track web site offering a limited subset of 
the NASA OIG web site functionality. During Phase 2, the NASA OIG web 
site ceased operating and functions such as specific queries, a 60-day 
decay forecast report, and a satellite situation report were made 
available.
    The CFE Pilot Program is currently in Phase 3. The CSO provides 
advanced services and products on a fee-for-service basis because of 
the additional analysis and manipulation required by additional Air 
Force personnel. Services provided include all services offered under 
Phase 1 and Phase 2 and more advanced capabilities such as launch 
support (Pre-Launch safety screenings and/or early orbit 
determination); conjunction assessment (CA) (determining the likelihood 
of a conjunction between orbiting objects); end-of-life/reentry support 
(including reentry support and planned de-orbit operations); anomaly 
resolution support (including attitude determination and spacecraft 
configuration); and providing emergency support. Emergency support is 
required when significant mission degradation or failure occurs for 
either the affected party's asset or U.S. Government assets, 
endangerment of human life or degradation of U.S. national security. 
Emergency support is a free service.
    More advanced information and services may soon be available. 
According to a March 2009 article in Space News, the Air Force is 
moving towards providing ``wider access to its high-accuracy catalog 
showing the whereabouts of orbital debris and operational satellites as 
part of an effort to enable commercial and non-U.S. Government 
satellite operators to better avoid in-orbit collisions, according to 
U.S. Air Force officials.'' The new policy, Space News reported, should 
be announced in June 2009. In a March 2009 response to Space News 
questions, the Air Force's Space Command said that: ``In the near 
future, the public will also receive more advanced services to include 
End-of-Life support, Anomaly Resolution support, and potential threat 
notification support. The vision is to provide these advanced services 
via the same web site as the [collision-risk analysis] and Launch 
support service is provided.'' Space News cited an Air Force official 
as having said that a full review of how space traffic management is 
conducted is being readied for completion before this summer.
    Space News also reported that Iridium Satellite has been given 
special access to otherwise nonpublic Space Surveillance Network 
information, but only for limited periods. According to Iridium's Vice 
President for Government Affairs, Iridium was given access to the high-
accuracy data starting in January 2007, following China's anti-
satellite missile firing that destroyed a retired Chinese weather 
satellite operating in an orbit near Iridium's. Space News reported 
that Iridium's access to the high-accuracy data was only for the debris 
from the Chinese anti-satellite test. The publication reported that 
although the access ended in January 2008, it was renewed in February 
2009 to aid Iridium in repositioning an on-orbit spare satellite to 
replace the one that was destroyed.
    The Space News article also said that the data furnished by the Air 
Force was based only on the Air Force's catalog and had not included 
inputs from Iridium on the exact location of its satellites. The 
``fusion'' of such data is seen as augmenting space situational 
awareness. According to Space News, ``operator input makes even the 
most precise Air Force information more accurate because operators know 
the exact position of their own spacecraft.''
    Many questions remain as to how to improve space situational 
awareness with an ever growing population of spacecraft and 
international operators. Improvements in information services, 
capabilities and resources, and coordination will all have to be 
addressed. One approach, the previously referenced fusion of data, 
would allow combining multiple sources of information to produce a more 
detailed and refined estimation of the orbital environment. Efforts are 
underway to improve the system of integrated data by incorporating 
foreign information, ground and space based observations, space weather 
data, and other data sources. This information should help provide more 
accuracy to automated processes and computations that will reduce the 
reliance on human analysis.
    Notwithstanding DOD's plans to upgrade the SSN, concerns have been 
raised regarding the Department's level of investment in space 
surveillance and whether funding may be sufficient to provide the data 
commercial space users need to protect their satellites. In a March 
2009 testimony before the Strategic Forces Subcommittee, House Armed 
Services Committee, retired Major General James Armor said that the SSN 
is not sufficiently resourced to support civil and commercial 
operations. The former Director of DOD's National Security Space Office 
said that the Air Force does not have the resources to conduct CFE 
support, adding that ``recent complaints by commercial operators about 
unwarned movement of DOD satellites and lack of support for moving 
commercial satellites at GEO, as well as the Iridium Satellite 
collision with a defunct Russian Cosmos satellite are indications of 
inadequate resources and lower priority for CFE.'' In addition, space 
users have also indicated concern about insufficient funding. An 
article in Aviation Week and Space Technology recently quoted a 
satellite communications official as saying that the question is 
``whether there will be enough money to get more than the two-line 
elements currently available.'' The article added that ``Industry 
analysts say the two-line element sets do not satisfy operators' 
accuracy needs: they want specific data sets that include such 
information as maneuvering details necessary to predict the ephemeris 
(daily computed position) of active satellites and to accurately 
forecast the close approach of drifting debris.''
    The Air Force has indicated that 25,000 users and 149 nations have 
availed themselves of the CFE Pilot Program's services. Lt. Gen. Larry 
D. James, a witness at the hearing, will provide the latest status on 
the CFE Pilot Program, including steps envisioned following the Pilot 
Program's completion. Mr. Richard DalBello, also a witness at the 
hearing, will provide perspectives from the commercial user's 
viewpoint.

Other Space Surveillance Analysis Tools and Services
    There are other means for space operators to gain access to 
additional assistance. For example: NASA has developed a software tool 
to be used by the Agency's programs but also made available to other 
space users.

        <bullet>  The Debris Assessment Software (DAS) is designed to 
        assist NASA programs in performing orbital debris assessments 
        and provides the user with tools to assess compliance with the 
        requirements. In addition, NASA has developed a computer-based 
        orbital debris engineering model called ORDEM2000. The model 
        describes the orbital debris environment in the low-Earth orbit 
        region between 200 km and 2,000 km altitude. NASA says that the 
        model is appropriate for those engineering tasks requiring 
        knowledge and estimates of the orbital debris environment and 
        can also be used as a benchmark for ground-based debris 
        measurements and observations. This engineering model will soon 
        be enhanced with the upcoming release of ORDEM2008.

        <bullet>  The Satellite Orbital Conjunction Reports Assessing 
        Threatening Encounters in Space for Geosynchronous (SOCRATES-
        GEO) service offered by the Center for Space Standards and 
        Innovation (CSSI) provides commercial space users with an 
        alternative to DOD analyses. Based in Colorado Springs, CO, 
        CSSI is a research arm of Analytical Graphics, Inc. (AGI). 
        SOCRATES-GEO is a partnership between CSSI and several 
        commercial GEO providers where voluntary owner-operator 
        positional data and maneuver schedules are provided to CSSI by 
        the commercial partners. The CSSI analysts and software combine 
        this information with data pulled from the U.S. military's 
        public satellite catalog on debris and other objects.

        <bullet>  As indicated in the European Space Agency's (ESA) 
        Space Debris web site, the consolidation of knowledge on all 
        known objects in space is a fundamental condition for the 
        operational support activities of ESA's Space Debris Office. 
        This knowledge, the web site says, is maintained and kept up-
        to-date through the DISCOS database (Database and Information 
        System Characterising Objects in Space). DISCOS serves as a 
        single-source reference for information on launch details, 
        orbit histories, physical properties and mission descriptions 
        for about 33,500 objects tracked since Sputnik-1, including 
        records of 7.4 million orbits in total. According to ESA, 
        DISCOS is regularly used by almost 50 customers worldwide.

        <bullet>  ESA's most prominent debris and meteoroid risk 
        assessment tool is called MASTER (Meteoroid and Space Debris 
        Terrestrial Environment Reference). In order to study the 
        effectiveness of debris mitigation measures on the debris 
        population stability, long-term forecasts are required to 
        determine future trends as a function of individual mitigation 
        actions. This type of analysis can be performed with ESA's 
        DELTA tool (Debris Environment Long-Term Analysis).

Collaborative Efforts to Mitigate the Growth of Orbital Debris And 
        Enhance Space Situational Awareness
    Because of the global nature of the risks of orbital debris to 
space users of all nations, several collaborative efforts have emerged 
in the form of guidelines to minimize the propagation of space debris 
and research to improve space situational awareness capabilities. While 
space surveillance focuses on securing positional data, situational 
awareness oftentimes requires the ``fusing'' (combining) of multiple 
data types and sources, thus creating information conducive to 
decision-making.

            International Space Debris Mitigation Guidelines
    The Inter-Agency Space Debris Coordination Committee (IADC) is an 
international governmental forum for the worldwide coordination of 
activities related to the issues of man-made and natural debris in 
space. The primary purposes of IADC are to exchange information on 
space debris research activities between member space agencies, to 
facilitate opportunities for cooperation in space debris research, to 
review the progress of ongoing cooperative activities, and to identify 
debris mitigation options. IADC member agencies include ASI (Agenzia 
Spaziale Italiana); BNSC (British National Space Centre); CNES (Centre 
National d'Etudes Spatiales); CNSA (China National Space 
Administration); DLR (German Aerospace Center); ESA (European Space 
Agency); ISRO (Indian Space Research Organisation); JAXA (Japan 
Aerospace Exploration Agency); NASA ; NSAU (National Space Agency of 
Ukraine); and ROSCOSMOS (Russian Federal Space Agency).
    An initial set of space debris mitigation guidelines was developed 
by IADC in 2002, reflecting the fundamental debris mitigation elements 
of a series of existing practices, standards, codes and handbooks 
developed by a number of national and international organizations. The 
UN's COPUOUS acknowledged the benefit of a set of high-level 
qualitative guidelines having wider acceptance among the global space 
community. The Working Group on Space Debris was established by the 
Scientific and Technical Subcommittee of the Committee to develop a set 
of recommended guidelines based on the technical content and the basic 
definitions of the IADC space debris mitigation guidelines, taking into 
consideration the United Nations treaties and principles on outer 
space.
    This activity resulted in the Space Debris Mitigation Guidelines 
being endorsed by the United Nations' General Assembly in December 
2007, a document that outlines space debris mitigation measures for the 
mission planning, design, manufacture and operational (launch, mission 
and disposal) phases of spacecraft and launch vehicle orbital stages. 
Compliance is voluntary; in addition, Guidelines are not legally 
binding under international law. However, many Member States have 
incorporated them through national mechanisms. The Guidelines, 
characterized numerically in the United Nations document, focus on 
seven areas:

        <bullet>  Guideline 1: Limit debris released during normal 
        operations

        <bullet>  Guideline 2: Minimize the potential for break-ups 
        during operational phases

        <bullet>  Guideline 3: Limit the probability of accidental 
        collision in orbit

        <bullet>  Guideline 4: Avoid intentional destruction and other 
        harmful activities

        <bullet>  Guideline 5: Minimize potential for post-mission 
        break-ups resulting from stored energy

        <bullet>  Guideline 6: Limit the long-term presence of 
        spacecraft and launch vehicle orbital stages in the low-Earth 
        orbit (LEO) region after the end of their mission

        <bullet>  Guideline 7: Limit the long-term interference of 
        spacecraft and launch vehicle orbital stages with the 
        geosynchronous Earth orbit (GEO) region after the end of their 
        mission.

    Shortly after the February 10, 2009 collision between the inactive 
Russian Federation communications satellite Cosmos 2251 and the 
operational U.S. satellite Iridium 33, the Director of the United 
Nations' Office for Outer Space Affairs (UNOOSA) issued a call to all 
Member States and international organizations to voluntarily take 
measures to ensure that the Space Debris Mitigation Guidelines are 
fully implemented. The Director stressed that ``the prompt 
implementation of appropriate space debris mitigation measures is in 
humanity's common interest, particularly if we are to preserve the 
outer space environment for future generations.''

            5th European Conference on Space Debris
    During the 5th European Conference on Space Debris held earlier 
this month in Darmstadt, Germany, experts from around the world met to 
discuss a variety of issues associated with space debris such as 
measurements and debris environment characterization; environment 
modeling and forecasting, risk analysis for the in-orbit and re-entry 
mission phases, protection and shielding, debris mitigation and 
remediation, and debris policies and guidelines.
    As noted on the Conference's web site, the Conference's main 
finding was that mitigation alone cannot maintain a safe and stable 
debris environment in the long-term future and that active space debris 
remediation measures will need to be devised and implemented. Conferees 
recognized that such measures are technologically demanding and 
potentially costly, but saw no alternative to protect space as a 
valuable resource for the operation of indispensable satellite 
infrastructures. The web site conference summary stated that as far as 
satellite infrastructures are concerned ``their direct costs and the 
costs of losing them will by far exceed the cost of remedial 
activities.''

            Research on a European Union Space Surveillance Awareness 
                    System
    ESA is undertaking research on European countries' needs for Space 
Situational Awareness (SSA). ESA defines SSA as the comprehensive 
understanding and knowledge of (a) the population of space objects, (b) 
the space environment, and (c) possible threats/risks. As such, the 
European SSA differs in philosophy to the U.S. SSN in that 
``astronomical threats,'' such as asteroids, will be tracked. In a 
September 2008 presentation entitled ``ESA's initiative towards a 
European Space Situational Awareness System'' at the Space for Defence 
and Security Conference sponsored by the Royal United Services 
Institute, an ESA representative outlined his agency's progress to 
date. He provided the background for the research, noting the European 
Union's (EU) dependency on space assets; the major consequences of a 
shutdown of even a part of the space infrastructure on the European 
economy and security; and the fact that the EU does not have the 
capability to monitor its space assets and identify threats. The ESA 
representative said that relative to the SSA research program, ESA had 
(1) established an informal user group representing the full spectrum 
of potential SSA user communities (civil, military, commercial 
operators, national space agencies, insurance companies, scientific 
community, defense intelligence, etc.), (2) initiated several 
preliminary studies such as a compilation of a SSA Users' Needs list; 
and (3) prepared an SSA research Program Proposal.
    According to the ESA representative, the overall research program 
will be conducted from 2009 to 2018. With regards to the benefits of a 
Europe-U.S. cooperative SSA effort, the ESA representative listed those 
benefits as making the two systems more capable, more robust, and more 
``credible'' (i.e., ``through reciprocal independent situational 
assessment and validation'').
    Others in the global community also believe an inter-agency 
coalition should be formed to develop an international space traffic 
management organization. A February 23, 2009 Space News article quotes 
Air Force Gen. Michael Carey, Deputy Director of U.S. Strategic Command 
as saying that the Air Force would be willing to help coordinate an 
international effort to create a space traffic management system, but 
the service stopped short of suggesting what entity would take the lead 
in operating such a system.

Future Challenges Associated with Space Debris Mitigation, Removal, and 
        Designation of Responsibility
    There are a number of challenges facing the global community with 
regards to how space debris could be mitigated or removed, how 
responsibility for space traffic management will be assigned, and 
whether rules of conduct to minimize space debris need to be explicitly 
stated.

            Space Debris Mitigation and Removal
    There are two major methods for stemming the growth of orbital 
debris. Growth mitigation is currently the primary and only means for 
combating space debris. This more cost effective method includes all 
preventative measures taken to reduce the possibility for multiple 
types of debris generating events. One method of mitigation involves 
disposing of spacecraft at the end of their operational life time by 
maneuvering them into the Earth's atmosphere or by placing them into a 
higher ``graveyard orbit.'' The passivation of aging spacecraft is used 
to prevent accidental debris generating events that can occur many 
years after mission completion by reducing stored energy sources by 
venting or burning remaining propellants and pressurized systems, and 
the discharging of batteries. There are also preventative design 
measures that can be added to a spacecraft or rocket during its design 
and manufacturing stages that can reduce the possibility of future 
explosions and that limit the amount of debris generated during in-
space activities.
    The second method is active debris removal. NASA studies have shown 
that even if there were no new launches of any kind, orbital debris 
would continue to grow as existing spacecraft and debris continued to 
collide and propagate. Therefore, various experts have recently come to 
the conclusion that active debris removal must be viewed as a possible 
solution as there is no other apparent alternative for proactively 
reducing debris. Yet, active debris removal is extremely expensive to 
design, test, and produce and has therefore been a historically low 
engineering R&D priority. Very few theoretical methods of active debris 
removal exist, and several studies have been initiated by different 
space agencies and groups to verify the technical feasibility of 
several proposed methods.

            Responsibility for Space Traffic Management and Rules of 
                    the Road
    Retired General James Armor testified at the previously noted House 
Armed Services Committee subcommittee hearing that there is currently 
no assigned organizational responsibility for space traffic management 
in the U.S. While acknowledging that the National Security Space Office 
(NSSO) maintains DOD's joint agency architecture, he noted that 
responsibilities for space traffic management are located in several 
other agencies. For example, the FAA's Office of Commercial Space 
Transportation grants launch and re-entry licenses, the Federal 
Communications Commission grants orbital locations and spectrum, and 
the Air Force operates the Space Surveillance system. He drew an 
analogy with the Global Positioning System (GPS) that started as a 
strictly military system but rapidly grew to have civil and commercial 
applications. General Armor recalled how organizational responsibility 
became vested in a National Executive Committee co-chaired by DOD and 
the Department of Transportation having oversight over diverse agency 
functions and resources. He advocated that ``Synchronizing these 
agencies to jointly start studying a space traffic management 
investment framework might be productive. Working towards a 
commercially secure space operating environment is an opportunity for 
global U.S. space leadership that addresses a huge portion of space 
security. This is also where discussions about rules of the road might 
be beneficial.''
    In addition, there have been other organizations and individuals 
that have examined the pros and cons of potential space traffic 
management approaches or international ``rules of the road.'' There is 
currently no international treaty, document or set of agreed upon 
guidelines that mandates a legal set of approaches towards space 
traffic management. The most concrete set of ``rules of the road'' 
originate from the space agencies internally. Legal solutions to such 
concerns as liability issues remain unclear. No standard exists for 
what constitutes negligence, nor is there a clear approach towards 
resolving possible incidents between foreign civil, commercial and 
military spacecraft. At this point, there does not appear to be a 
consensus on the appropriate long-term framework for space traffic 
management.
    Chairwoman Giffords. This hearing will come to order. Good 
afternoon, everyone, and welcome to today's hearing of the 
Space and Aeronautics Subcommittee.
    One of my favorite photographs can be seen in the other 
room, which is the Hubble Deep Field photograph where you look 
at it from a distance, and it looks like it is a photograph of 
a bunch of stars, but as you get closer you see, in fact, it is 
a photo of a bunch of galaxies. And the more you learn about 
this incredible photograph you realize they just decided to 
take an image from Hubble into the universe, and it is 
approximately as large as your thumb if you were to hold it up, 
and it really goes to show is what Kurt Vonnegut had said, 
``The universe is a big place.''
    And that is why it is such a surprise to me and many others 
on the Subcommittee when we heard the news that two satellites 
had collided in orbit in February of this year. It is hard to 
believe that space has gotten that crowded. It was equally 
difficult to believe that nothing could have been done to 
prevent the collision, given that one of the satellites was 
active and by all accounts would have had the capability to 
move, maneuver out of harm's way. But the collision did happen, 
and the resulting increase in space debris has made the space 
environment more hazardous to civil and commercial satellites 
and spacecraft alike for many, many years to come.
    So now it is three months later, and someone like myself 
who serves both on the House Science Committee and also on the 
House Armed Services Committee, I believe that I speak for my 
colleagues on both committees and others as well that we want 
to know where things stand, and we want to know what we need to 
do in order to keep an event such as the one that happened in 
February from happening again.
    For example, how confident can we be that we are not going 
to face a similar hazardous situation in the near future 
between a commercial satellite and a U.S. or another nation's 
government spacecraft?
    Equally important, what assurance can we have that there 
will be adequate warning of a potential collision before it is 
too late to do anything about it? We also want to hear how DOD, 
NASA, the commercial space operators, and other space-faring 
nations coordinate in order to minimize the threat of such 
occurrences. And is the information on space debris and 
potential collisions getting to the people who need it when 
they need it?
    In short, was the February collision a fluke that could 
have been awarded--avoided, or do we need to improve our 
national and international capabilities for keeping the space 
environment safe for both civil and commercial users? If so, 
what is needed, and how do we go about getting it put into 
place?
    We hope to get the answers today to these important 
questions at the hearing, and I believe that we have a good 
panel of witnesses to help us in our oversight of this 
important issue. One thing is already clear. The space 
environment is getting increasingly crowded due to the 
relentless growth of space debris. Many say that if we do 
nothing, the problem will continue to get worse.
    As our witnesses will testify, the U.S. Space Surveillance 
Network is currently tracking more than 19,000 objects that are 
in orbit around the Earth. In addition, it has estimated that 
there are more than 300,000 pieces of debris as small as a half 
inch in size orbiting the Earth, including most recently a 
small spatula and a tool kit as well.
    So it is clear to me that if space-faring nations of the 
world don't take steps to minimize the growth of space junk, we 
will eventually face a situation where low-Earth orbit becomes 
a risky place to carry out civil and commercial space 
activities. This subcommittee wants to avoid that kind of space 
future if we can, and this hearing is going to be an important 
milestone in that effort.
    With that I want to welcome our distinguished panel of 
witnesses, and I look forward to your testimony.
    And with that I would like to recognize Mr. Olson for any 
opening remarks he would like to make.
    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good afternoon and welcome to today's hearing of the Space and 
Aeronautics Subcommittee.
    To quote the late Kurt Vonnegut, ``the universe is a big place . . 
.''
    That's why it was such a surprise to me and many others when we 
heard the news that two satellites had collided in orbit in February of 
this year.
    It was hard to believe that space had gotten that crowded.
    It was equally difficult to believe that nothing could have been 
done to prevent the collision, given that one of the satellites was 
active and by all accounts would have had the capability to maneuver 
out of harm's way.
    But the collision did happen.
    And the resulting increase in space debris has made the space 
environment more hazardous to civil and commercial satellites and 
spacecraft alike for years to come.
    It's now almost three months later.
    As someone who serves on both the Science and Technology Committee 
and the House Armed Services Committee, I want to know where things 
stand, and what we're going to do to keep such an event from happening 
again.
    For example, how confident can we be that we aren't going to face a 
similar hazardous situation in the near future between a commercial 
satellite and a U.S.--or other nation's government spacecraft?
    Equally importantly, what assurance can we have that there will be 
adequate warning of a potential collision before it is too late to do 
anything about it?
    How do DOD, NASA, the commercial space operators, and other space-
faring nations coordinate to minimize the threat of such occurrences, 
and is the information on space debris and potential collisions getting 
to the people who need it when they need it?
    In short, was the February collision a fluke that couldn't have 
been avoided, or do we need to improve our national--and 
international--capabilities for keeping the space environment safe for 
civil and commercial users?
    If so, what is needed, and how do we go about getting it put in 
place?
    We hope to get answers to these and other important questions at 
today's hearing, and I believe we have a good panel of witnesses to 
help us in our oversight of this important issue.
    One thing is already clear--the space environment is getting 
increasingly crowded due to the relentless growth of space debris.
    As our witnesses will testify, the U.S. Space Surveillance Network 
is currently tracking more than 19,000 objects that are in orbit around 
the Earth.
    In addition, it is estimated there are more than 300,000 pieces of 
debris as small as half-inch in size orbiting the Earth.
    That's a lot of debris! And of course there is the temporary bump-
up in the amount of debris that results whenever the odd astronaut 
spatula or toolkit floats away from the International Space Station . . 
..
    It is clear that if the space-faring nations of the world don't 
take steps to minimize the growth of space junk, we may eventually face 
a situation where low-Earth orbit becomes a risky place to carry out 
civil and commercial space activities.
    I want to avoid that kind of space future if we can, and this 
hearing is going to be an important milestone in that effort.
    With that, I want again want to welcome our distinguished panel of 
witnesses, and I look forward to your testimony.
    I now want to recognize Mr. Olson for any opening remarks he may 
care to make.

    Mr. Olson. Thank you, Madam Chairwoman, for calling this 
afternoon's hearing. I believe this is the first time that the 
Committee has considered this issue, the Subcommittee has 
considered this issue, and my thanks to the witnesses for 
taking time out of your busy schedules to appear before us 
today. I know you have invested many hours of preparation for 
today's hearing, and I am grateful for your efforts and your 
expertise.
    Satellite collisions and the danger posed by satellite 
debris have captured the public's and industries' attention. As 
the Chairwoman alluded to, the Iridium-Cosmos collision should 
serve as a stark signal that space-faring nations can no longer 
be complacent about the threats posed to all who use space.
    Congress through the Administration must also take note as 
we endeavor to establish future policies and programs that rely 
on routine access in use of space. There are many issues I look 
forward to hearing about today and to ask questions about our 
path forward.
    As more countries join the ranks as space-faring nations, 
all of us must determine ways to prevent future collisions, to 
mitigate the threat of debris, how best to track debris, how to 
minimize debris generation during future launches, and to 
better understand the economic and operational effects that 
space debris poses on civil, commercial, and military users.
    Once again, this committee is addressing an issue that has 
moved from the realm of science fiction to one of science fact. 
Can we track a bolt that came off a dead satellite moving at 
thousands of miles an hour to prevent it from hitting a still-
working spacecraft that is critical to our daily lives or to 
the lives of a crew that is on board that spacecraft? The 
chance of this may not be as great as the chance of me getting 
into a fender bender going down the Gulf Freeway during rush 
hour, but the consequences are much greater than a traffic jam 
caused at one rush hour. No other nation is as heavily invested 
in space-based commerce, national security, and environmental 
monitoring research as the United States of America.
    Given the critical role that space plays in our daily lives 
and one that is so critical to preserving a high standard of 
living, we simply must improve our ability to monitor and 
mitigate the threats posed by other satellites and space 
debris. And we can't stop at our borders. I think it is 
critical that we must also convince other space-faring nations 
of the urgency to adopt similar strategies, especially as more 
and more satellites are lofted into more and more crowded 
orbits.
    To the unknowing, the term space traffic management may 
sound a bit geeky or a little esoteric, but as I was preparing 
for this afternoon's hearing I was quickly convinced that the 
term has real meaning and describes a discipline we all need to 
pay close attention to. I am aware that government-owned and 
operated satellites rely on intensive monitoring programs to 
avoid collisions with other satellites and debris, but as more 
and more satellites come into use, especially from commercial 
users, many of whom are from overseas countries, the challenge 
of maintaining safe separation will grow.
    Again, I want to thank our Chairwoman for convening this 
timely and important hearing, and thanks again to our 
witnesses. I am anxious to hear your testimony and ask you some 
questions later on.
    Madam Chairman, I--Chairwoman, I yield my time back.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Madame Chairwoman, thank you for calling this afternoon's hearing, 
which I believe is the first time this subcommittee has explored this 
issue, and my thanks too, to our witnesses for taking time out of your 
busy schedules to appear before us today. I know that you have invested 
many hours in preparation for today's hearing, and I am grateful for 
your efforts and your expertise.
    Satellite collisions and the dangers posed by space debris have 
captured the public's and industry's attention. As the Chairwoman 
alluded to, the Iridium/Cosmos collision should serve as a stark signal 
that space-faring nations can no longer be complacent about the threats 
posed to all who use space. Congress and the Administration must also 
take note as we endeavor to establish future policies and programs that 
rely on routine access and use of space. There are many issues I look 
forward to hearing about today and to ask questions about our path 
forward.
    As more countries join the ranks of space-faring nations, all of us 
must determine ways to prevent future collisions, to mitigate the 
threat of debris, how best to track debris, how to minimize debris 
generation during future launches, and to better understand the 
economic and operational effects that space debris imposes on civil, 
commercial and military users.
    Once again, this committee is addressing an issue that has moved 
from the realm of science fiction to one of science fact: Can we track 
a bolt that came off a long dead satellite moving at thousands of miles 
an hour from hitting with a still working spacecraft that is critical 
to our daily lives or to the lives of a crew inhabiting that 
spacecraft? The chances of this may not be as great as the chance of me 
getting into a fender bender on the Gulf Coast Freeway, but the 
consequences are greater than ruining one rush hour.
    No other nation is as heavily invested in space-based commerce, 
national security, environmental monitoring and research as the United 
States of America. Given the critical role that space plays in our 
daily lives, and one that is so critical to preserving our high 
standard of living, we simply must improve our ability to monitor and 
mitigate the threats posed by other satellites and space debris. And we 
can't stop at our borders. I think it critical that we also convince 
other space-faring nations of the urgency to adopt similar strategies, 
especially as more and more satellites are lofted into more and more 
crowded orbits.
    To the unknowing, the term `space traffic management' may sound a 
bit geeky and esoteric, but as I was preparing for this afternoon's 
hearing, I was quickly convinced that the term has real meaning and 
describes a discipline we all need to pay close attention to. I am 
aware that government-owned and operated satellites rely on intensive 
monitoring programs to avoid collisions with other satellites and 
debris, but as more and more satellites come into use, especially from 
commercial users, many of whom are from overseas companies, the 
challenge of maintaining safe separation will grow.
    I want to thank our Chairwoman for convening this timely and 
important hearing, and to again thank our witnesses. I am anxious to 
hear your testimony and ask some questions about the way forward.

    Chairwoman Giffords. Thank you, Mr. Olson. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time I would like to introduce our witnesses. First 
up we have Lieutenant General Larry D. James, who is a 
Commander of the 14th Air Force, Air Force Space Command, and 
the Commander of the Joint Functional Component Command for 
Space. Welcome.
    We also have Mr. Nick Johnson, who is the Chief Scientist 
for Orbital Debris for NASA. So welcome, Mr. Johnson.
    We have Mr. Richard DalBello, who is the Vice President of 
Government Relations at Intelsat General Corporation. Glad you 
are here.
    And finally have Dr. Scott Pace, who is the Director of the 
Space Policy Institute at George Washington University.
    As our witnesses should know, you will each have five 
minutes for your spoken testimony. I know that is not a long 
period of time, but it will keep us on track. Your written 
testimony will be included for the record for the hearing, and 
when you have all completed your spoken testimony, we will 
begin questions. Each Member will have five minutes to question 
the panel.
    And we would like to begin with General James.

STATEMENT OF LIEUTENANT GENERAL LARRY D. JAMES, COMMANDER, 14TH 
AIR FORCE, AIR FORCE SPACE COMMAND; COMMANDER, JOINT FUNCTIONAL 
      COMPONENT COMMAND FOR SPACE, U.S. STRATEGIC COMMAND

    General James. Well, Madam Chairwoman, Ranking Member 
Olson, and distinguished Members of the Space and Aeronautics 
Subcommittee, I am honored to be here today for my first 
opportunity to appear before you as United States Strategic 
Command's Commander of the Joint Functional Component Command 
for Space. It is a distinct privilege to address you on the 
challenges faced by civil and commercial space users and to 
represent the men and women of JFCC Space who employ space 
capabilities around the globe every day.
    Today I will focus my discussion on what the current space 
environment looks like, how we work with commercial space users 
through the Commercial and Foreign Entities Pilot Program, and 
identify some of the challenges we face as we work to meet the 
growing challenges of operating safely in an increasingly-
complex and congested environment.
    Space traffic growth today is both a challenge and a 
concern. In 1980, only 10 countries were operating satellites 
in space. Today nine countries operate space ports, more than 
50 countries own or have partial ownership in satellites, and 
citizens of 39 nations have flown in space. In 1980, we were 
tracking approximately 4,700 objects in space, 280 of those 
objects were active satellites, while another 2,600 were 
debris. Today we are tracking as you said approximately 19,000 
objects, 1,300 active payloads, and about 7,500 pieces of 
debris. So in 29 years space traffic has quadrupled.
    We have made progress in improving our space situational 
awareness, however, as you noted February's collision between 
an active Iridium communications satellite and an inactive 
Russian satellite and a January, 2000, test of a Chinese ASAT 
continue to shape our future planning by tangibly demonstrating 
the vulnerability of our space assets.
    With increased use of space by a growing number of state 
and non-state users and the increased threats to our valuable 
space systems, it is paramount that the Department of Defense 
in collaboration with its partners in the U.S. Government, work 
hand in hand with civil, commercial, and international 
operators to ensure a space environment, a safe environment. 
The DOD does have a sound relationship with commercial space 
providers and operators, particularly those commercial 
communication and remote imaging organizations that support 
U.S. and national security activities. The relationship 
includes formal contractual arrangements for the provision of 
service to the DOD, routine strategic-level meetings between 
the commercial satellite CEOs and DOD senior civilians and 
officers, and numerous working-level meetings.
    As part of the Commercial and Foreign Entity Pilot Program 
or CFE Program, commercial users can access the 
AirForceSpaceCommandSpaceTrack.org website to obtain 
unclassified element-set data on current catalog objects. If a 
user would like more information, they must sign an agreement 
for CFE support via the website and submit a specific request 
for specific support.
    The CFE Pilot Program has been successful in transitioning 
the routine provision of satellite positional information from 
NASA to Air Force Space Command. Air Force Space Command has 
also developed an initial set of legal agreements. These 
agreements allow for the provision of additional services such 
as conjunction assessments and launch support and help identify 
the long-term desires of commercial and foreign entities for 
space situational information.
    The DOD intends to operationalize its support to commercial 
and foreign entities in the fall of 2009. The goal is to 
seamlessly transition the program from an Air Force Space 
Command Pilot Program to U.S. Strategic Command operational 
activity. The Joint Space Operation Center at Vandenberg Air 
Force Base will be the central node for sharing of information. 
We will continue to work closely with the commercial and 
foreign space communities to understand their evolving needs 
and desires for space situational awareness information and 
continue to grow our cooperative relationships to share 
information in ways that will improve space flight safety.
    Space situational awareness is more than understanding the 
space environment, tracking objects, and conducting conjunction 
assessments. We need to be able to discriminate between natural 
and manmade threats. We need to understand the location, the 
status, and purpose of these objects, their capabilities and 
their owner's intent. This comprehensive knowledge allows 
decision-makers to rapidly and effectively select courses of 
action to ensure our sustained freedom of action and safety in 
what is a contested environment. To get there we require more 
network sensors and information systems that seamlessly share 
information to more effectively use our current resources.
    The U.S. must continue to lead the community of space-
faring nations and encourage responsible behavior in the space 
environment. The United States' dependence on space across our 
military, civil, and commercial sectors requires improved space 
situational awareness and command and control capabilities to 
ensure our ability to safely and effectively operate in an 
dynamic and contested environment. Working in collaboration 
with our other departments and agencies in the U.S. Government, 
DOD must continue to build relationships, processes, and 
capabilities within the global space community that allow us to 
operate effectively together to meet the needs of national 
defense.
    Thank you for inviting me here today, and I look forward to 
your questions.
    [The prepared statement of Lieutenant General James 
follows:]
        Prepared Statement of Lieutenant General Larry D. James
    Madam Chairwoman, Ranking Member Olson, and distinguished Members 
of the Space and Aeronautics Subcommittee, I am honored to be here 
today for my first opportunity to appear before you as United States 
Strategic Command's (USSTRATCOM) Commander of the Joint Functional 
Component Command for Space (CDR JFCC SPACE).
    It's a distinct privilege to address you on the challenges faced by 
civil and commercial space users, and to represent the men and women of 
JFCC SPACE who employ space capabilities around the globe every day. 
These Soldiers, Sailors, Airmen, and Marines are a dedicated and 
innovative joint force, working hard to generate timely, accurate and 
thorough space situational awareness (SSA) and conduct command and 
control of our worldwide space forces. Their professionalism ensures, 
to the maximum extent possible, that the U.S. and our Allies may 
operate freely and safely in space.
    Today I will focus my discussion on what the current space 
environment looks like, how we work with commercial space users through 
the Commercial and Foreign Entities (CFE) Pilot Program and identify 
some of the challenges we face as we work to meet the growing challenge 
of operating safely in an increasingly complex and congested space 
environment.

CURRENT SPACE TRAFFIC ENVIRONMENT

    Space traffic growth is both a challenge and a concern. In 1980 
only 10 countries were operating satellites in space. Today, nine 
countries operate spaceports, more than 50 countries own or have 
partial ownership in satellites and citizens of 39 nations have 
traveled in space. In 1980 we were tracking approximately 4,700 objects 
in space; 280 of those objects were active payloads/spacecraft, while 
another 2,600 were debris. Today we are tracking approximately 19,000 
objects; 1,300 active payloads and 7,500 pieces of debris. In 29 years, 
space traffic has quadrupled.
    It's challenging to accurately predict the growth of active payload 
space traffic and debris. In addition to the growth of national 
security and commercial satellites from existing and new space-faring 
nations, we believe the global diffusion of space technologies, 
especially the availability of small spacecraft technologies and 
providers, will lead to a larger and more diverse population of active 
spacecraft.
    Based on the last 10 years of launch activity, we conservatively 
project the number of active satellites to grow from 1,300 to 1,500 
over the next 10 years. We also estimate the overall number of tracked 
objects could increase from 19,000 to as much as 100,000 depending 
largely on anticipated increases in sensitivity of future sensors such 
as the Space Fence. The increased sensitivity will allow us to track 
existing but undiscovered small debris. However, there will still be 
potentially lethal objects in space too small to be tracked by the 
Space Surveillance Network (SSN).
    We have made progress in improving our SSA; however, February's 
unfortunate collision between an active Iridium communications 
satellite and inactive Russian satellite, and the January 2007 Chinese 
test of an anti-satellite (ASAT) continue to shape our future planning 
by tangibly demonstrating the vulnerability of our space assets. To 
date we have cataloged over 870 pieces of debris as a result of the 
Iridium/COSMOS collision. The ASAT test by the Chinese left over 2,400 
pieces of potentially destructive orbital debris that we're still 
tracking 24 X 7. In both cases, there are likely thousands of smaller 
pieces our sensors can't track. A combined total of only 58 items have 
re-entered so far, with the remainder expected to be in orbit for 
decades. This debris will slowly decay due to natural forces and will 
remain a hazard to manned and unmanned space flight in low-Earth orbit, 
and to satellites transiting that region, from low to higher orbits.
    With an increased use of space by a growing number of State and 
non-State users and the increased threats to their valuable space 
systems, it is paramount that the Department of Defense (DOD)--in 
collaboration with its partners in the U.S. Government--work hand-in-
hand with civil, commercial, and international operators to ensure a 
safe environment.

DOD AND COMMERCIAL SPACE USER COORDINATION

    The DOD has a sound relationship with commercial space operators, 
particularly those commercial communication and remote imaging 
organizations that support U.S. and national security activities. The 
relationship includes formal contractual arrangements for the provision 
of service to the DOD, routine strategic-level meetings between the 
commercial satellite CEOs and DOD senior civilians and officers, and 
numerous working-level meetings.
    As part of the CFE Pilot Program, commercial users can access the 
Air Force Space Command (AFSPC) Space-track.org web site to obtain 
unclassified element set data on current catalogued objects. If a user 
would like more information, they must sign an agreement for CFE 
support via the web site and submit a request for specific support. The 
request is first reviewed at AFSPC to ensure it meets policy and 
security requirements. Once cleared through AFSPC it is sent to the 
614th Air and Space Operations Center (614th AOC) via 14th Air Force 
for operational review and processing. The 614th AOC works directly 
with users to process requests.
    The recent Iridium/COSMOS collision provides an excellent example 
of the relationship we have with commercial users and what we are doing 
to ensure safe space operations. The Joint Space Operations Center 
(JSpOC) began increased conjunction assessment screening of Iridium 
assets four hours and fifty minutes following the conjunction, and now 
screens over 330 objects daily to ensure safe space flight operations 
for both DOD and commercial space users supporting DOD missions.
    Despite our efforts and the milestones reached, we continue to face 
challenges. Specific challenges we are working hard to resolve include 
sharing of SSA data, improving timeliness and accuracy of data, and 
protecting sensitive information. The DOD has engaged with most of the 
major commercial satellite operators who provide support to the U.S. 
Government to discuss their needs for SSA as well as their ability to 
provide inputs to our awareness. AFSPC has initiated a working group 
which includes commercial operators to identify specific technical 
solutions that will allow the sharing of additional spacecraft 
positional and status information to enhance collective space flight 
safety. Additionally, AFSPC recently conducted an industry day at the 
25th Annual National Space Symposium in Colorado Springs and hosted a 
round table discussion with owner/operators, sharing short- and long-
term goals of the CFE Pilot Program.

COMMERCIAL AND FOREIGN ENTITY PILOT PROGRAM

    The CFE Pilot Program has been successful in transitioning the 
routine provision of satellite positional information from NASA to 
AFSPC for developing an initial set of legal agreements. These 
agreements allow for the provision of additional services such as 
conjunction assessments and launch support, and help identify the long-
term desires of commercial and foreign entities for space situational 
information.
    The AFSPC Space-track.org web site has been providing unclassified 
satellite catalog data to approved account holders since 2004. To date, 
we have hosted over 37,000 users spanning over 110 countries with 75 
percent of the users coming from the U.S., Canada, France, Germany, 
United Kingdom, and Australia.
    The next phase in the CFE Pilot Program evolution provides advanced 
services to commercial and foreign entities which establish or have a 
pre-existing agreement with the DOD. These services include conjunction 
assessment and launch support delivered through web services. The long-
term solution includes integrating commercial and foreign entity 
advanced services in the JSpOC Mission System with the ability to 
ingest data directly from these entities on a voluntary basis.
    There have been a number of important lessons learned from the 
pilot program. These include a greater understanding of: 1. the 
specific commercial and foreign desires and rationale for space 
situational information; 2. the operational agility and limitations of 
commercial and foreign operators; 3. the necessary resources required 
to satisfy commercial and foreign desires for information; and 4. the 
potential value of the information commercial and foreign operators 
might share among themselves and with the DOD. The DOD intends to 
operationalize the support to commercial and foreign entities in the 
Fall of 2009. The goal is to seamlessly transition the program from an 
AFSPC pilot program to a USSTRATCOM operational activity. The JSpOC 
will be the central node for the sharing of information. We will 
continue to work closely with the commercial and foreign space 
communities to understand their evolving needs and desires for SSA 
information, and continue to grow our cooperative relationships to 
share information in ways that will improve space flight safety.
    Although we have made large strides in SSA, it is imperative that 
we address the shortcomings in current SSA information, predictive 
capabilities, and supporting infrastructures, and develop an SSA vision 
for the future.

CHALLENGES AND WAY AHEAD

    Space situational awareness is more than understanding the space 
environment, tracking objects, and conducting conjunction assessments. 
We need to be able to discriminate between natural and man-made 
threats. We need to understand the location, status and purpose of 
these objects, their capabilities, and their owners' intent. This 
comprehensive knowledge enables decision-makers to rapidly and 
effectively select courses of action to ensure our sustained freedom of 
action and safety in what is clearly a contested environment. To get 
there we require more automated, net-centric capabilities to command 
and control space forces, and networked sensors and information systems 
that seamlessly share information to more effectively use our current 
resources. This will give us the ability to rapidly react--real-time 
data flow to the JSpOC for processing and analysis, and then real-time 
flow of the refined product back to the user.
    The overarching command and control and SSA program that will lead 
us towards our vision is the JSpOC Mission System. The program fuses 
multi-sourced space object tracking data with status and capability 
details, and provides automated assessment and decision-making aids.
    The Enhanced Space Sensors Architecture (ESSA) project will be 
folded into the JSpOC Mission System and brings valuable sensor data 
into a net-centric architecture. The technology being developed and 
demonstrated by the ESSA project puts sensors' space object imaging and 
metric tracking information on the network for faster analysis, 
evaluation, and end-use by operators and decision-makers at all levels. 
The JSpOC has participated in two demonstrations of ESSA, and is 
scheduled to participate in its third demonstration in May.
    The U.S. space surveillance architecture currently detects and 
tracks thousands of objects, but critical gaps remain in an ability to 
fully track and characterize all on-orbit objects, analyze and predict 
conjunctions, and protect not just military satellites, but also 
commercial and civil satellites critical to national security. The SSN 
provides acceptable coverage in the northern hemisphere, but we have a 
significant coverage gap in the southern hemisphere. By filling this 
gap we increase the JSpOC's ability to rapidly detect, track, and 
characterize new payloads and maintain awareness of maneuvering 
spacecraft. A key program to address this gap is the Space Fence. The 
Space Fence will be the most accurate dedicated radar in the SSN and 
will provide critical coverage from the southern hemisphere. With the 
capability to perform 750K observations per day and track over 100,000 
objects, the Space Fence will significantly reduce coverage gaps and 
significantly improve our low-Earth and medium-Earth orbit SSA.
    Our sensor network is currently able to track objects as small as 
10 centimeters across. We do this well for low-Earth orbits; however, 
our ability decreases as we track objects in geosynchronous (GEO) 
orbit. We need to improve our capability to track and assess smaller 
objects in all orbits if we are to keep pace with the potential threats 
from the emerging small satellite technologies, and to gain better 
awareness of the hazards posed by small space debris. Today, many GEO 
objects go days without being tracked. The Space-based Space 
Surveillance (SBSS) satellite will provide the ability for the 
uninterrupted scan of the entire GEO belt every 24 hours--vital to 
maintaining positional knowledge, called ``track custody'' of high 
interest objects in deep space. Additionally, this new system's revisit 
rate for all GEO objects will greatly reduce the ``lost list'' of 
objects that change position between observations. I look forward to 
the successful fielding of SBSS, and the marked improvement to 
situational awareness it will bring.
    With respect to cooperation with friends and allies, AFSPC experts 
are supporting the DOD and Department of State in discussions on SSA 
cooperation with the European Space Agency and European Union, as well 
as key European allies. These discussions provide a foundation for 
expanded trans-Atlantic cooperation on space situational awareness in 
support of common civil, commercial and military requirements. They 
also can serve as a model for discussions on SSA cooperation with our 
friends and allies in other regions.
    The U.S. must continue to lead the community of space-faring 
nations and encourage responsible behavior in the space environment. 
The JSpOC is the nexus of SSA and the focal point for ensuring safe, 
effective operation of our space forces and those of our partners. We 
need to gather real-time, quality data, have the ability to exploit 
that data rapidly and accurately, and then export decision-quality 
information across a range of customers from the intelligence community 
to deployed forces, foreign partners, and commercial users.

CONCLUSION

    The nature of space operations is rapidly evolving. The United 
States' dependence on space across our military, civil, and commercial 
sectors requires improved SSA and command and control capabilities to 
ensure our ability to safely and effectively operate in a dynamic and 
contested environment. Working in collaboration with other departments 
and agencies in the U.S. Government, DOD must continue to build the 
relationships, processes, and capabilities within the global space 
community that allow us to operate effectively together to meet the 
needs of national defense. I am truly honored to lead such a talented 
group of men and women. Perfection is our standard and you can be proud 
of your Soldiers, Sailors, Airmen and Marines that expertly tackle the 
challenges we face every day.

            Biography for Lieutenant General Larry D. James
    Lt. Gen. Larry D. James is Commander, 14th Air Force (Air Forces 
Strategic), Air Force Space Command, and Commander, Joint Functional 
Component Command for Space, U.S. Strategic Command, Vandenberg Air 
Force Base, Calif. As the U.S. Air Force's operational space component 
to USSTRATCOM, General James leads more than 20,500 personnel 
responsible for providing missile warning, space superiority, space 
situational awareness, satellite operations, space launch and range 
operations. As Commander, JFCC SPACE, he directs all assigned and 
attached USSTRATCOM space forces providing tailored, responsive, local 
and global space effects in support of national, USSTRATCOM and 
combatant commander objectives.
    General James entered the Air Force as a distinguished graduate of 
the U.S. Air Force Academy in 1978. His career has spanned a wide 
variety of operations and acquisition assignments, including Space 
Shuttle Payload Specialist, Air Staff Program Element Monitor, Global 
Positioning System Satellite Program Manager and Chief of Operations, 
14th Air Force.
    General James has commanded at the squadron, group and wing levels, 
and was Vice Commander of the Space and Missile Systems Center. He has 
served on the staffs of Headquarters U.S. Air Force, U.S. Space Command 
and Air Force Space Command. He also served as the Senior Space Officer 
for Operation Iraqi Freedom at Prince Sultan Air Base, Saudi Arabia. 
Prior to his current assignment, the General was Vice Commander, 5th 
Air Force, and Deputy Commander, 13th Air Force, Yokota Air Base, 
Japan.

EDUCATION

1978--Distinguished graduate, Bachelor of Science degree in 
        astronautical engineering, U.S. Air Force Academy, Colorado 
        Springs, Colo.

1983--Master of Science degree in astronautical engineering, 
        Massachusetts Institute of Technology, Cambridge

1984--Squadron Officer School, by correspondence

1988--Program Managers Course, Defense Systems Management College, Fort 
        Belvoir, Va.

1989--Air Command and Staff College, Maxwell AFB, Ala.

1993--Air War College, Maxwell AFB, Ala.

1997--Joint Professional Military Education Phase II, Armed Forces 
        Staff College, Norfolk, Va.

2002--National Security Management Fellowship, Syracuse University, 
        N.Y.

2006--Combined Forces Air Component Commander Course, Maxwell AFB, Ala.

2007--Intelligence Community Executive Leader Program, Kellogg School 
        of Management, Northwestern University, Chicago, Ill.

2007--Joint Forces Maritime Component Commander Course, Naval War 
        College, R.I.

ASSIGNMENTS

 1.  July 1978-August 1981, Project Officer, Advanced Space Guidance 
Systems, Directorate of Technology, Space and Missile Systems 
Organization, Los Angeles AFB, Calif.
 2.  August 1981-January 1983, student, Massachusetts Institute of 
Technology, Cambridge
 3.  January 1983-December 1987, Space Shuttle Payload Specialist and 
Chief, Global Positioning System Space Systems Division, Headquarters 
Space and Missile Center, Los Angeles AFB, Calif.
 4.  January 1988-July 1988, student, Defense Systems Management 
College, Fort Belvoir, Va.
 5.  August 1988-July 1989, student, Air Command and Staff College, 
Maxwell AFB, Ala.
 6.  August 1989-June 1991, Program Element Monitor, Global Positioning 
System, Directorate of Space Programs, Assistant Secretary of the Air 
Force for Acquisition, the Pentagon, Washington, D.C.
 7.  June 1991-July 1992, Executive Officer to Director, Space 
Programs, Assistant Secretary of the Air Force for Acquisition, the 
Pentagon, Washington, D.C.
 8.  August 1992-July 1993, student, Air War College, Maxwell AFB, Ala.
 9.  September 1993-July 1994, Commander, 45th Spacecraft Operations 
Squadron, Cape Canaveral Air Force Station, Fla.
10.  July 1994-July 1995, Commander, 5th Space Launch Squadron, Cape 
Canaveral AFS, Fla.
11.  July 1995-January 1996, Deputy Commander, 45th Operations Group, 
Patrick AFB, Fla.
12.  January 1996-May 1997, Deputy Chief, Space Control Mission Team, 
Air Force Space Command, later, Chief, Requirements and Programs 
Branch, Integration Division, U.S. Space Command, Peterson AFB, Colo.
13.  May 1997-August 1998, Chief, Integration Division, Directorate of 
Plans, U.S. Space Command, Peterson AFB, Colo.
14.  August 1998-June 2000, Commander, 614th Space Operations Group, 
and Chief of Operations, 14th Air Force, Vandenberg AFB, Calif.
15.  June 2000-April 2001, Executive Officer to Commander, North 
American Aerospace Defense Command, Commander, U.S. Space Command and 
Commander, AFSPC, Peterson AFB, Colo.
16.  April 2001-June 2003, Commander, 50th Space Wing, Schriever AFB, 
Colo.
17.  June 2003-July 2004, Assistant Director of Air and Space 
Operations, Headquarters AFSPC, Peterson AFB, Colo.
18.  July 2004-July 2005, Vice Commander, Space and Missile Systems 
Center, Los Angeles AFB, Calif.
19.  July 2005-May 2007, Director, Signals Intelligence Systems 
Acquisition and Operations Directorate, National Reconnaissance Office, 
Washington, D.C.
20.  May 2007-December 2008, Vice Commander, 5th Air Force, and Deputy 
Commander, 13th Air Force, Yokota Air Base, Japan
21.  December 2008-present, Commander, 14th Air Force (Air Forces 
Strategic), Air Force Space Command, and Commander, Joint Functional 
Component Command for Space, USSTRATCOM, Vandenberg AFB, CA.

MAJOR AWARDS AND DECORATIONS

Defense Superior Service Medal with oak leaf cluster

Legion of Merit with three oak leaf clusters

Bronze Star Medal

Meritorious Service Medal with three oak leaf clusters

Air Force Commendation Medal

OTHER ACHIEVEMENTS

Top third graduate, Air Command and Staff College

Top 10 percent graduate, Air War College

National Finalist, White House Fellow Program

EFFECTIVE DATES OF PROMOTION

Second Lieutenant May 31, 1978

First Lieutenant May 31, 1980

Captain May 31, 1982

Major April 1, 1988

Lieutenant Colonel April 1, 1992

Colonel Dec. 1, 1997

Brigadier General Feb. 1, 2004

Major General Aug. 2, 2007

Lieutenant General Dec. 9, 2008

    Chairwoman Giffords. Thank you.
    Mr. Johnson, please.

   STATEMENT OF MR. NICHOLAS L. JOHNSON, CHIEF SCIENTIST FOR 
ORBITAL DEBRIS, JOHNSON SPACE CENTER, NATIONAL AERONAUTICS AND 
                  SPACE ADMINISTRATION (NASA)

    Mr. Johnson. Madam Chairwoman and Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today to discuss the important topic of space debris.
    While the adage, ``what goes up must come down,'' still 
applies in the space age, most satellites take a very long time 
to fall back to Earth. In many cases this descent can take 
hundreds or even thousands of years.
    Thus, the numerous operational satellites as well as the 
human-occupied International Space Station now circling the 
globe, performing vital functions of communications, 
navigation, Earth observation, science and research, 
exploration and defense, are accompanied by a much larger 
population of defunct spacecraft, derelict launch vehicle 
orbital stages, intentional refuse, and the products of more 
than 200 satellite explosions and collisions.
    For 30 years, NASA has led the world in scientific studies 
to characterize the near-Earth space debris environment, to 
assess its potential hazards to the current and future space 
operations, and to identify and to implement means of 
mitigating its growth.
    Since 1988, the United States National Space Policy has 
specifically addressed the need to limit the growth of the 
space debris population. The current National Space Policy 
signed by the President in 2006, charges U.S. Government 
agencies and organizations with seeking, ``to minimize the 
creation of orbital debris by government and non-government 
operations in space in order to preserve the space environment 
for future generations.''
    The Policy also states, ``The United States shall take a 
leadership role in international for--to encourage foreign 
nations and international organizations to adopt policies and 
practices aimed at debris minimization.''
    In 1995, NASA was the first U.S. Government organization to 
establish formal space debris mitigation guidelines. In 2001, 
the U.S. Government Orbital Debris Mitigation Standard 
Practices, based upon the NASA Space Debris Mitigation 
guidelines, was adopted after a lengthy and thorough inter-
governmental review and coordination with the aerospace 
industry. The fundamental elements of these standard practices 
were adopted in 2002, by the major space-faring nations under 
the auspices of the Inter-Agency Space Debris Coordination 
Committee, whose members represent the space agencies of ten 
countries, as well as the European Space Agency. In 2007, the 
United Nations, through the Committee on the Peaceful Uses of 
Outer Space, adopted a similar set of space debris mitigation 
guidelines.
    While NASA continues to promote the curtailment of the 
generation of new space debris, we must also operate in the 
existing debris environment. To this end, NASA designs 
spacecraft to withstand small particle impacts, and the Agency 
works with the U.S. Space Surveillance Network to avoid 
collisions between our space assets and the known resident 
space objects.
    NASA procedural requirements call for conjunction 
assessments or close-approach predictions to be performed for 
all our maneuverable spacecraft. During 2008, NASA twice 
maneuvered a robotic spacecraft of the Earth Observation System 
in low-Earth orbit and once maneuvered a tracking and data 
relay satellite into geosynchronous orbit to prevent potential 
collisions. Twice since last August the International Space 
Station has conducted collision-avoidance maneuvers.
    The recent collision of two intact satellites underscores 
NASA's 1970's era finding, reiterated more recently in a NASA 
study published in Science in 2006, that the amount of space 
debris already in Earth orbit is sufficient to lead to more 
accidental collisions, which in turn will lead to an unintended 
increase in space debris and increased risks to operational 
space systems. In the future such collisions are likely to be 
the principle source of new space debris.
    The most effective means of limiting satellite collisions 
is to remove non-functional spacecraft and launch vehicle 
orbital stages from Earth orbit. However, the remediation of 
the near-Earth space environment presents substantial technical 
and economic challenges. The threat posed by orbital debris to 
the reliable operation of space systems will continue to grow 
unless the sources of space debris are brought under control. 
The international aerospace community has already made 
significant strides in the design and the operation of space 
systems to curtail the creation of new orbital debris but more 
can be done.
    Currently, the Department of Defense's Commercial and 
Foreign Entities Program is the principle means of distributing 
space situational awareness data to space system operators and 
the general public. Enhancement of this program, both to serve 
a larger number of users and to increase the variety of 
services available, especially conjunction assessments, offer 
the greatest near-term and lowest cost improvement to space 
safety.
    I would be happy to respond to any questions you and other 
Members may have. Thank you.
    [The prepared statement of Mr. Johnson follows:]
               Prepared Statement of Nicholas L. Johnson
    Madam Chairwoman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the important topic 
of space debris. While the adage ``what goes up, must come down'' still 
applies in the space age, most satellites take a very long time to fall 
back to Earth. In many cases, this descent can last hundreds, even 
thousands, of years. Consequently, after more than 4,600 space missions 
conducted world-wide since Sputnik 1, a large number of human-made 
objects have steadily accumulated in Earth orbit. Thus, the numerous 
operational satellites as well as the human occupied International 
Space Station now circling the globe, performing vital functions of 
communications, navigation, Earth observation, science and research, 
exploration, and defense, are accompanied by a much larger population 
of defunct spacecraft, derelict launch vehicle orbital stages, 
intentional refuse, and the products of more than 200 satellite 
explosions and collisions.

Characterization of the Near-Earth Space Debris Environment

    For 30 years, NASA has led the world in scientific studies to 
characterize the near-Earth space debris environment, to assess its 
potential hazards to current and future space operations, and to 
identify and to implement means of mitigating its growth. The near-
Earth space debris environment ranges in altitude from 100 to more than 
20,000 miles above Earth, and the debris itself ranges in mass from 
less than an ounce to many tons. Consequently, this population of space 
debris is a matter of growing concern for all space-faring nations.
    Today, the United States Space Surveillance Network, managed by 
U.S. Strategic Command, is tracking more than 19,000 objects in orbit 
about the Earth, of which approximately 95 percent represent some form 
of debris. However, these are only the larger pieces of space debris, 
typically four inches or more in diameter. The number of debris as 
small as half an inch exceeds 300,000. Due to the tremendous energies 
possessed by space debris, the collision between a piece of debris only 
a half-inch in diameter and an operational spacecraft, piloted by 
humans or robotic, has the potential for catastrophic consequences.

United States and International Debris Policy

    Since 1988, the United States National Space Policy has 
specifically addressed the need to limit the growth of the space debris 
population. The current National Space Policy, signed by the President 
in 2006, charges the U.S. Government agencies and organizations with 
seeking ``to minimize the creation of orbital debris by government and 
non-government operations in space in order to preserve the space 
environment for future generations.'' The policy also states that ``The 
United States shall take a leadership role in international fora to 
encourage foreign nations and international organizations to adopt 
policies and practices aimed at debris minimization . . ..''
    In 1995, NASA was the first U.S. Government organization to 
establish formal space debris mitigation guidelines. In 2001, the U.S. 
Government Orbital Debris Mitigation Standard Practices, based upon the 
NASA space debris mitigation guidelines, were adopted after a lengthy 
and thorough intergovernmental review and coordination with the 
aerospace industry. The fundamental elements of these standard 
practices were adopted in 2002 by the major space-faring nations under 
the auspices of the Inter-Agency Space Debris Coordination Committee, 
whose members represent the space agencies of 10 countries, as well as 
the European Space Agency. In 2007, the United Nations, through the 
Committee on the Peaceful Uses of Outer Space, adopted a similar set of 
space debris mitigation guidelines.

NASA Debris Avoidance and Mitigation

    While NASA continues to promote the curtailment of the generation 
of new space debris, we must operate in the existing debris 
environment. To this end, NASA designs spacecraft to withstand the 
impacts of small debris, and the Agency works with the U.S. Space 
Surveillance Network to avoid collisions between our space assets and 
other known resident space objects. NASA procedural requirements call 
for conjunction assessments, i.e., close approach predictions, to be 
performed for all our maneuverable spacecraft. During 2008, NASA twice 
maneuvered robotic spacecraft of the Earth Observation System in low-
Earth orbit and once maneuvered a Tracking and Data Relay Satellite in 
geosynchronous orbit to avoid potential collisions. Twice since last 
August, the International Space Station has conducted collision 
avoidance maneuvers.
    For the 35 years from mid-1961 to mid-1996, the population of 
cataloged objects (i.e., objects that are four inches in size or 
larger) in Earth orbit increased at an average rate of 270 per year. 
However, with the concerted efforts of the major space-faring nations 
of the world, the rate dropped dramatically to only 70 per year for the 
next decade. Unfortunately, the intentional destruction of the Chinese 
Fengyun-1C weather satellite in January of 2007 and the accidental 
collision of American and Russian spacecraft in February of this year 
have increased the cataloged debris population by nearly 40 percent, in 
comparison with all the debris remaining from the first 50 years of the 
Space Age.
    The recent collision of two intact satellites underscores a NASA 
1970s-era finding, reiterated more recently in a NASA study published 
in Science in 2006, that the amount of debris already in Earth orbit is 
sufficient to lead to more accidental collisions, which in turn will 
lead to an unintended increase in space debris and increased risk to 
operational space systems. In the future, such collisions are likely to 
be the principal source of new space debris. The most effective means 
of limiting satellite collisions is to remove non-functional spacecraft 
and launch vehicle orbital stages from orbit. However, the remediation 
of the near-Earth space environment presents substantial technical and 
economic challenges.

Conclusion

    The threat posed by orbital debris to the reliable operation of 
space systems will continue to grow unless the sources of debris are 
brought under control. The international aerospace community has 
already made significant strides in the design and operation of space 
systems to curtail the creation of new orbital debris, but more can be 
done.
    Currently, the Department of Defense Commercial and Foreign 
Entities program is the principal means of distributing space 
situational awareness data to space system operators and the general 
public. Enhancements to this program, both to serve a larger number of 
users and to increase the variety of services available, especially 
conjunction assessments, offer the greatest near-term and lowest cost 
improvement to space safety. In the longer-term, technical advances in 
space surveillance, including more capable sensors and higher accuracy 
data, are likely needed.
    I would be happy to respond to any question you or the other 
Members of the Subcommittee may have.

                   Biography for Nicholas L. Johnson
    As NASA Chief Scientist for Orbital Debris at the NASA Johnson 
Space Center since 1997, Mr. Johnson serves as the agency authority in 
the field of orbital debris, including all aspects of environment 
definition, present and future, and the operational and design 
implications of the environment to both manned and robotic space 
vehicles operating in Earth orbit. He is responsible for conceiving and 
conducting research to define the orbital debris environment, for 
determining operational techniques for spacecraft to protect themselves 
from the environment, and for recommending techniques to minimize the 
growth in the future orbital debris environment. He leads the U.S. 
delegation to the Inter-Agency Space Debris Coordination Committee 
(IADC) and since 1997 has served as the U.S. technical expert on 
orbital debris at the United Nations. He served concurrently as the 
Program Manager for NASA's Orbital Debris Program Office from 1997 to 
2006. Mr. Johnson has 30 years experience in orbital debris research 
and applications and is the recipient of the NASA Distinguished Service 
Medal, the NASA Exceptional Achievement Medal, and the DOD Joint 
Meritorious Civilian Service Award for his work in this field.

    Chairwoman Giffords. Thank you, Mr. Johnson.
    Mr. DalBello.

 STATEMENT OF MR. RICHARD DALBELLO, VICE PRESIDENT, LEGAL AND 
        GOVERNMENT AFFAIRS, INTELSAT GENERAL CORPORATION

    Mr. DalBello. Chairwoman Giffords, Ranking Member Olson, 
and distinguished Members of the Subcommittee, thank you very 
much for this opportunity to discuss the role that the 
commercial satellite industry plays in keeping the space 
environment safe for the civil and commercial users.
    The commercial satellite industry has been providing 
essential space services almost for as--almost as long as 
humans have been in space. Today Intelsat operates a fleet of 
over 50 satellites. In response to business opportunities and 
changing market needs we routinely replace satellites and 
relocate them in orbit. To change the orbital location of a 
satellite, we must delicately move a mini-bus-sized object, 
multi-ton object traveling thousands of kilometers an hour 
through the crowded geostationary arch, avoiding the potential 
for collision with or for disturbing the radio communications 
of any of--any one of the hundreds of commercial and government 
satellites in that orbit.
    By and large this project--process takes place without 
government regulation or oversight, using rules developed 
through experience and implemented by consensus among the 
commercial operators themselves. This remarkable example of 
international and inter-company cooperation and self-reliance 
is premised on a simple realization; that the results of a 
collision could be catastrophic.
    In flying our satellites Intelsat relies on data from our 
own spacecraft and information derived from the U.S. Air 
Force's Commercial and Foreign Entities Program. During special 
activities such as satellite relocations and transfer orbit 
missions, we also exchange data with other satellite operators 
whose satellites are operating near or adjacent to our 
satellites.
    There are, however, drawbacks to relying on the CFE data. 
These data do not have a--have the required accuracy for 
credible collision detection. The data also lacks the 
spacecraft maneuver information that is necessary to properly 
predict the orbit, the orbital location of active satellites.
    An operator that is relying on the CFE data alone must 
increase the calculated collision margin to avoid potential 
close approaches. This wastes fuel and satellite life and 
introduces uncertainty into the equation. Because of the 
relatively imprecise nature of the publicly-available data, the 
U.S. Air Force has also established the interim CFE Data 
Analysis Redistribution Approval Process, more commonly known 
as the Form-One Process. Through the Form-One Process operators 
can request additional, more precise information on specific 
close-approach situations.
    However, the current Form-One Process is difficult to 
incorporate as an operational tool. There is no approved, DOD-
approved Form-One guidance document that articulates the 
boundaries of the program, nor is there any written 
specification of the operational procedures that a compliant 
operator should follow when using the process. This lack of 
clarity also creates uncertainty.
    In response to the shortcomings of the current program, a 
number of global satellite operators have begun a dialogue on 
how to best ensure information sharing within the industry. One 
proposal currently being discussed is the creation of a global 
data center. That would allow operators to augment data coming 
from the CFE Program with precision orbit data and maneuver 
plans from their respective fleets. Today a prototype of the 
data center is operating with seven of the largest global 
operators regularly contributing data from over 120 satellites. 
While there is still significant work left to refine the 
process, the initial results from the data center prototype are 
promising.
    Although such private initiatives have great value, it is 
essential that the U.S. Government continue to play a 
leadership role on the issue of space traffic control. In 
pursuit of this objective, we would offer the following 
specific recommendations. These are detailed more completely in 
my written testimony, but just in bullet form.
    Provide adequate funding for space situational awareness. 
The space situational network that we have today was developed 
during the Cold War, mostly for looking for missiles coming 
over the horizon. There is a lot of opportunity for good, 
productive investment in upgrading that capability.
    Maintain and expand the U.S. Commercial and Foreign 
Entities Program. As Lieutenant General James pointed out, it 
is current--the program is currently a pilot, and it is 
important that we mature that program to an operational status.
    Third, develop new mechanisms for sharing space traffic 
information between and among nations. Several other countries, 
including France and the UK and Australia, Russia I am sure has 
a network. There are many countries who have networks 
monitoring space. The question is how are we going in the 
future to share information between those networks.
    Fourth, take advantage of the data readily available from 
the private sector. We all monitor all of our satellites all 
the time. It is information that is more precise than the 
information that the government can have by sensing us in 
space. We would gladly share this information in the interest 
of creating a safer space environment.
    And finally, be creative in the development of new data 
sources. We have offered to fly a sensor on every one of our 
commercial satellites that is going to space, and if you were 
go put a sensor on every commercial satellite and every 
scientific satellite that went up over the next five years, you 
would have for almost no investment you would have an amazing 
view of the heavens.
    So in conclusion, within the next decade many more 
countries will gain the ability to exploit space for 
commercial, scientific, and government purposes. It is 
essential that the world's governments provide leadership on 
space management issues today in order to protect the space 
activities of tomorrow.
    [The prepared statement of Mr. DalBello follows:]
                 Prepared Statement of Richard DalBello

Commercial Management of the Space Environment

    Chairwoman Giffords, Ranking Member Olson, and distinguished 
Members of the Subcommittee, thank you for this opportunity to discuss 
the role that the commercial satellite industry plays in ``Keeping the 
Space Environment Safe for Civil and Commercial Users.'' The commercial 
satellite industry has billions of dollars of assets in space and 
relies on this unique environment for the development and growth of our 
businesses. As a result, safety and the sustainment of the space 
environment are two of our highest priorities. This afternoon I would 
like to provide a quick survey of past and current industry space 
traffic control practices and to discuss a few key initiatives that the 
industry is developing in this area.

Background

    The commercial satellite industry has been providing essential 
space services for almost as long as humans have been exploring space. 
Over the decades, this industry has played an active role in developing 
technology, worked collaboratively to set standards, and partnered with 
government to develop successful international regulatory regimes. 
Success in both commercial and government space programs has meant that 
new demands are being placed on the space environment. This has 
resulted in orbital crowding, an increase in space debris, and greater 
demand for limited frequency resources. The successful management of 
these issues will require a strong partnership between government and 
industry and the careful, experience-based expansion of international 
law and diplomacy.
    Throughout the years, the satellite industry has never taken for 
granted the remarkable environment in which it works. Industry has 
invested heavily in technology and sought out the best and brightest 
minds to allow the full, but sustainable exploitation of the space 
environment. Where problems have arisen, such as space debris or 
electronic interference, industry has taken the initiative to deploy 
new technologies and adopt new practices to minimize negative 
consequences.
    In the late 1970s and early to mid 1980s, both Russia and the 
United States engaged in the testing of anti-satellite weapon systems. 
Both countries abandoned these efforts, in part because the creation of 
additional space debris was inconsistent with their plans for the full 
exploration and exploitation of the space environment. Similarly, the 
future preservation of the space environment will rely on every 
nation's appreciation that its own self-interest lies in preserving 
this precious common good.
    The major commercial satellite operators routinely share 
information and resources with each other and with governments to help 
ensure the protection of the unique and irreplaceable space 
environment. Intelsat operates a fleet of more than 50 satellites--the 
largest geostationary commercial fleet ever assembled. In response to 
business opportunities and changing market needs, Intelsat regularly 
replaces satellites and relocates satellites in orbit. Recently, in 
response to a request from DOD, Intelsat moved a satellite that had 
been operating over the United States to the other side of the world in 
order to provide critical UAV services in Afghanistan and Iraq. This 
entire process was completed in less than two weeks.
    The majority of our fleet is in geostationary orbit. This orbit is 
32,000 km above the Earth in a region where the movement of our 
satellites exactly matches the rotation of the Earth, thereby making 
the satellite seem ``fixed'' in the heavens. To change the orbital 
location of a satellite, Intelsat must delicately move a minibus-sized, 
multi-ton object, traveling thousands of kilometers per hour, through 
the crowded geostationary arc, avoiding the potential for collisions 
with, or for disturbing the radio communications of, any of the more 
than 250 other commercial communications satellites in that orbit. 
Other satellite companies that operate in lower Earth orbits--some a 
few hundred kilometers above the Earth--must deal with many more 
operational objects and a substantially increased debris environment. 
The recent collision between the Iridium satellite and a non-
operational Russian satellite took place in this lower Earth orbit.
    With the exception of the initial grant of approval by a national 
regulator, by and large, the management of satellite operations takes 
place without governmental regulation or oversight, using rules 
developed through experience and implemented by consensus among the 
commercial operators themselves. This process has been used effectively 
and without incident since the commercial satellite communications era 
began in the 1960s. This remarkable example of international and inter-
company cooperation and self-reliance is premised on a simple 
realization that the results of a collision could be catastrophic.
    In low-Earth orbits (generally 200-1000 km above Earth), objects 
and debris will slowly, over a decade or so, re-enter the Earth's 
atmosphere. In the narrow geostationary orbit (32,000 km above the 
Earth) the debris from a collision would endure for tens of thousands 
of years, effectively rendering a portion of the GEO arc useless.

Space Traffic Control--Past and Future

    I would like to take a moment and describe Intelsat's past and 
current approach to space operations. I would also like to describe the 
current state of data-sharing among commercial satellite operators and 
suggest a new paradigm for easing critical communications among 
operators and between operators and governments.
    As I alluded to above, commercial satellite operators, working with 
limited government oversight, have over the years developed their own 
internal protocols and procedures to ensure the safe operation of their 
fleets. Operators have also become adept at informal coordination and 
information exchange with operators who are `flying' satellites 
adjacent to or near their satellites.
    At the beginning of the space age and through most of the 1970's 
and 1980's there was no serious examination of `space traffic control' 
since there was a great deal of space and, quite literally, no traffic 
to control. As the world entered the 1990's deregulation, 
privatization, and the rapid expansion of the video market all served 
to power a growth in communication and broadcast satellite activity. By 
the late 1990s, Intelsat decided that it would be prudent to gather 
better information on the space environment, so it contracted with the 
Aerospace Corporation via the Space Operation Support Office (SOPSO) to 
conduct close-approach monitoring.
    The Aerospace Corporation developed a fully automated two-tier 
program that determined satellite close approaches based on miss-
distances and conjunction probabilities. The initial detection was 
based on the publicly available NORAD data known as the Two Line 
Element sets (TLE). Once a potential conjunction between two space 
objects was identified, Aerospace would request the more accurate 
special perturbation (SP) ephemeris data from the Air Force to confirm 
the conjunction. The Aerospace Corporation shut down the SOPSO office 
abruptly in November 2002.
    In 2003 Intelsat contracted MIT Lincoln Lab to perform close-
approach analysis. It was a semi-automated system and the conjunction 
detection was based on miss-distances only. Because MIT had a 
contractual relationship with the Air Force, and therefore direct 
access to the more precise observations from the deep space 
surveillance network, the conjunction monitoring was based on a single-
tier process. However, the monitoring was restricted to non-active 
space objects, such as debris. This restriction was due to the 
difficulties in detecting past maneuvers and predicting future 
maneuvers of active satellites. Such maneuvers tend to invalidate 
longer term close-approach predictions.
    Since January 2007, Intelsat has relied on an in-house close 
approach monitoring system. This system follows the two-tier model and 
relies on the US Joint Space Operations Center (JSpOC) to validate 
potential conjunctions detected using the TLE data that is available 
through the U.S. Government's ``Spacetrack.org'' web site. We routinely 
screen our satellites using the TLE data, and, during special 
activities such as satellite relocations and transfer orbit missions, 
we also exchange data with other satellite operators whose satellites 
are operating near or adjacent to our satellites. The exchanged 
information usually consists of the latest orbital information, near-
term maneuver plans, frequency information and contact information for 
further discussion.
    There are drawbacks to the current close-approach monitoring 
process. In addition to a lack of standards for TLE modeling, TLE data 
do not have the required accuracy for credible collision detection. An 
operator that is forced to rely on TLE data must increase the 
calculated collision margin to avoid potential close approaches. In 
most cases, threats identified using the basic TLE data are downgraded 
after coordination with other operators or further evaluation with more 
precise orbital data. In addition to the inaccuracies of the TLE data, 
these data also lack reliable maneuver information. This limits the 
usefulness of the TLE for longer-term predictions, since maneuver 
information is necessary to properly predict the orbital location of 
active satellites. Today, operators relying on chemical propulsion 
systems will maneuver about once every two weeks to maintain their 
orbital position. Accurately predicting the orbital location of a 
satellite will become more difficult as more satellites employ ionic 
propulsion systems and are, essentially, constantly maneuvering.
    Adding complexity to this problem is the fact that there is no 
single standard for representing the position of an object in space. 
Different operators characterize the orbital position of their 
satellites differently, depending on the software they use for flight 
operations. In addition, there is no one agreed upon protocol for 
sharing information, and coordinating operators must be prepared to 
accommodate the practices of other operators. To do this, operators 
must maintain redundant file-transfer protocols and tools to convert 
and reformat information so that it is consistent with other owners'/
operators' software systems for computing close approaches. Separate 
tools are necessary to exchange data with each operator. Some operators 
write their own software tools for monitoring and predicting the close 
approach of other spacecraft while others contract with third parties 
for this service. The magnitude of the effort to maintain ``space 
situational awareness'' grows quickly as the number of coordinating 
operators increases. Unfortunately many operators are not able or 
willing to participate in close approach monitoring due to lack of 
resources or capabilities.
    Because of the relatively imprecise nature of the TLE data, the 
U.S. Air Force established the ``Interim CFE Data/Analysis 
Redistribution Approval Process'' (Commonly referred to as the Form 1 
Process) for granting operators access to information that goes beyond 
the basic TLEs. Through the Form 1 Process, operators can request 
additional information (the special perturbation, or SP, data) on 
specific `close approach' situations. Although helpful, it is 
cumbersome to rely on the Form 1 Process as an operational tool because 
it requires advance notice, which is often impossible in emergency 
situations. In addition, conjunction events often require close 
cooperation and interactive communication. Today, the Form 1 Process 
relies primarily on e-mail as a method of communication and the U.S. 
Government does not guarantee the rapid turnaround necessary in most 
cases.
    The U.S. Government is currently reviewing its policies on the 
distribution of TLE data. One proposal would require the negotiation of 
individual ``tailored agreements'' between the U.S. Government and 
satellite operators requesting information. Other proposals have 
suggested that the U.S. Government might be willing to provide 
additional conjunction assessment services on a reimbursable basis. At 
this writing, it is unclear how or whether the CFE program, which was 
originally scheduled to terminate this year, will continue.
    Recently, Intelsat conducted an informal survey of satellite 
operator professionals who routinely interact with the JSpOC and the 
CFE process. Their reaction indicated that there are a few key areas 
where the current process could be immediately improved:

        1.  Clarify the Process--To manage expectations, publicly 
        clarify the process that should occur from the moment a Form 1 
        request is submitted to JSpOC until the analysis is returned to 
        the operator. The JSpOC should also designate a POC for 
        questions.

        2.  Make the Process Interactive--To reduce uncertainty, JSpOC 
        should provide a receipt to acknowledge that the operator 
        request has been received (or that JSpOC has received the 
        information it requested) and provide notification of status 
        change as operator requests go through the system, or as the 
        JSpOC responds to perceived threats.

        3.  Distinguish between Routine and Emergency Requests--Allow 
        operators to include a priority flag for time-sensitive 
        requests so critical issues can receive attention first.

        4.  Where Possible, Indicate Data Quality--To assist the 
        operators in making decisions, provide quality flags, where 
        possible, to indicate the quality of the data used by the JSpOC 
        in conducting their analysis.

Data Center Proposal

    In response to the shortcomings of the current TLE-based CFE 
program and the recognition that better inter-operator communication is 
desirable in and of itself, a number of satellite operators have 
recently begun a broad dialogue on how to best ensure information-
sharing within the satellite communication industry. One proposal 
currently being discussed in the international operators' community is 
the ``Data Center.'' As conceptualized, the Data Center would be an 
interactive repository for commercial satellite orbit, maneuver and 
frequency information. Satellite operators would routinely deposit 
their fleet information into the Data Center and retrieve information 
from other member operators when necessary. The Data Center would allow 
operators to augment existing Two Line Element (TLE) data with 
precision orbit data and maneuver plans from the operator's fleets. The 
Data Center would also:

        <bullet>  Perform data conversion and reformatting tasks 
        allowing operators to share orbital element and/or ephemeris 
        data in different formats;

        <bullet>  Adopt common usage and definition of terminologies;

        <bullet>  Develop common operational protocols for handling 
        routine and emergency situations;

        <bullet>  Exchange operator personnel contact information and 
        protocols in advance of need.

    If the Data Center were to gain acceptance, it could perform 
additional functions, such as the close-approach monitoring tasks 
currently being conducted by the operators. In this phase, U.S. 
Government-provided TLE data could be augmented by the more precise 
data available from the operators. This would improve the accuracy of 
the Center's conjunction monitoring and could provide a standardized 
way for operators to share information with the U.S. Government and 
other governments. In the early stages, information on non-operational 
space objects would still need to be supplemented by TLE data from the 
Air Force CFE program and/or other government programs. U.S. 
Government, or other government support would still be required when 
precise information is needed to conduct avoidance maneuver planning.
    A prototype active Data Center was established to study the 
feasibility of such an approach following workshops of the major 
commercial owners/operators held in February 2008 in Washington, DC and 
December 2008 in Ottawa. A majority of the operators present agreed on 
the need to simplify the data exchange process to minimize risk for 
safety of flight and on the importance of creating a common Data 
Center. The operators agreed to work on a prototype Data Center as a 
proof-of-concept to improve coordination for conjunction monitoring.
    The prototype Data Center expanded quickly and today seven 
operators are participating and regularly contributing data from over 
120 satellites in geostationary orbit. The participating operators 
receive daily close-approach alerts when the miss-distances and 
conjunction probabilities fall below certain thresholds and a daily 
neighborhood watch report showing the projected separations of 
satellites that are flying in an adjacent control box. The 
participating operators provide their ephemeris data in the reference 
frames and time systems generated in their flight software and the Data 
Center performs the transformation and reformatting to a common frame 
for close-approach analysis. This greatly simplifies the efforts and 
reduces the burden on individual operators and thus encourages 
participation. A strict data policy has been put in place to ensure 
privacy of the data. The Data Center is not allowed to redistribute the 
data received from the owners/operators without approval from the 
owners of the data. While there is still significant work left to 
refine the process, the initial results from the Data Center prototype 
are very promising.
    The principal goal of the Data Center is to promote safety in space 
operations by encouraging coordination and communication among 
commercial operators. The Data Center could also serve as a means to 
facilitate communication between operators and governments. Details on 
the implementation of the Data Center, services to be provided, usage 
policies, structure of the organization and by-laws have yet to be 
determined and would ultimately require agreement among the member 
operators. The development of a Data Center could provide new 
visibility and awareness of the geostationary orbit, allow all 
satellites to be flown in a safer manner and reduce the likelihood of 
an accidental international incident in space.
    The Data Center is a tool for commercial operators to exchange 
information about their active spacecraft. However, the operators must 
still rely on the U.S. Government to monitor dead satellites and other 
objects drifting in geostationary orbit, that could collide with an 
active satellite. The safety of commercial space activities can be 
ensured only if there is a commitment from the U.S. Government, and 
other governments equipped with the same type of radar or optical 
observation capabilities, to monitor uncontrolled space objects and to 
alert commercial operators, in real time, of the risks of collision 
with their operational satellites.
    To be sure, the motivations behind the civil and military space 
activities of nations are far more complex than those of the commercial 
satellite industry. However, the central goal of preserving the 
operational space environment binds all space participants with a 
common purpose. It is important to note, in particular, the very 
critical role played by the geostationary orbit. Should this unique 
circular orbit be polluted by a space collision, the impact on military 
and commercial communications would be devastating.
    For all of these reasons, the U.S. Government should play a 
leadership role on the issue of Space Traffic Control. In pursuit of 
this objective, we would offer the following specific recommendations:

        <bullet>  Provide adequate funding for Space Situational 
        Awareness--Space Situational Awareness (SSA) is the ability to 
        monitor and understand the constantly changing space 
        environment. The task of locating and tracking active 
        satellites and space debris is one of the most challenging 
        aspects of SSA. Currently, the U.S. Air Force's JSpOC plays a 
        key role internationally in tracking, and reporting on, all 
        man-made objects in orbit. The JSpOC receives on-orbit 
        positional data from the Space Surveillance Network, which is 
        composed of both optical and radar sensors throughout the 
        world. This allows the JSpOC to attempt to maintain accurate 
        data on every man-made object currently in orbit. Today the 
        JSpOC is tracking more than 10,000 objects in space. Like all 
        parts of the Pentagon budget, funding for expansion of the 
        Space Surveillance Network is under pressure. In light of 
        recent events, Congress and the Air Force need to provide 
        higher priority for this funding.

        <bullet>  Develop new mechanisms for sharing space traffic 
        information between nations--The U.S. is not alone in its SSA 
        efforts. Russia, several European states, China, Australia, and 
        others are making investments in SSA capabilities. Each of 
        these data sets, taken alone, is not likely to solve the 
        emerging space traffic problems. It is also critical that 
        nations strive to create rapid, reliable, and non-bureaucratic 
        institutions for sharing the new data they are collecting.

        <bullet>  Maintain and expand the U.S. Commercial and Foreign 
        Entities (CFE) program--Established by the U.S. Congress as a 
        pilot program, CFE now provides a limited but essential set of 
        U.S. Government data on existing space objects for release to 
        certain commercial and foreign entities. Although CFE has been 
        advantageous for governments and industry, the accuracy of the 
        data currently provided is not sufficient for precise collision 
        detection/assessments, support of launch operations, end of 
        life/re-entry analyses, or anomaly resolution. The CFE pilot 
        program was originally set to expire this year. It is essential 
        that the current program be formalized and expanded to meet the 
        evolving needs of global space operators.

        <bullet>  Take advantage of the data readily available from 
        commercial satellite operators--It would be extremely valuable 
        if satellite operators and governments could find a way to 
        share their collected data in an organized, cooperative 
        fashion. Such a sharing process could result in the creation of 
        a ``Global Data Warehouse'' for space information. Governments 
        and operators might be encouraged to submit information on the 
        orbital elements of space objects as well as their maneuver 
        plans and operational frequencies. If information were gathered 
        in a central depository, warning and alert messages could be 
        distributed automatically in a common format to participating 
        operators, while protecting sensitive commercial or government 
        data. Intelsat, along with other satellite operators, has 
        offered to share its information, free of charge, with the U.S. 
        Government.

        <bullet>  Be creative in the development of new data sources--
        As I mentioned previously, most commercial operators rely on 
        the Air Force Space Command's ``JSpOC,'' for tracking man-made 
        objects and debris in orbit. The JSpOC receives satellite 
        position data primarily from the global Space Surveillance 
        Network. As upgrades to this network are likely to be expensive 
        and long-term in nature, it is important that we look at 
        creative solutions to respond to our growing needs. As an 
        alternative to expensive terrestrial infrastructure and 
        dedicated government programs, DOD should try to take creative 
        advantage of every commercial platform going to orbit. Every 
        commercial launch is an opportunity for a technology testbed, 
        or the deployment of a novel operational capability. Rather 
        than develop and launch dedicated assets to address this 
        problem, the Air Force should consider launching low-cost 
        sensors on every satellite going to orbit. By including 
        commercial and scientific satellites in this endeavor, it would 
        be possible to obtain a holistic view of the space environment 
        in a few years, with little government investment. Intelsat 
        alone has 10 satellites currently under construction or in 
        development. Our colleagues and competitors in the industry are 
        similarly positioned with respect to their new spacecraft 
        investments. Imagine, if you will, the improvement to our 
        understanding of the space environment if every satellite 
        launched over the next five years were part of an integrated, 
        global monitoring system for space.

        <bullet>  Begin an international dialogue on `Rules of the 
        Road' for space--Although there are reasonable differences of 
        opinion regarding the value of additional laws or international 
        agreements, there seems to be general acceptance among space 
        operators that certain guidelines or norms developed by 
        consensus may play a useful role in ordering our future space 
        activities. A good example is the space debris guidelines 
        developed by the Inter-Agency Space Debris Coordinating 
        Committee, an intergovernmental body created to exchange 
        information on space debris research and mitigation measures. 
        The development of other non-binding guidelines should be 
        investigated. Such non-binding guidelines might include:

                  A formalization of existing rules regarding the 
                movement of spacecraft between orbital locations;

                  Protocols for informing other operators when one of 
                their spacecraft could potentially cause damage to 
                other space objects;

                  Protocols for managing the loss of control of a 
                satellite.

    Within the next decade, many more countries will gain the ability 
to exploit space for commercial, scientific and governmental purposes. 
It is essential that the world's governments provide leadership on 
space management issues today in order to protect the space activities 
of tomorrow. Bad decisions and short-term thinking will create problems 
that will last for generations. Wise decisions and the careful 
nurturing of our precious space resource will ensure that the 
tremendous benefits from the peaceful use and exploration of outer 
space are enjoyed by those who follow in our footsteps in the decades 
to come.

                     Biography for Richard DalBello

SUMMARY OF QUALIFICATIONS

        <bullet>  Creative administrator with more than 15 years of 
        experience in the communications and aerospace industries

        <bullet>  Detailed knowledge of U.S. Government legislative and 
        regulatory processes

        <bullet>  Comprehensive understanding of international 
        organizations and policy processes

        <bullet>  Proven skill in international business, trade, and 
        negotiations

        <bullet>  Dynamic leader and team builder capable of motivating 
        others towards success

RECENT WORK HISTORY

Intelsat General, August 2005-Present

Vice President, Legal and Government Affairs for the leading global 
provider of commercial satellite services to U.S. Federal, State and 
Local Governments, NATO members, and to the integrators that support 
them.

        <bullet>  Oversees all aspects of legal, contracts, and 
        procurement departments for $300 M satellite services provider

        <bullet>  Chief lobbyist and legislative coordinator

        <bullet>  Provides policy support for key business development 
        initiatives

        <bullet>  Serves as Intelsat General's public voice through 
        high-profile editorials, articles, conferences, and radio and 
        television appearances

        <bullet>  Manages Human Resources and security functions

Satellite Industry Association/Satellite Broadcasting and 
Communications Association, August 2001-August 2005

President of premier trade organizations representing U.S. and 
international satellite manufacturers, launch service companies, and 
direct broadcast and satellite radio service providers.

        <bullet>  Managed a staff of 20 and a budget of $4 million

        <bullet>  Served as key industry adviser to policy-makers in 
        Congress, the FCC, and the Administration on commercial 
        communication and direct broadcast satellite issues

        <bullet>  Organized over 50 pleadings and hundreds of informal 
        meetings regarding critical spectrum allocation decisions at 
        the FCC

        <bullet>  Led industry efforts to revise satellite export 
        control regulations resulting in the introduction of draft 
        legislation in the Senate

Spotcast Communications, December 1999-August 2001

General Counsel of global wireless-media and content-delivery company 
with operations in Europe, Asia, and the United States.

        <bullet>  Managed securities compliance for private and 
        institutional funding rounds totaling in excess of $15 million

        <bullet>  Drafted and negotiated contracts and license 
        agreements in the United States, Hong Kong, Singapore, and 
        France

        <bullet>  Managed foreign and domestic external legal counsel

        <bullet>  Developed and implemented policies to ensure that 
        personal customer data was handled in a way consistent with 
        emerging national and international privacy laws

        <bullet>  Managed company's patent and trademark portfolio and 
        eventual sale of these assets when the company ceased U.S. 
        operations

ICO Global Communications, April 1997-December 1999

Vice President, Government Affairs and Business Development for London-
based satellite company offering mobile communication services around 
the globe.

        <bullet>  Established company's North American office

        <bullet>  Developed and implemented strategies to secure 
        critical operating licenses resulting in negotiated spectrum 
        transition agreements with U.S. broadcasters

        <bullet>  Functioned as business development liaison between 
        North America and London on projects involving broadband data 
        and navigation technologies

        <bullet>  Managed U.S. export license process for critical 
        space hardware

White House, February 1993-April 1997

Assistant Director (Office of Science and Technology Policy) for 
satellite communications, space technology, and aeronautics

        <bullet>  Coordinated White House efforts which led to the 
        privatization of INTELSAT and INMARSAT

        <bullet>  Served as White House representative to business, 
        international, and contractor communities during space station 
        redesign effort

        <bullet>  Developed government-wide policy to assure commercial 
        access to the U.S. Global Positioning System (GPS)

        <bullet>  Developed funding rationale and investment plan for 
        NASA and DOD Advanced Launch Vehicle programs

NASA, March 1991-February 1993

Director (Commercial Communication Satellite and Remote Sensing 
Division) for research and commercial applications programs at four 
NASA centers and various universities

        <bullet>  Managed $20 million R&D and technology application 
        program to transfer NASA communication satellite and remote 
        sensing technology to the private sector

        <bullet>  Negotiated NASA/industry and NASA/university 
        technology agreements

        <bullet>  Directed industry-sponsored experiments program for 
        the Advanced Communication Technology Satellite (ACTS)

OTHER RELEVANT WORK EXPERIENCE

        <bullet>  U.S. Congress--Project Director, Office of Technology 
        Assessment

        <bullet>  U.S. Department of Commerce--Director, Office of 
        Space Commerce

        <bullet>  San Francisco Superior Court--Law Clerk

        <bullet>  California Supreme Court--Intern

EDUCATION

        <bullet>  University of Illinois, Urbana, IL, B.A. Political 
        Science--1975

        <bullet>  University of San Francisco School of Law, San 
        Francisco, CA, J.D.--1979

        <bullet>  McGill University, Montreal, Quebec, LL.M.--1984

    Chairwoman Giffords. Thank you.
    Dr. Pace.

STATEMENT OF DR. SCOTT PACE, DIRECTOR, SPACE POLICY INSTITUTE, 
  ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, GEORGE WASHINGTON 
                           UNIVERSITY

    Dr. Pace. Thank you, Madam Chairman and Ranking Member 
Olson, distinguished Members of the Committee, thank you for 
the opportunity to be here today.
    The long-term sustainability of the space environment from 
low-Earth orbit out to the moon is, of course, of fundamental 
importance to many national interests, from national security 
to the global economy. So I commend the Committee for holding 
this hearing today and appreciate it.
    The space environment, as has been pointed out, is very 
different today from what it was in 1957, when the first 
satellites were launched, and the concerns about sustainability 
today arise not so much from the activities of the traditional 
space-faring nations like the United States, but from new 
entrants and potential entrants such as Iran and North Korea, 
who have virtually no capabilities to monitor and control space 
objects. So, if you will, there are certainly some new 
irresponsible drivers on the highways these days.
    It is easy to understand the appeal of terms like space 
traffic control, space traffic management, but these can be 
misleading on a variety of both technical and political 
grounds. That is, the space environment is not like aviation or 
the highways. Satellites cannot maneuver as easily as cars or 
airplanes might, and of course, operating an international 
regime, questions of sovereignty are much different than they 
are for the highways.
    Where the analogy of traffic management does work is in the 
idea of having common understanding of definitions, standards, 
operating procedures, and practices for space operators to 
communicate with each other. As with the civil aviation, and, 
of course, I am hopeful they will communicate in English, this 
has been helpful to us, a good example of the evolving 
international norms with these standards and procedures can be 
found in the Inter-Agency Debris Coordination Committee 
guidelines as Mr. Johnson mentioned on minimizing orbital 
debris. These guidelines deal with breakup of space systems, 
end of mission life, satellite disposal, and avoiding 
intentional harm.
    The IADC guidelines on orbital debris emerge from 
discussions of best practices among technical experts rather 
than legal arguments among international lawyers. IADC 
discussions include government, academic, commercial experts 
from many countries with a focus on what made operational 
sense, and we should continue to encourage efforts that look at 
best practices in real-world space operations and develop 
further voluntary guidelines.
    I should point out that the former head of the French Space 
Agency, Gerard Brachet, is currently leading international 
discussions along this line that have included the United 
States and other major space powers, and it is my understanding 
that the U.S. has found this constructive.
    To support these norms and other international interests, 
there is a clear need for better space situational awareness 
for all sectors, civil, commercial, national security. A first 
step in improving monitoring is to enable better, faster 
standardized information exchange among satellite owners and 
operators. And some good news here is that international open 
standards are close to approval. The Consultative Committee for 
Space Data Standards, which is made up of all the major space 
agencies in the world, including I would point out China and 
Russia, approved a draft recommended standard for orbit debris 
messages in July of last year. The CCDS, this international 
body, over 400 space missions have chosen to use CCDS 
communication standards. So there is a large-installed base, I 
think, of interest there for promulgating these new standards.
    At Congressional direction, the Air Force operates a 
Commercial and Foreign Entities Program that distributes 
satellite positions known as two-line elements, as you have 
heard, and related messages free of charge. This has been an 
excellent start toward improved data sharing across the 
different space sectors, but it is only partly satisfactory. 
The two-line element data is not the most precise, and 
sometimes it is out of date or otherwise incorrect. It is 
perfectly fine for cataloguing. It is not so fine for 
conjunction analyses as you have heard.
    This leads to false alarms about potential conjunctions due 
to the broad error envelopes associated with the TLE position 
predictions, and such alarms in turn consume more analytical 
resources and requests for more precise and timely data to 
resolve potential concerns. The commercial satellite industry 
as you have heard proposes to increase data sharing, and this 
is, I think, again, another excellent start, but there are some 
natural concerns. For example, we may not want to say where 
some satellites are, even if they exist. We may not want to 
reveal what our full capabilities are or their limitations. 
There is concern about liability and the timeliness of any data 
provided, and there is a normal competition for public 
resources as we are all familiar with.
    So there is still an international need for independent 
verification of the information provided. There are a variety 
of analogies for how to organize and govern these models for 
data sharing, which I provided in my written testimony, which I 
would be happy to discuss, but I think the most important thing 
to realize is that the core policy problems associated with 
this are primarily on data policy and information 
dissemination. It is not about technology per se. It is about 
what we want to do to secure our common interests, and it is my 
hope that the United States will recognize the value of 
sustainable space environment as an international public good 
that, in turn, supports our own strategic national interest. We 
are more reliant on space than virtually any other country, and 
therefore, our leadership in this area I think is in our 
national interest.
    Thank you.
    [The prepared statement of Dr. Pace follows:]
                    Prepared Statement of Scott Pace
    Thank you, Madam Chairman, for providing an opportunity to discuss 
this important topic. The long-term ``sustainability'' of the space 
environment, from low-Earth orbit and out to the Moon, is of 
fundamental importance to many national interests, from national 
security to the global economy.

Introduction

    Space activities contribute to the long-term well being of society 
through improved scientific understanding in every field of knowledge, 
most notably with respect to the global environment. The design, 
development, and operation of space systems constitute major technical 
and managerial challenges in systems engineering and thus help 
strengthen the engineering capacities of participating nations. China 
and India are but the latest examples of nations that see the value of 
space to their further development.
    Most immediately, space systems such as satellite communications, 
environmental monitoring, and global navigation satellite systems are 
crucial to the productivity of many types of national and international 
infrastructures such as air, sea, and highway transportation, oil and 
gas pipelines, financial networks, and global communications.
    Information services enabled by the unique capabilities and global 
reach of space systems are crucial to the functioning of the global 
economy. In a time of global economic crisis, the United States and 
other space-faring nations need to cooperate more closely to protect 
space systems from intentional or unintentional interference.
    The space environment today is a very different from what it was in 
1957 when the first satellite was launched, or 1972 when the 
international convention on liability for damage caused by space 
objects was signed. In the past two years, a Chinese anti-satellite 
test and communications satellite collision have added thousands of 
orbital debris to the local space environment, much of which will be in 
orbit for many years to come. Today, the Joint Space Operations Center 
is tracking over 19,000 man-made objects and that number is growing.
    The space environment is not safe--it might be fairly characterized 
as an environment in which everything is trying to kill you and your 
spacecraft. It can however be made sustainable in that the vital 
functions we use space for today can be reliably maintained for 
generations to come.
    Concerns about sustainability arise not so much from the activities 
of traditional space-faring nations, like the United States, but from 
new entrants such as Iran and possibly North Korea who have virtually 
no capabilities to monitor and control space objects. Concerns arise 
with respect to China, which has significant and impressive space 
capabilities, but whose ASAT test showed an alarming disregard or lack 
of understanding of orbital debris. Finally, there are non-state actors 
like universities, who are deploying increasingly small satellites for 
commercial and scientific purposes that may be challenging to monitor 
in the crowded near-Earth environment.

Space Sustainability

    The irreversible accumulation of orbital debris constitutes the 
most obvious concern for the sustainability of space use. However, it 
is not the only factor and I'd like to mention two that are often 
overlooked:
    Space weather--yes, space has weather of a sort. There are 
geomagnetic storms from the Sun, varying energies from the Van Allen 
radiation belts around the Earth, ionosphere disturbances and 
scintillations, and geomagnetic induced currents. Coronal mass 
ejections from the Sun and their associated shock waves can compress 
the Earth's magnetosphere and induce geomagnetic storms with effects on 
Earth as well as local space.
    Space weather cannot be controlled, but monitoring and prediction 
are becoming more important as humans go farther out into space and 
more of the global economy depends on the reliable functioning of space 
systems. Space weather monitoring is becoming less of a ``science 
project'' and more of an operational requirement alongside traditional 
weather monitoring systems in space.
    Radio frequency interference--there is no point in going to space 
if you cannot communicate home. No nation ``owns'' the radio frequency 
spectrum but all nations depend on keeping it free from interference, 
whether intentional or unintentional. Space-based services are 
particularly vulnerable to interference because satellites in space 
cannot easily increase their transmitted power in the face of increased 
noise. Many space services are not traditional two-way communications, 
but include passive monitoring, active sensing, and one-way 
broadcasting. As a result, critical frequency bands require special 
international protection, e.g., those used for GPS, weather and climate 
monitoring, and satellite communications.
    There is growing pressure on all these bands from terrestrial 
commercial technologies and regulatory protections are more important 
than ever. In this regard, the Federal Communications Commission, in 
partnership with the National Telecommunications and Information Agency 
has an important role in protecting the national security, public 
safety requirements, and scientific needs of federal agencies relying 
on space systems.
    Returning to the topic of orbital debris, it is easy to understand 
the appeal of terms like ``space traffic control.'' The drama of 
International Space Station astronauts taking temporary refuge in their 
Soyuz return capsule and greater awareness of space operators taking 
precautionary maneuvers seem to argue for putting someone in charge. 
Unfortunately, ``space traffic management'' can be misleading on both 
technical and political grounds. The space environment is not like that 
of aviation or highways in that satellites cannot maneuver easily. 
Further, the space environment belongs to no one and thus there is no 
central authority that spacecraft owner/operators can use to protect 
regions of space vital to them. An international agreement authorizing 
an independent organization to provide and enforce where sovereign 
space assets may travels is a difficult concept for many nations.
    Where the analogy with traffic management does work is in the idea 
of having a common understanding of definitions, standards, operating 
procedures, and practices for space operators to communicate with each 
other. As with international civil aviation, I am hopeful that they 
will communicate in English. Rather than imposing a ``top down'' space 
authority, there are promising avenues for an evolving consensus on 
``rules of the road'' and confidence-building measures based on 
international norms for all types of space activity.

Guidelines and Standards

    A good example of evolving international norms can be found in the 
Inter-Agency Space Debris Coordination Committee (IADC) guidelines on 
minimizing orbital debris. These guidelines deal with the break-up of 
space systems, end-of-mission-life satellite disposal, and avoiding 
intentional harm. Another good example is the international 
condemnation of the Chinese ASAT test that showed international 
awareness of the risks posed by tests that create long-lived orbital 
debris.
    To support these norms and other national interests, there is a 
clear need for better space situational awareness for all space 
sectors--civil, commercial, and national security. While space traffic 
control may not be feasible, better space traffic monitoring is 
feasible. A first step in improved monitoring is to enable better, 
faster, standardized information exchanges among satellite owners and 
operators. Some good news here is that international, open standards 
are close to approval. The Consultative Committee for Space Data 
Standards (CCSDS) approved a Draft Recommended Standard for Orbit Data 
Messages in July of last year. The CCSDS is an international body of 
all major space agencies and over 400 space missions have chosen to use 
CCSDS communication standards. These missions have included everything 
from the U.S. rovers on Mars to the Chinese Chang'e missions to the 
Moon.
    Use of CCSDS standards allows for (but does not mandate) 
operational cross-support among space agencies. Representation is quite 
broad, with expert participation from the French space agency (CNES), 
the European Space Operations Center (ESOC), the German Space 
Operations Center (GSOC), the Japanese space agency (JAXA), Intelsat, 
Inmarsat, the U.S. Air Force, and NASA's Goddard Spaceflight Center, 
and the Jet Propulsion Laboratory. Representation is not systematic, 
however, and often depends on a few dedicated individuals whose work is 
tolerated but not always supported by home institutions busy with other 
priorities. A more intentional U.S. strategy that resources and staffs 
international standards work would improve the coordination of U.S. 
positions and the chances for greater international support of those 
positions. For example, I would see closer coordination by the Air 
Force Space Command, National Reconnaissance Office, and the 
Operationally Responsive Space Office with on-going NASA efforts as a 
good near-term opportunity.
    An important characteristic of CCSDS standards are that they are 
open and transparent and do not require the transfer of sensitive 
technologies. This is necessary if international satellite operators 
are to be able to share location data with each other--if not the 
characteristics of the satellites themselves. A more difficult 
challenge for space traffic monitoring will be in determining where a 
spacecraft might have been or where it will be. This requires 
mathematical modeling techniques of propagation or interpolation from 
existing information to make predictions. These models can vary quite a 
bit and will often contain proprietary techniques that make it 
difficult to make comparisons between different models. While models 
can and should evolve, it will be important to international acceptance 
that any proposed standard for a predictive model not be proprietary 
but subject to open inspection and improvement.
    As satellite architectures evolve, information exchanges and 
practices can be expected to evolve as well. For example, it is 
difficult to track objects smaller than 10 centimeters in Earth orbit 
but networks of nano-satellites may be that small or smaller. Each such 
satellite or group of cooperative nano-satellites might be modeled as 
sphere of fixed size. Independent verification of their location might 
in turn require active measures such as transponder beacons or passive 
ones such as laser reflectors. Larger satellites could be used to carry 
piggyback payloads that observe their local environment and supplement 
information from dedicated ground and space-based sensors.
    Different areas of space are used for different kinds of satellites 
and operational practices in low-Earth orbit, geosynchronous orbit, and 
polar/sun-synchronous orbits will be different. Groups of 
communications satellites operated by the same owner in geosynchronous 
orbit tend to be relatively slow moving with respect to each other and 
can be spaced closely. Conversely, communications satellites operated 
by different owners in low-Earth orbit may be moving at high speeds 
relative to each other and will need wider spacing for safety. In 
analogy to air traffic, satellites may be stacked into different 
altitudes and inclinations to ensure separation; with separations being 
wider for satellites operated non-cooperatives (i.e., by different 
organizations).
    The IADC guidelines on orbital debris emerged from discussions of 
best practices among technical experts rather than legal arguments 
among international lawyers. Those technical discussions included 
government, academic, and commercial experts from many countries with a 
focus on what made operational sense. At this stage, it seems premature 
to specify any binding ``rules of the road'' for space but it is time 
to look at real-world operations and see if there are useful practices 
that could be documented in similar voluntary guidelines. The former 
head of the French space agency, Gerard Brachet, is currently leading 
international discussions along this line that have included the United 
States and other major space powers.

Improving Data Sharing

    At congressional direction, the Air Force operates a Commercial and 
Foreign Entities Support program that distributes satellite positions 
(know as two-line elements) and related messages free of charge. This 
has been a good start toward improved data sharing across the different 
space sectors, but only partly satisfactory. The two-line element (TLE) 
data is not the most precise and is sometimes out-of-date or otherwise 
incorrect. This leads to false alarms about potential conjunctions due 
to the broad error envelopes associate with TLE position predictions. 
Such alarms in turn consume more analytical resources in requests for 
more precise and timely data to resolve potential concerns.
    The Air Force rightly gives top priority to human missions in space 
and national security functions. Unfortunately, they don't have the 
resources to look at everything (e.g., a continuous catalog-on-catalog 
collision screening) and some risks will not be addressed until it's 
too late. This is my understanding of what happened in the case of the 
recent Iridium-Cosmos collision in which it was only apparent what 
happened after the fact.
    To meet the need for more analytical attention as well as data from 
optical sources, radar sources and satellite owner/operators, the 
commercial satellite industry has proposed data sharing through and 
international data clearinghouse. It is understandable that firms with 
billions of dollars of assets at risk in space would want to take steps 
to protect those investments. The primary challenges to implementing a 
data sharing warehouse are not technical or economic, but policy, 
notably how to balance commercial and security interests in the 
dissemination of data.
    While a single, inclusive space situational awareness program, 
operated by the government or industry may seem to be the obvious 
answer the ``one size fits all'' approach will likely not work for 
multiple reasons.

        <bullet>  The government may not want to say where some 
        satellites are or even if they exist

        <bullet>  The government may not want to reveal what its full 
        capabilities are or its limitations

        <bullet>  There is concern about liability and timeliness for 
        any data provided

        <bullet>  There is the normal competition for public resources

        <bullet>  There will still be an international need for 
        independent verification

    These are some of the obvious concerns that would arise in managing 
information about U.S. Government, international, and private sector 
satellites in a single source.
    Aside from security, there is often a concern that the United 
States bears and would continue to bear a disproportionate share of the 
international space situational awareness (SSA) burden since we have 
the most capabilities. That is true but I would also say that we also 
have a disproportionate share of the dependency on space and improved 
data sharing is in our national self-interest. International 
cooperation provides an opportunity to access SSA data (e.g., optical, 
radar) from geographically dispersed areas of the world that would be 
expensive for us to access and an opportunity to routinely get data 
from satellite owner/operators who have better data than routinely 
found in government systems, at least compared to what is published in 
TLE form. While building new radars is quite expensive, it might be 
possible to exploit radio astronomy telescopes, but at some 
displacement of science observing time. Thus, outreach should include 
the international scientific community as well as foreign government 
and commercial industry.
    The United States is already participating in an expanding dialogue 
with the European Union and the European Space Agency (ESA) on space 
situational awareness cooperation. In February, ESA hosted a technical 
meeting in Germany for U.S. and European technical experts to discuss 
standards for space object survey and tracking as well as cooperation 
in space weather monitoring. These discussions should not remain 
limited to Europe, of course, but should include U.S. friends and 
allies in other regions, such as Asia. As with other forms of security 
cooperation, sharing space situational awareness data will likely see 
expanding circles of trust--proceeding from the United Kingdom, 
Australia, and Canada, to NATO members, Japan and then other space-
faring states, such as India.
    As part of expanding cooperation, more formal steps could be 
envisioned such as banning any destructive testing in space that would 
create long-lived orbital debris--the kind of debris that pose a threat 
to all space activities. This would not necessarily means a ban on 
``space weapons'' which would be unverifiable, nor would it ban space-
based kinetic energy interceptors used for ballistic missile defense, 
or ground-based interceptors such as the SM-3. Priority should be 
placed on potential agreements that offer the best chance for an 
international consensus and verification.
    Building international consensus can be a slow process but it 
should be kept in mind that there are risks in trying to be too 
comprehensive in approaches to space (e.g., creating a new treaty 
regime). There is a broad and flexible body of existing international 
space law that is sufficient for virtually anything we want to do in 
space. The development of new norms should start with our friends and 
allies that are active in space--in short, those with the most ``skin 
in the game'' and those willing to contribute new data sources or other 
capabilities.
    Improving international space situational awareness is very 
feasible, in part because the information needed is quite basic and 
need not infringe on national security. The fundamental needs are to 
know where and when an object is located in space, a point of contact 
responsible for the object, plus knowledge of space weather and the 
Earth's atmosphere over time. There are many complex products and 
services that can be created with such basic information and space 
agencies and operators will do so. International cooperation should 
focus on sharing basic information using open standards while 
recognizing that proprietary ``value-added'' products will arise on 
their own in response to user needs.

Governance

    It is an open question how international sharing of SSA data will 
occur. Several analogies come to mind in terms of governance models for 
international SSA data sharing. For example, sharing could evolve like 
the Internet, with a network growing based on common protocols. The 
CCSDS standards and rules of the road growing out of the IADC 
guidelines provide a starting point for this approach. A non-
governmental, international, non-profit body modeled after ICANN 
(Internet Corporation for Assigned Names and Numbers) could encompass 
governments, non-governmental organizations, and private corporations 
that own and operate satellites to promote safer operations.
    Another approach would be to expand the current Commercial and 
Foreign Entities (CFE) program by making high precision data more 
easily available for all reported objects. Sharing might initially be 
with other countries with security ties or space monitoring 
capabilities, similar perhaps to the U.S./Canadian sharing of warning 
information in NORAD, but on a much wider scale.
    If expanded sharing via governments proves too slow, one might 
expect that geosynchronous (GEO) satellite operators (e.g., Intelsat, 
SES, J-Sat) will create their own data clearinghouse as a separate 
initiative. They would continue to use CFE-provided data but would 
share higher precision information from their satellites with other 
members.
    It is hard to imagine the creation of a central international 
organization for SSA--what is sometimes called an ``ICAO for Space'' in 
analogy to the International Civil Aviation Organization. Similarly, it 
is hard to imagine expanding the role of the International 
Telecommunications Union (ITU) to include orbital debris. Both 
organizations have regulatory functions that work through sovereign 
states. They do not have direct operational roles. In the case of the 
ITU, it already has enough difficulties with managing the allocation of 
geosynchronous orbital slots due to the number of ``paper satellites'' 
in the pipeline already.
    There are examples of mixing public and private data for common 
purposes, such as with weather predictions based on all sorts of 
international data. There are also examples where the government 
encourages non-government data sources, such as the International GNSS 
Service at the jet Propulsion Laboratory that monitors the GPS 
constellation through a voluntary federation of over 200 sites around 
the world. However, there is a clear line between awareness of data 
from open sources and using that data to operate the GPS constellation. 
In the case of space situational awareness, the benefits of sharing 
information have to be balanced against the risk of that same 
information being used to harm U.S. or allied assets. Another important 
policy question will be that of direct or indirect user fees. In 
general, international cooperation for the United States has worked 
best when not based on the exchange of funds, but the shared 
contributions to a common goal. The United States has opposed the 
charging of direct user fees for safety services in ICAO in order to 
not deter the use of those services. One might imagine similar 
treatment of orbital debris data as a safety service. While this might 
place a burden on the U.S. as the majority supplier of such data, our 
interests would not likely be served by trying to impose direct user 
charges that would lead to even more complex negotiations.

Summary

    The issues that need to be addressed in keeping the space 
environment safe for civil and commercial users include:

        1.  Protection of the space environment and mitigation of 
        orbital debris. Improving space situational awareness and 
        reduction of the hazards posed by manmade orbital debris are 
        both vital to the long-term sustainable use of space for all 
        nations. Space-faring nations should adhere to consensus 
        orbital debris mitigation standard practices recognized by the 
        Scientific and Technical Subcommittee of the United Nations 
        Committee on the Peaceful Uses of Outer Space. Improving space 
        situational awareness should also be regarded as a promising 
        area of international cooperation. In this context, proposals 
        for voluntary ``rules of the road'' for space traffic need to 
        be seriously considered.

        2.  Protection of the radio spectrum used by space services 
        from harmful interference, with special attention to aviation 
        safety services such as GPS and environmental services such as 
        remote sensing. After space launch, communication is the most 
        pervasive requirement for all space systems. Space-faring 
        nations should work through the Space Frequency Coordination 
        Group and within the International Telecommunications Union to 
        achieve international support for necessary protections. Space 
        agencies and industries should closely track the standards 
        development work of terrestrial data communications 
        standardization bodies in order to ensure compatibility of 
        emerging commercial devices and services with current and 
        future space needs.

        3.  Promotion of open, inter-operable standards for space 
        systems and their associated mission operations systems to 
        increase opportunities for international collaboration in 
        space. Space-faring nations should support space standards 
        developed by the International Standards Organization and 
        utilize the Consultative Committee for Space Data Systems and 
        the Interagency Operations Advisory Group to strengthen 
        capabilities for cross support across the international space 
        community.

    The core SSA policy problems are centered on data policy and 
information dissemination, followed by the assignment of appropriate 
roles and responsibilities to federal agencies and services. The 
primary data issue is to determine how much high precision information 
from U.S. Government sources can be made available in a timely manner 
and with whom. The second issue is how to most effectively promote 
international acceptance of CCSDS-developed standards for multilateral 
data exchange and to encourage non-proprietary propagation and 
interpolation models for conjunction analyses.
    The United States should recognize the value of space 
sustainability as an international public good that also supports its 
own strategic interests. The United States needs to retain freedom of 
action in space while at the same time recognizing the presence of new 
actors in space and our own dependence on space systems. The most 
promising approach toward international norms aligned with our 
interests is to engage with other parties in creating a technically 
based consensus on reducing the hazards posed by orbital debris. We 
should avoid top-down prescriptive, legalistic or politically driven 
structures that do not allow for flexible evolution. Similarly, we 
should remain focused on mutual protection against common hazards found 
in the space environment and not be tempted to overreach, e.g., the 
creation of comprehensive space weapons bans or centralized space 
traffic management authorities.
    If we actively support open technical standards and operational 
innovations based on real-world benefits, we will have the credibility 
necessary to establish new international norms that will add to our 
security and strengthen our economy.
    If we focus on continuing to earn the trust of the billions of 
users worldwide that today rely on space systems, we will have the 
international support necessary to sustain the use of space for 
generations to come.
    Thanks you for your attention. I would be happy to answer any 
questions you might have.

                        Biography for Scott Pace
    Dr. Scott Pace is the Director of the Space Policy Institute and a 
Professor of Practice in International Affairs at George Washington 
University's Elliott School of International Affairs. His research 
interests include civil, commercial, and national security space 
policy, and the management of technical innovation. From 2005-2008, he 
served as the Associate Administrator for Program Analysis and 
Evaluation at NASA.
    Prior to NASA, Dr. Pace was the Assistant Director for Space and 
Aeronautics in the White House Office of Science and Technology Policy 
(OSTP). From 1993-2000, Dr. Pace worked for the RAND Corporation's 
Science and Technology Policy Institute (STPI). From 1990 to 1993, Dr. 
Pace served as the Deputy Director and Acting Director of the Office of 
Space Commerce, in the Office of the Deputy Secretary of the Department 
of Commerce. He received a Bachelor of Science degree in Physics from 
Harvey Mudd College in 1980; Master's degrees in Aeronautics & 
Astronautics and Technology & Policy from the Massachusetts Institute 
of Technology in 1982; and a Doctorate in Policy Analysis from the RAND 
Graduate School in 1989.
    Dr. Pace received the NASA Outstanding Leadership Medal in 2008, 
the U.S. Department of State's Group Superior Honor Award, GPS 
Interagency Team, in 2005, and the NASA Group Achievement Award, 
Columbia Accident Rapid Reaction Team, in 2004. He has been a member of 
the U.S. Delegation to the World Radio communication Conferences in 
1997, 2000, 2003, and 2007. He is a past member of the Earth Studies 
Committee, Space Studies Board, National Research Council and the 
Commercial Activities Subcommittee of the NASA Advisory Council. Dr. 
Pace is a currently a member of the Board of Trustees, University Space 
Research Association.

                               Discussion

    Chairwoman Giffords. Thank you, Dr. Pace.
    We are going to begin our rounds of questioning. We are 
going to try to keep to five minutes each, and I want to 
encourage Members if they haven't had a chance to read the 
written testimony, it was excellent, and there is a lot of 
detail, of course, that you can't get into in five minutes.

               Iridium-Cosmos Collision and Going Forward

    I guess I would like to start off just fundamentally saying 
in terms of the Iridium-Cosmos collision in February, and I am 
going to start with you, General James, what went wrong, and 
how are we going to prevent it from happening again?
    Clearly, we are not looking to assign blame, but we had a 
major problem, we have a program in place, we are looking for 
solutions of what we and the Congress can do, whether it is the 
public sector or the private sector, but this is a clear 
example of a problem that we haven't heard from the panelists 
yet. We are going to start with you, General, and then go to 
other members if we can get a clearer answer. Thank you.
    General James. Certainly, Madam Chairman. In terms of the 
Iridium collision, I would say that at the time we were not 
looking at the Iridium satellite to do conjunction analysis. We 
track, as we have said, 19,000 objects or so, but we only do a 
conjunction analysis or an assessment of whether they are going 
to come close to another body on a subset of that.
    Primarily DOD payload, certainly manned payloads, the 
Shuttle, the International Space Station, and those payloads 
that support the U.S. Government in one form or fashion. So on 
the day that the Iridium collision happened, we were not 
looking at the Iridium satellite nor the Cosmos satellite to 
determine if there was going to be a close approach, if you 
will. So on that day there was no data that would have told the 
owner operators to any degree of precision whether there was a 
potential collision or not.
    Certainly if you look to the future, you can define which 
particular spacecraft you want to assess for conjunctions, and 
we are ramping up to be able to ultimately do conjunction 
analysis on the 800 or so satellites that can maneuver. So 
obviously if a satellite can't maneuver, even if he knows that 
there is a piece of debris coming toward it, there is not a 
whole lot that that particular satellite can do. But for those 
that can maneuver, the intent is to do that conjunction 
analysis, provide that potential warning that says we have an 
analysis that says there will be a close approach within 100 
meters, 200 meters, 300 meters, whatever the case may be, and 
then the owner operator of that particular system could take 
action.
    So that is the path we are moving down in the near future 
to do that assessment on those 800 or so maneuverable 
spacecraft.
    Chairwoman Giffords. And do you have a timeframe for that, 
General?
    General James. Certainly within the next year and ideally 
before the end of the year.
    Chairwoman Giffords. Okay, and I know that you can't get 
too detailed, but do you believe that you will have the 
resources necessary in order to do the job?
    General James. Yes. We have been working with our 
headquarters to get additional processing capacity as well as 
personnel to implement that capability.
    Chairwoman Giffords. Okay. Would other panelists--yes. Dr. 
DalBello.
    Mr. DalBello. Yes. I think this raises an important issue 
as to what we as a Nation want to happen, and we had this 
debate, was it maybe 10 or 15 years ago, when we decided what 
were we going to do with the GPS system. Were we going to have 
it as an exclusive system for the U.S. Government, or were we 
going to make it available globally? And recognizing at that 
time there were all sorts of people who were arguing that 
making GPS more generally available introduced significant 
risks, national security risks, in terms of our potential 
adversaries using the GPS system against us.
    I think we are in a similar place now in trying to decide 
as a Nation where are we going with space traffic control. I 
think that Lieutenant General James and the JFCCS are doing a 
great job, but I also think that as a Nation we haven't decided 
whether we want to be in the space control business or not. Is 
this something that we want to take on, either alone or with 
other countries, for the world?
    Inherent in your question was the assumption that someone 
should have been watching that Iridium satellite. The system 
today is not set up that way. The operators are, you are on 
basically your own. We have our own internal management system. 
Now, we operate in a different orbit, a less-cluttered orbit 
than the Iridium satellites do, but the operators are 
responsible for their own safety. So we actually request when 
we see a potential issue, we do make requests. Occasionally we 
do get comments and calls from the Joint Space Operations 
Center.
    But you--but the situation we are in today is we do not 
have something that approaches an operational space traffic 
control system, and I think that is a policy decision that this 
Nation needs to make.
    Chairwoman Giffords. Speaking of policy, Dr. Pace.
    Dr. Pace. Certainly. Well, and this is where analogies I 
think can be a dangerous thing. Everything that my colleagues 
said is quite correct, but, for example, you could imagine how 
the maritime world developed. There wasn't a central sea-
control facility that was guiding and tracking, you know, every 
ship. Again, pardon the strange analogy, but operators both in 
the military and the civilian side developed rules and 
procedures for navigating with respect to each other. They 
adopted certain procedures about separation of ships based upon 
long operational experience and developed navigation aids. 
There became laws that arose through Admiralty Law in courts 
for adjudicating and handling liability in these environments.
    So I think that when you are looking at the policy and 
governance for how space traffic might evolve in the future, I 
suspect you will see really two separate streams that will 
hopefully merge. One is expansion of the CFE Program to involve 
a number of our allies who are--we already have security 
relationships with, so it will become more capable and broader 
and more inclusive, including commercial input.
    And the second part is the operators themselves are--have 
large investments at stake, and so you would imagine that they 
would be exchanging information in and amongst each other, and 
they would be watching out for each other. And so between the 
two of those, a bottoms-up sort of approach by the commercial 
community, which is increasingly at risk, as well as expansion 
and strengthening for the new environment of traditional 
military functions to involve greater number of civil and 
international actors, you will likely see. I don't think you 
will see a centralized master plan. I think you see growth and 
expansion in both areas.
    Chairwoman Giffords. Thank you.
    Mr. Olson, please.
    Mr. Olson. Thank you, Madam Chairwoman.

                  Commercial and Foreign Data Sharing

    And my first question is for General James. General, in 
your testimony you state that the long-term solution for the 
provision of high-fidelity orbital data includes integrating 
commercial and foreign entity advanced services in the joint 
space operations missile system, with the ability to ingest 
data directly from the entities on a voluntary basis. And what 
new resources will be required for you to provide this--to 
implement such a service? Has a concept been discussed with 
foreign and commercial operators, and do you have any concerns 
about the joint space operations missile system taking on an 
expanded role outside of its charter?
    General James. Well, thank you, sir. Looking at the 
resources required, in terms of ingesting data as Mr. DalBello 
said, we think that is a worthy goal. In other words, if there 
are data coming from the satellite owners themselves, we should 
have mechanisms to bring that data into our systems, and 
frankly, that frees up our sensors because we know where those 
satellites are, and I don't have to task a telescope or a radar 
to go look for a particular satellite.
    Now, there are things we have to work there, because we 
have to verify that the data is valid. Before I put that into 
the Space Surveillance Network I have got to know that that is, 
indeed, good data. So there needs to be processes and 
procedures that allow us to do that.
    But the resources to do that, I think, are not great, 
because it is more process, it is more taking the data that is, 
that they are putting together for the commercial entities and 
determining how to put that into the right formats and verify 
that it is good data. So from a resource perspective in that 
capability I think we can move down the path, but it will take 
some time.
    I would say this is not necessarily outside the Joint Space 
Operations Center mission area, but it will require assessment 
in terms of manpower, in terms of processing, the things that I 
discussed earlier, to allow us to continue to improve these 
processes.
    And, again, the CFE Program as we said, it is a pilot 
program. I mean, we are learning this year exactly, okay, what 
are the processes, how does a commercial entity need to 
request, what legal agreements do we need to have, and we are 
making great progress so that by October, November timeframe we 
will say, these are the processes, and we can transition this 
to the U.S. Strategic Command successfully.
    Mr. Olson. Thank you for that answer, General.
    And this is a question for all of you, and we will start 
with Mr. DalBello, involving space traffic. Since all the 
space-faring nations and commercial entities have an interest 
in keeping the space environment as pristine as possible, what 
is impeding the widespread adoption of the data center concept 
that you mentioned in your testimony, and what is impeding 
nations and commercial entities right now from sharing orbital 
data today?
    Mr. DalBello. I think when the space age started and up 
until very recently, I think most operators had an attitude 
characterized perhaps as the big sky approach, which is space 
is vast, and the odds of two objects intersecting in space, the 
odds are still quite low. So I think up until very recently 
there was a perception among operators that this wasn't 
something that they had to worry about. And we even find even 
today among smaller operators that they will say to us, well, 
if I am flying in my box, box being an assigned location in 
space from whatever regulator licensed your launch to space, if 
I am flying in my box, what do I have to worry about anyone 
else, which has really, I think, got it exactly backwards.
    So one answer to your question is that we have--it is only 
recently that people have been worried about the complex 
interaction between debris, dead spacecraft that were not 
removed from orbit, and maneuvering spacecraft. And I think as 
we look out forward, it is clear that environment is going to 
get more complex rather than less.
    So I think that the idea like the data center, which 
started out with one group of operators, the large operators in 
geostationary orbit, those operators who, all who were used to 
working with each other, could adopt a common set of protocols 
that they could use to exchange data.
    There are still many other operators who do not--who are 
either in different orbits or who are not part of that group 
who don't perhaps yet see the overall value to it. And I think 
other people take an assumption that they shouldn't have to 
worry about, this is something the governments should worry 
about.
    So I think a variety of reasons, and it is part of the 
maturing approach, I think it started out with Dr. Johnson's 
great work on space debris, what is it, almost a decade ago 
now? And it raised the awareness that we couldn't just do 
anything we wanted in space. And so we have taken baby steps 
since then, I think, to get to where we are today.
    Mr. Olson. Thank you. Dr. Pace, would you care to comment, 
sir?
    Dr. Pace. Yeah. I would agree with that. I would also say 
that there--we are focusing on orbital debris, but I would say, 
though, there is a couple of other factors that need to be 
taken into account in terms of keeping with the hearing's title 
about keeping space sustainable and safe for civil and 
commercial operators, and we are not really probably going to 
spend a lot of time talking about it, but understanding of the 
space weather environment, which perturbs these satellites and 
which monitoring of that environment is sort of a long-term 
interest of all the operators. Better understanding of the 
radio frequency environment. I mean, part of the reason why 
satellites are spaced the way they are across the GEO 
synchronous arc is not just physically because space is vast 
but because of how they radiate and so how they radiate and 
potentially interfere with each other.
    So radio frequency interference, space weather environment, 
better modeling of all of those characteristics and then 
getting standardized data to exchange with each other, those 
are things that are the foundation for any sort of future 
decisions. And so right now people I think are still working on 
the standards part. The awareness is there, the standards are 
still developing to even talk with each other, and people are 
trying to look at, okay, what are the right operational 
practices so we don't make hard and fast rules too early but 
that we get moving on it and not make them too late.
    Mr. Olson. Thank you for that answer.
    Mr. Johnson, would you care to comment? You don't have to 
say yes.
    Mr. Johnson. I don't think I have much to add. The 
situation in low-Earth orbit is dynamically different than geo, 
so we will have to find some other method of communicating data 
positions for low-Earth orbit.
    Mr. Olson. Thank you for that answer. I am out of my time. 
Thank you, Madam Chairwoman.
    Chairwoman Giffords. Thank you, Mr. Olson.
    Congresswoman Fudge.
    Ms. Fudge. Thank you, Madam Chair.

              International Agreements on Orbital Objects

    I actually have two questions. The first one I would like 
to address to Mr. Johnson. You alluded to the whole concept of 
there being some international discussions about orbital 
debris. My question is do you believe--is there an 
international treaty on orbital debris, and if not, should 
there be one?
    Mr. Johnson. We do have--the primary way of communicating 
with an international environment is through the Inter-Agency 
Space Debris Coordination Committee I mentioned earlier.
    Ms. Fudge. Uh-huh.
    Mr. Johnson. We have been very successful. It is considered 
the preeminent world body for technical assessment of the 
debris environment. Now, we have provided information to the 
United Nations, which enabled them to adopt space debris 
mitigation guidelines in 2007. So they are guidelines only. 
They are not legally enforceable. It is not a treaty status, 
but what we are looking for is allowing the individual members 
of the United Nations to implement these guidelines through 
their national mechanisms and to watch their compliance. The 
current agenda in the United Nations is to review the 
implementation of these guidelines on an annual basis when we 
meet in Vienna every February.
    Ms. Fudge. Well, I guess that really is my question. Should 
there not be something that is enforceable?
    Mr. Johnson. Yeah.
    Ms. Fudge. Internationally. Anyone can answer. If you would 
like to, Mr. Johnson, but any panelist can----
    Mr. Johnson. Actually, it has been my experience over the 
last 25 years that talking with industry, and of course, 
operators, that they have always been very responsive. This has 
been one of those rare instances where legal requirements are 
not always necessary, and we have time. The environment is 
certainly degrading over time but at a very relatively low 
rate.
    If we find that voluntary measures are not working to the 
extent that we would like, other options are certainly possible 
in the future, but so far we found very good reception at the 
voluntary level.
    Thank you.
    Mr. Pace. I would just simply add a particular example of 
that. Under the Outer Space Treaty in 1967, state parties are 
responsible for persons under their jurisdiction or control, 
which would include, for example, registered satellite 
operators or people licensed say by the United States, whether 
remote sensing or commercial satellites. And one of the ways 
the U.S. has responded or carried out that obligation to the 
Outer Space Treaty for things like these technical guidelines 
is to then write domestic regulation in place for how those 
regulations, those guidelines are enforced.
    So for example, the Federal Communications Commission has 
part of its licensing requirement discussions about, well, how 
does a licensee propose to deal with the end of life of this 
satellite? How are they going to dispose with it? And they had 
a full regulatory review and hearing and public comment and so 
forth on that. So for FCC licensees when people go to the 
Commerce Department for a commercial remote sensing license, 
there is a section in there that deals with end of life 
disposal.
    So the State Department when it reports back to the U.N. 
S&T Committees, it says here are the domestic regulations we 
have adopted in implementing these guidelines in our own way. 
And that--and then we encourage other countries to do that. So 
in lieu of a master, kind of one-size-fits-all treaty, the U.S. 
proposes that other sovereign administrations adapt the 
guidelines, you know, to their own environments. And so far, as 
I said, that has worked out I think fairly well without 
triggering a larger international treaty debate, which as you 
can imagine could be quite contentious.
    Ms. Fudge. Thank you. Mr. DalBello, I just want to follow 
up on our chair's question. You in your prepared statement 
indicated that there should be some dialogue on rules of the 
road, who we develop guidelines or protocols that would inform 
other operators when one of their spacecraft could potentially 
cause damage to another.
    How do you propose we do that?
    Mr. DalBello. Well, it is--this is the kind of issue where 
you are going to have to have a partnership between government 
and the commercial industry. I think we can do part of that 
ourselves. I think that we are--we routinely share information, 
we routinely discuss protocols and flight operations, 
procedures. We obviously, we can't do anything to instruct or 
to coordinate with governments or smaller companies flying from 
other countries.
    So we--there is--part of the job can be done by large 
operators cooperating on a set of what you would just say would 
be common sense procedures, but there will be a role for 
governments, and I think it can look, that process can look 
something like the process that Dr. Johnson outlined with the 
IADC, the debris coordination, where you start out by saying, 
what are our best practices?
    So if you are going to move a satellite or if you know that 
you will pass near a satellite as you are either putting a 
satellite in orbit or relocating a satellite, what are your 
obligations with respect to other operators? Those are issues 
that--those are the kind of issues that we can wrestle with, 
and there may be a process whereby beginning that international 
dialogue we can end up with something that looks like the 
debris mitigation guidelines.
    Ms. Fudge. Thank you, Madam Chair. I yield back.
    Chairwoman Giffords. Thank you. Mr. Rohrabacher.

           Iridium and Cosmos Collision and Military Concerns

    Mr. Rohrabacher. Thank you very much, Madam Chairman, and I 
offer my praise as well to the Chairman or Chairwoman I should 
say, pardon me, for calling this hearing. It is a very 
important issue and has not been given the attention it 
deserves.
    General, about the Cosmos and Iridium, you know, collision, 
we, of course, knew what the Iridium orbit was and did we--was 
the Cosmos one of the objects that had been traced before, or 
was that an unknown object to you?
    General James. No, sir. Both those objects were tracked and 
were in our space catalogue.
    Mr. Rohrabacher. Okay. Well, if they are in the space 
catalogue, have we not--did their orbit change in some way? 
Have we not run out the orbit so we know that after a certain 
number of years they are going to cross? Or do they change 
their orbit in space?
    General James. Sir, kind of a two-part answer. The Iridium 
constellation does maneuver their orbit occasionally, and in 
fact, they had done a maneuver as I understand it prior to the 
collision, but, again, in reality when we track something, all 
we do is we produce basically what we call an element set that 
says this is the characteristics of that orbit. We do not then 
for all objects do an assessment, is that orbit going to 
intersect with any other orbit. We only do that on a subset of 
objects.
    Mr. Rohrabacher. Let me suggest that in an era of computers 
that it is not that costly for us to simply task, maybe you 
could task an intern to go and put all these orbits into the--
into your computer and find out if any of them are going to 
cross. It seems to me that that is not--let me put it this way. 
To be more responsible I think it would, that that would have 
been a responsible course of action if your office is, indeed, 
tasked with this issue.
    About China, China intentionally demonstrated their great 
capabilities by blowing up one of their satellites in orbit. 
Now, of course, there is no one here to speak for the 
Administration, Madam Chairman, so I can't ask the question 
that should be asked today. So let us note that there is no one 
here from the Administration, and let us hope that perhaps the 
Administration will pay some attention to NASA and give us a 
new leader of NASA so that we can actually interact with them. 
I think that might be a good recommendation. I certainly would 
yield to the Chairwoman.
    Chairwoman Giffords. And, Mr. Rohrabacher, thank you for 
bringing up obviously a very important issue. We are hoping 
that the House Armed Services Committee will pick this topic up 
and also have a committee hearing, because there is a defense 
side to the problem as well, and we look forward to hearing 
from the Administration in the future.
    Mr. Rohrabacher. Right.
    Chairwoman Giffords. Yield back.
    Mr. Rohrabacher. And but it would help to have a new leader 
of NASA here or at least an official representative of that 
leader rather than someone who may or may not have the leader's 
ear whenever that administrator is chosen.
    But let us just say that China intentionally created 
massive debris but yet the Administration from what I now 
understand is supporting permitting American satellites to be 
launched on Chinese rockets. I guess that is the way to prove 
to them how upset we are with their creating massive space 
debris.

                   Russia's Policy on Orbital Debris

    About cooperation in space, do--are any of you aware that 
the Russians have presented a plan to try to deal with space 
debris? What I have heard today is only ideas about how we 
track space debris. The Russians actually have presented 
something a few years ago of how we might be able to actually 
deal with it and take some of the space debris down. Are any of 
you aware of that proposal? Yes, sir.
    Mr. Johnson. Yes, sir. The Russians, as well as several 
other individuals and organizations, have proposed different 
techniques for removing debris from orbit, either small debris 
or large debris.
    Mr. Rohrabacher. Uh-huh.
    Mr. Johnson. As I said earlier, it is a challenge. It 
requires a substantial amount of research, and of course, later 
funding, and none of that has taken place.
    Mr. Rohrabacher. Yes. I would suggest, Madam Chairman, that 
this subcommittee might take a leading, play a leading role in 
let us say promoting cooperation with other countries to deal 
with this, not just to identify debris but perhaps in finding a 
real solution because the Russians have presented a plan. It 
would take international cooperation, international effort, and 
maybe this subcommittee might be able to play an important role 
in that.
    Thank you very much.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher, and I 
fully agree with you.
    Next we are going to hear from Mr. Griffith.
    Mr. Griffith. Madam Chair, thank you for the opportunity, 
but my questions have been asked. Thank you.
    Mr. Olson. Thank you, Madam Chairwoman. I would like to ask 
another round of questions here, gentlemen, just a couple more 
for you, and this is for all of you, sort of building on some 
of the comments we have heard earlier today.

                   Status of Current Debris Creation

    Implicit in the suggestion that the rules of the road need 
to be more uniformly-advocated and encouraged is that some 
nations that are commercial operators are not fully observing 
best practices, and is this the case, other nations and 
operators continuing to generate large amounts of debris with 
each new launch?
    Mr. Johnson, you seem to be the one who raises the hand.
    Mr. Johnson. I would say that on average most space-faring 
organizations and countries are creating very small amounts of 
orbital debris on each mission. Typically one debris or less, 
sometimes maybe three or four. It is the accidental explosions 
which are leading to a growth in the environment, and of 
course, the most recent collision.
    Mr. Olson. Dr. Pace, do you have a comment? It looks like 
you were going for the microphone.
    Dr. Pace. Mr. Johnson can maybe correct me if I am wrong, 
as I recall the history of it, the Chinese initially were 
actually quite a bit dirty in their initial launches. They 
created a fair amount of debris, and they--some effort--they 
got involved in the IADC and got involved in these 
international technical discussions, and Chinese practices then 
improved over the years such that the amount of debris they 
wound up producing in their routine launches became noticeably 
less, and people felt this was a good example of technical 
cooperation.
    That is why their--ASAT against their weather satellite was 
so shocking I think to many people was not simply the military 
capability but the fact that they intentionally created a large 
amount of orbital debris when their technical experts had been 
involved in the IADC and their operational practices had, in 
fact, improved over the years.
    So it points out that there is a sort of an international 
norm side of it. I think the Chinese were somewhat surprised at 
the amount of international reaction that occurred as a result 
of that, in part because people recognized that an 
international norm about what was proper hygienic practices, if 
you will, in orbit had been violated.
    And so these international discussions are really quite 
valuable, but they have to have--they have a political 
component as well as a technical component, and so that it one 
of the reasons why we should keep supporting them.

                     Increasing Satellite Strength

    Mr. Olson. Anybody else? Any other comments? Okay. One more 
question sort of coming at this problem from another angle in 
terms of hardening our satellites to prevent them from being 
damaged if they are impacted by orbital debris. What measures 
are currently out there being employed to harden satellites, 
and obviously this has to be very small debris, whether it is 
man-made or natural, and what are the limits, what is being 
done to do that, and what are the limits with hardening our 
satellites to protect themselves?
    And that is for all of you. General James, if you would 
like to start, please.
    General James. Well, certainly as I think was mentioned 
earlier, as you look at the very small particles that we 
encounter, you know, quite often frankly, most satellites have 
sufficient protection against, you know, micro-meteor, micro-
millimeter type objects. But as you get into the larger 
particles, one centimeter and larger, that is a more difficult 
problem. Certainly within the Air Force we are looking at that 
from a space protection program point of view to assess what 
needs to be done in the future to protect our systems from 
those type of objects.
    But that is an ongoing work, and again, there is always 
tradeoffs between cost and weight and size and protection and 
probability. So all of that has to be weighed in the analysis 
as we look to the future.
    Mr. Olson. Thank you, General, for that comment.
    Mr. Johnson.
    Mr. Johnson. The International Space Station is the most 
heavily protected vehicle currently in Earth orbit, and the 
best we can do is to guard against particles one centimeter and 
less. It is a technology issue. Actually, 10 percent of the 
entire mass of the International Space Station is devoted to 
shielding. Robotic spacecraft can't afford to do that. Most 
robotic spacecraft are vulnerable to particles three, four 
millimeters in diameter, and there any many, many of those.
    Mr. Olson. Thank you very much, Mr. Johnson.
    Mr. DalBello.
    Mr. DalBello. The--I think what Dr. Johnson pointed out is 
correct that the challenge of protecting something against 
anything but the smallest particles. We in the commercial 
satellite industry, we simply couldn't, we couldn't commit that 
amount of weight on the satellite for protection. Luckily our 
experience and where we operate our satellites, our experience 
has been that I don't think--there is no recorded loss of a 
satellite in geostationary orbit from debris.
    So I guess I would have to answer is that we don't do 
anything on protection specifically other than the normal 
structure of the satellite that, you know, needs to be a 
certain robustness to survive launch. But other than that we 
don't take any extraordinary measures, and that is purely 
driven by our assessment of the risks and the realization that 
there really are no good technologies for protection.
    Mr. Olson. Thank you.
    Dr. Pace.
    Thank you very much, Madam Chairwoman. I yield my time 
back.

                             Future of CFE

    Chairwoman Giffords. Thank you, Mr. Olson. My apologies for 
getting a little bit out of order. We are starting the second 
round. I am going to go and then we are going to shoot over to 
Mr. Rohrabacher, then we are going to hear from Mr. Griffith.
    So General James, I would like to get back to what you 
talked about with the CFE. In your prepared testimony you 
stated that the DOD intends to operationalize support to the 
commercial and foreign entities by the fall of 2009.
    But I would like to hear in concrete terms what that means. 
If you are simply going to extend the current CFE Program, do 
you plan to expand it, its budget, or are you planning on 
making additional changes to it?
    General James. Yes, ma'am. The first piece of that is to, 
as I said earlier, work out the processes that we are currently 
doing to make sure that the commercial entities understand and 
the foreign entities understand how to engage in the system, 
what are the legal forms that have to be filled out, what are 
the agreements that have to be reached, and make sure that 
process is all in place. And that is where we are headed right 
now.
    But we are looking to expand capabilities. One option that 
we are looking at is to push more out on the web, if you will, 
so that there is automatic information that is pushed out to 
those who signed up for the Commercial and Foreign Entities 
Program. We are also looking at additional capabilities, for 
example, if there is an anomaly on a spacecraft, if an operator 
comes in and says, hey, I need this potential support for end 
of life, those sorts of things, we would add that to the 
Commercial and Foreign Entities Program. And then, again, 
providing that high accuracy data that Mr. DalBello talked 
about, essentially those who signed the agreements today would 
get that high accuracy assessment of their satellite.
    So we are continuing to look at ways to improve, ways to 
more automate the processes, ways to push the data out to the 
individual end users that have signed the agreements and make 
this a better program.

                 Future of CFE With Commercial Industry

    Chairwoman Giffords. Mr. DalBello, if you can please--you 
have heard what the General has said, you have heard the 
description for the plans for DOD and the CFE Program, but I am 
curious whether or not those plans address the commercial space 
sector's needs, and if not, what more is needed?
    Mr. DalBello. I think they don't today, and, again, I don't 
mean that as a criticism but just a judgment on where we are as 
compared to where we would all like to be. I think as a first 
measure we need to do that simple things. You have hundreds of 
space objects from the commercial sector, and we know where all 
those objects are, because we are constantly ranging those 
objects with our ground antennas. So we know precisely where 
they are. So there should be a way to incorporate that data, 
and why is that important? Well, it is important because the 
Air Force network can't constantly monitor spacecraft. It sort 
of takes a picture of a particular point in time, and then it 
says, I think that object should be here based on where I last 
saw it.
    We are actually constantly monitoring, and what you miss 
when all you are doing is taking a snapshot of the heavens is 
you miss maneuvers, and as General James pointed out, that may 
have been what resulted in the Iridium crash. So if someone 
maneuvers, then your past information is no longer accurate 
because it changes significantly.
    So, number one, we need to incorporate the data from the 
operators that are willing to give it. We need to--and this 
goes to Congressman Rohrabacher's concern, we do need to 
develop the computer capacity to run what they call all against 
all, so we are running the data, the entire data set, and this 
is just purely a computer limitation issue. I mean, we need to 
have the computing power to run all against all on a regular 
basis.
    We need to have the rules and procedures for getting high-
accuracy data to the commercial sector at a minimum for those 
objects that are not maneuvering, and at a minimum for spent 
rocket stages and parts of--and components of dead satellites.
    I understand there is sensitivity. We are trying to walk a 
line here that is somewhere between safe operations in space. 
On the other hand, we don't want to give away the store on what 
our military is doing in space on every single program.
    So we are actually trying to do a complicated thing. We 
don't want complete transparency of the heavens, but we want 
them to be opaque in a safe direction. So it is a challenge, 
and, again, I think we aren't there yet. That is not meant as a 
criticism. I know there are a lot of folks working really hard 
at the JSpOC. I think it starts with a fundamental--with a 
national policy decision that we do intend to do this.
    As Thoreau said, ``In the long run, men only hit what they 
aim at.''

                    Costs and Benefits of Monitoring

    Chairwoman Giffords. Following along those lines, we have 
heard a lot today about space situational awareness, but I am 
curious as the cost to monitor space debris increases. Who 
exactly should pay for the services provided to both commercial 
and also to foreign users? I am interested about pushing out 
more information on the web, but obviously this is going to 
cost U.S. taxpayers increasingly more money.
    I would also like to hear whether or not the U.S. 
Government or the United States people derive sufficient 
benefits from the information and whether, again, we should be 
charging for the services, and if so, how much.
    So, Mr. DalBello, if you can just make a stab there and----
    Mr. DalBello. Yeah. Congresswoman Giffords, obviously this 
is something that we have spent a lot of time thinking about, 
because it is one of those `be careful what you ask for' 
situations. We think that there is a good middle ground. What 
we are offering is to be able to explain where we are all the 
time, and that will reduce the U.S. or perhaps other countries' 
burdens substantially. So we are coming to the table with a lot 
of data as it is. So that is the first thing.
    And secondly, we think if you are going to build out a 
total space situational awareness capability, you will want to 
go to space, and, again, we have offered and continue to offer 
to make our platforms available if the United States Government 
can define a simple, low-cost, low-weight sensor, we would be 
glad to take it to orbit. So we could become part of the 
network.
    So my first answer is----
    Chairwoman Giffords. Mr. DalBello, do you find that that is 
the same with your counterparts or your competitors in the 
industry? Is that generally the position that----
    Mr. DalBello. I can't speak for anyone other than Intelsat, 
obviously, but I know that in our dialogues I have heard very 
sympathetic comments from the largest operators; SES, Inmarsat. 
So some--many of the largest operators have expressed their 
enthusiasm for these ideas.
    Chairwoman Giffords. General, do you have any comments?
    General James. Yes, ma'am. A couple of things.
    First on utilizing the data from the commercial vendors, we 
certainly as I said earlier, agree with that, and as we have 
the agreements that we build for the CFE Program, that is one 
of the things we discuss with those commercial operators is 
their willingness to provide their satellite positional data 
into our engine, if you will, and that allows us not to have to 
task our sensors as I said earlier.
    So it is just a matter, I believe, of working out the 
procedures, the formats, and the processes until we can get 
that in place. But that is a dialogue we do have with those 
commercial satellite vendors.
    In terms of payment for this, again, I think that is a 
national policy decision. The Authorization Act allows the DOD 
to request payment for these services. At this point we have 
elected not to do so, but, again, I think that has to be a 
dialogue at levels above us in terms of policy at OSD and 
above, in terms of do we want to change for this or not to 
offset some of the expenses of sensors and so on.
    And then lastly, in my testimony I did point out that we 
are going to space with our sensors. The space-based 
surveillance system is a DOD-dedicated space surveillance 
sensor that should launch this summer that will allow us to 
much more actively track everything in the geo-belt, which we 
cannot always do today due to the telescopes being weathered 
out and had to be nighttime and so on.
    So we do recommend the importance of space-based sensor 
capabilities, and we are launching one of those this summer.

              Private Industry Charging for Satellite Data

    Chairwoman Giffords. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Let us note that we now have the 
capability of determining the course of a near-Earth object 
that is millions and millions of miles away to determine 
whether or not that object is a threat to hitting the Earth. 
Now, if we can chart an object that is in distant space and 
determine whether or not it will hit the Earth or come in this 
direction so it is a concern, certainly we can chart the course 
of objects that are in low-Earth orbit and determine whether 
they are going to hit each other and put them into the 
computer.
    So I think if nothing else has come out of this hearing, it 
is our understanding that we haven't been doing something that 
we are very capable of doing that is not costly. So let us pay 
attention to that. Next time we have a hearing on that I hope 
to hear how we have made some progress on that.
    I think the idea that we are missing a little bit here with 
the Chairwoman's suggestion of where perhaps someone can be 
charged for certain data. It is not necessarily the data from 
commercial operations, General. It is also the cataloguing, not 
just the, you know, actually obtaining of the data but the 
cataloguing of that and perhaps the actual dispersing of that 
for a charge.
    Apparently that is--does the--do you have any suggestions 
or any reaction to the idea of having a commercial company open 
up shop and start charging people for information, especially 
satellite, people who will be launching commercial satellites 
will have to get--and perhaps the military as well would have 
to have the information approved and the course of their orbit 
charted by and approved by this or at least certify that it 
will not in some way run into an object that is already in 
space. This could be done by a private sector company, could it 
not, Mr. DalBello?
    Mr. DalBello. Yes. It is something that we have thought 
through at the very beginning stage in our data center 
prototype, which is you certainly could set up--it is not 
technically challenging to do what you describe. The challenge 
you have is managing the national security issues, and what is 
the level of data, and this gets into who are your customers 
for this information. At some point you do want to have a 
dialogue with the Russians and the Chinese and everyone else 
who has got objects in space, because you wish to know not only 
where they are but where they are maneuvering and those issues.
    So is it possible? Absolutely it is possible.
    Mr. Rohrabacher. What about the percentage of the--of what 
you are describing, the problematic part of it is only a small 
percentage. Aren't we talking about----
    Mr. DalBello. Small percentage.
    Mr. Rohrabacher.--10 percent or 20 percent and----
    Mr. DalBello. Yes.
    Mr. Rohrabacher.--the rest of what can be tracked and 
catalogued and made available so that we can actually start 
working at that--at least at that level. We are not talking 
about an overwhelming percentage, are we, when we say the 
national security issue?
    Mr. DalBello. No. I think it is--it would be the smaller 
part definitely. Whether it is 10 pr 20, I don't know that I am 
competent today to answer, but it would be definitely the 
smaller portion. It would obviously be significant to those 
people.
    Mr. Rohrabacher. So we could make a significant difference 
without solving the whole problem. There is still a national 
security part of it that we may not be able to handle but a 
significant part of the challenge can get done, and we are 
capable of doing that.
    I also might add I think that we are very capable of 
working with our international partners, with the Europeans and 
the Russians and others, to perhaps even go even further and 
bring down space debris. And if we chart it, if you are already 
charting the course, all we have to do is get something up 
there that will knock it down, and that doesn't have to be 
something very sophisticated, just a big bulldozer in the sky 
you might say and perhaps something like that would actually 
be, not be as expensive as we think, especially if we were 
doing it internationally.
    So thank you very much for holding this hearing. There are 
very good ideas that we been talking about.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher.
    Mr. Griffith.

                   Characteristics of Current Debris

    Mr. Griffith. Thank you, Madam Chair. This is an 
interesting discussion. I think that I would have the opposite 
view of my colleague that I don't think there will be a 
reduction in space debris. I think the idea that we are going 
to have a conversation with Iran, North Korea, or China and 
have them jeopardize their national security as they see it is 
maybe a little bit naive.
    So if that, if my premise is correct, what is the nature of 
space debris? Is it--are the particles charged? Do they travel 
in the same orbit as they find themselves in, or is it more of 
a Brownian movement as to you get into sub particle, and what 
is their electromagnetic nature? Because I think it is 
important for us to know their nature, the particles' nature, 
because it sounds like we are going to have to be our own BFI 
up there as far as our space vehicles are concerned. And if we 
are going to rely on Iran or North Korea to cooperate with us, 
it can change our cataloguing of debris in an instanct because 
the SC-19 missile 27 months ago that hit the decommissioned 
weather satellite created 25 percent more that day than we 
would have had if we had had a catalogue.
    So it seems like we need to know what the nature of this 
debris is, and all I have heard so far is the physical size of 
it. Do we know anything else about it besides its size?
    Mr. Johnson. Yes, sir. We actually spent a great deal of 
effort in trying to characterize the debris, not only by size 
but by density, its radar properties, its optical properties. 
It turns out, though, that even lightweight things moving at 10 
kilometers per second can do a sufficient amount of damage 
should you run into it or it run into you.
    So to answer your question about charging, actually there 
is a very modest charging effect which takes place. We have 
look at it in terms of maybe taking advantage of it, using some 
sort of electromagnetic field to perturb the orbit. That 
doesn't seem to be a very promising avenue.
    Mr. Griffith. Yes, sir.
    General James. Sir, just one other comment. As we look at 
tracking this debris, it is something that you can't track it 
and then, you know, two days later assume it is going to be 
exactly where you expect it to be, because there are various 
forces acting on it, you know, gravitational forces, solar 
wind, solar particles, atmospheric forces depending on where 
you are in the orbit. So over time, even though we track it and 
say, okay, six hours from now it should be here, generally it 
will be pretty close to that, but as you go out further and 
further there are forces acting on those particles, especially 
the smaller ones, one centimeter, five centimeters, 10 
centimeters, that do, indeed, change that orbit, which require 
us then to go back and recalculate. That is why I can't give 
Intelsat a prediction a week away that says this thing will hit 
you within 20 meters----
    Mr. Griffith. Sure.
    General James.--because it is going to change fairly 
significantly over that period of time.
    Mr. Griffith. Good. Thank you very much. I appreciate that.

                   CFE Resource and Priority Concerns

    Chairwoman Giffords. Okay. All right. Well, we have time so 
we are going to do another round, and I will start. We will see 
who can--who will hang in there.
    This question is for General James. Retired Major General 
James Armor recently testified that the Space Surveillance 
Network is not sufficiently resourced to support civil and 
commercial operations. He said that the Air Force does not have 
the resources to carry out the CFE support and added that 
recent complaints by commercial operators about unwarned 
movement of DOD satellites and lack of support for moving 
commercial satellites at GEO were indications of inadequate 
resources and lower priority given to the CFE.
    So I am curious about your views on General Armor's stated 
concerns regarding insufficient resources for the Space 
Surveillance Network.
    General James. Well, certainly as we have looked to the 
programs that we have in place, I believe we do have a 
reasonably good plan to address some of the shortcomings that 
we have. First, we--I talked about the space-based Space 
Surveillance System. That is addressing our ability to map the 
GEO belt with our satellites to a more accurate capability and 
more real-time capability. So that is in place.
    We also have a program in place called the Space Fence, 
which addresses one of our shortcomings, which is the Southern 
Hemisphere. We don't have a lot of sensors in the Southern 
Hemisphere, and one of the components of the Space Fence will 
put a very accurate radar system in the Southern Hemisphere to 
allow us to get more tracking capability in the Southern 
Hemisphere.
    So we are also looking, as I said, at increasing our 
processing capability that Representative Rohrabacher talked 
about. We should be able to do that, and we are moving down 
that path. When you talk about doing conjunction assessment on 
everything that is up there, that is 19,000 objects against 
19,000 objects roughly. That is a lot of calculations, a lot of 
time, and a lot of effort to do that.
    And the other piece of that is that you can automate a lot 
of that but where it gets tricky is that when the analysts with 
the computer says, I now have a potential close conjunction, 
then an analyst has to get involved, he looks at the data, he 
then says, well, the data that that was based on is 48 hours 
old. So now I have to go task a sensor to look at that data 
again and rerun the analysis. I then have to talk to the owner 
operator potentially and say, can you give me any additional 
information? Do you plan to maneuver, et cetera?
    So it is not just the computing power. Once it identifies 
something, then the person has to get involved to do some 
additional assessment. So all those things we are addressing, 
as I said. I think we are on a good path to get to 800 and then 
1,300, but 19,000 versus 19,000 is something I think, frankly, 
again, we have to decide is that what the U.S. wants to do for 
the world.

                         CFE Computer Analyses

    Chairwoman Giffords. And following up on that, obviously, I 
am not an expert in orbital mechanics, but, you know, I have 
heard what was said today, and you know, I heard Mr. DalBello 
talk about the all-against-all computer analysis. I know that 
Mr. Rohrabacher has had to leave and with all due respect to 
our incredible interns that we all have, I am a little 
concerned, again, about the complexity and the cost associated 
with these computer analyses.
    So perhaps, General, you could talk about that a little bit 
more in-depth.
    General James. Well, again, I don't know how much more in-
depth I can go, but as I said, getting to the active payloads, 
roughly 1,300, and doing an conjunction assessment with those 
payloads against any of the debris that is, you know, around 
the Earth is doable, and that is the path we are headed down.
    But if I want to take debris piece X and look at it for--is 
it going to hit debris piece Y, number one, do we want to do 
that? I mean, is there any value in that because they are both 
just pieces of debris? And then if I do, you know, there is a 
fair amount of processing and computational capability that is 
required to do that.
    And while we have not made that decision yet that is that 
the path we want to go down. But it is doable. It is just--
requires resources.
    Chairwoman Giffords. Thank you.

                              Debris Risks

    Let me shoot over to Dr. Pace. You indicated in your 
prepared statement that the Air Force does not have the 
resources to look at everything, and that some risks will not 
be addressed until it is too late.
    Well, that certainly got our attention, so can you talk a 
little bit more about these risks?
    Dr. Pace. Well, I think that you have actually heard a 
description of that. There is going to be a spectrum of these 
risks. Obviously the highest-priority items is going to be for 
human space flight and looking at national security payloads, 
and that is appropriately what the Air Force does. The question 
is is how far down that list are you going to go. Plainly the 
Iridium and the Cosmos collision fell below the resource line 
in terms of what people could go look at.
    Now, the problem is if you go all the way over to say, 
well, I want everything on everything, on orbital mechanics 
every object has roughly ten orbital elements associated with 
it, so 20,000 objects times 20,000 objects, each with ten 
orbital elements, we quickly come up with 40 billion numbers 
that you are worrying about. Maybe $40 billion. So 40 billion 
things that you are now going and tracking, and then that 
changes with time, because, again, the things don't move in 
static orbits, but the weather, how--whether there were any 
maneuvers and so forth. So it is a very, very dynamic model.
    So you are going to be drawing a line somewhere, and the 
question is is can you do things that mitigate the chances of 
there being something bad occurring? Now, some of the IADC 
practices mentioned or things like venting your tanks after you 
are done so that there isn't a chance of accidental explosion, 
putting catchers on bolts so that you don't blow them off into 
space. Pretty common sensical sorts of things.
    So with good operational practices, with people not doing 
things like creating large debris at high altitude as the 
Chinese did, but if you do create debris as the U.S. did in the 
case of USA 193, I guess, there is the case that system cleaned 
itself out in the space of a few days.
    So there are proper and improper ways of engaging with 
space objects and in bringing them down. Establishing those 
operational norms is sort of the first thing. Making sure that 
you don't get any worse is the next thing.
    I think that there are some interesting ideas about 
mitigating debris out there, and as Congressman Rohrabacher 
mentioned and actually some of the French proposals include 
things like ground-based lasers against small debris items. 
Now, of course, there is a fine line between a ground-based 
laser cleaning orbital debris and a weapon system. And so you 
would have to have an amount of international discussion as to 
whether or not that makes any sense.
    Let me pause right there.
    Chairwoman Giffords. Okay. Thank you, Dr. Pace.
    Mr. Olson.

                      Timeline for Debris Warning

    Mr. Olson. Thank you, Madam Chairwoman, and I will be brief 
with the questions. First of all, I want to thank you for 
holding this hearing again. The first time this topic has been 
heard from in this committee. I think it is critically 
important. I also want to thank your witnesses. I have learned 
a lot today, and I appreciate your time and expertise.
    And General James, my last question is for you. Building on 
your conversation with the Chairwoman, when you go through that 
analytical process, how long does it typically take or how much 
advanced notice can you determine that there is going to be a 
threat of a conjunction?
    General James. Generally speaking about four days out is 
where we feel that the data is reasonably accurate and won't 
change very much over that period of time. So that is when we 
do an assessment, and if we get something that says there is a 
potential conjunction let us say within a kilometer, then, 
again, we will normally go task our sensor system to give us 
more updated data. We will run the assessment again and see if 
that is still valid, and we will continue to march that down 
all the way up to really the point of conjunction.
    So certainly, for example, on the International Space 
Station we are very aware of that. We run those analyses every 
four to six hours if there is a potential conjunction. We have 
two NASA orbital analysts that reside at the JSpOC and are in 
close communication with NASA constantly whenever we get into 
those scenarios, and we move forward from there.
    But, again, there can be very small objects that may 
suddenly have changed from the last time we looked at them and 
create a conjunction that is only 12 hours, 24 hours out, and 
then we have to do those assessments fairly quickly.
    Mr. Olson. And one more follow-up question, General. When 
the--what was the timeframe, the warning for the last sort of 
conjunction with the Space Station, remember when the 
astronauts had to go into the hardened area of the station in 
the event of an impact.
    General James. And, sir, I will have to give you the exact 
time for the record, but again, and you can probably add to 
this, but that was a scenario where the object was fairly 
small. The data we had was fairly old and then when we did an 
updated data set, it essentially said we have a predicted 
conjunction coming up fairly quickly, which did not give NASA 
the time to actually conduct a maneuver on the spacecraft.
    And I don't know if you want to add to that at all but----
    Mr. Johnson. The other contributing factor was that that 
particular particle was in a relatively elliptical orbit, which 
means you had fewer opportunities to track it. It was also more 
susceptible to perturbations in the atmosphere, and so its 
orbit was actually changing pretty rapidly every time it went 
around the world. And so it was much more of a challenging 
situation than we normally are faced with.
    Mr. Olson. Thank you very much for those answers.
    Madam Chairwoman, I yield my time back. Thank you all 
again.
    Chairwoman Giffords. Thank you, Mr. Olson.
    Mr. Griffith.
    Mr. Griffith. I just wanted to thank the panel and then--
you guys are great. Kind of reminds me of your next science 
question. If a two-centimeter particle hits a five-centimeter 
particle, is it Wednesday or Thursday? And so I thank you all 
for being here. Thank you very much.
    Chairwoman Giffords. Thank you. Obviously I want to thank 
the witnesses for coming today, and before we bring the hearing 
to a close, I especially want to recognize General James, and 
we were just speaking earlier before, and there are some models 
out in the entry room, and the fact that you have seen Saturn, 
the Space Shuttle, Delta IV all launch really speaks to your 
history in space and aviation. We appreciate your service.
    And to our other Members that spoke today on our panel, 
thank you for your service. We only touched on just the brief 
cursory beginning of what will be an importantly--increasingly 
important issue for all of us, and I am pleased that, Mr. 
Olson, we had a good discussion today. This is just the 
beginning. We have a lot more to cover, but I thank the 
Subcommittee Members for being here. The record will remain 
open for two weeks for additional statements from the Members 
and for answers to any follow-up questions that the 
Subcommittee may ask of our witnesses.
    The witnesses are excused, and the hearing is now 
adjourned. Thank you very much.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Lieutenant General Larry D. James, Commander, 14th Air 
        Force, Air Force Space Command; Commander, Joint Functional 
        Component Command for Space, U.S. Strategic Command

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  In your prepared testimony you state that ``the DOD intends to 
operationalize the support to commercial and foreign entities in the 
Fall of 2009.'' You also indicated during the hearing that you were 
ramping up to ultimately do conjunction analysis on a greater number of 
satellites and that you are working with your headquarters to get 
additional processing capacity as well as personnel. You also said that 
you were looking to expand capabilities, and looking at ways to 
automate processes and ways to push the data out to the individual end 
users that have signed agreements with you. Now that the President's 
budget for FY 2010 has been released, please provide more details on 
the ``operationalized'' CFE follow-on program, projected costs in 
executing that program, costs of planned improvements to space 
surveillance capabilities, and projected milestones associated with the 
aforementioned actions.

A1. Provided we remain on track for guidance publication as well as the 
delivery of information technology and human capital resource 
improvements, we anticipate being able to provide daily safety of 
flight screenings for all active, maneuverable payloads by the end of 
2009. If there are significant delays in the delivery of any of the 
aforementioned we will see a continued delay in being able to take on 
this vital mission set.
    The Joint Space Operations Center (JSpOC) Mission System (JMS) will 
incrementally deliver additional advanced services. CFE capability 
depends on the collaboration of multiple space situational awareness 
and command and control systems used by operators to collect data, 
process and analyze it, and to handle CFE requests and reports. Costs 
and activities specifically associated with CFE improvements include:

        <bullet>  Additional data processing equipment and associated 
        support equipment will directly increase the ability to handle 
        larger volumes of data for calculations, and provide backup 
        capability in case of equipment failures: $7.6M (ECD: 15 Jun 
        09)

        <bullet>  Migration of CFE processing from legacy system to new 
        net-centric JSpOC Mission System: $9.9M (ECD: 2013). In the 
        interim, AFSPC will deliver a basic Conjunction Assessment (CA) 
        capability to USSTRATCOM 1 Oct 2009 by delivering additional 
        computing power, personnel, and processes to bridge the gap 
        until delivery of JMS.

        <bullet>  Additional personnel to handle CFE operations: $1.2M 
        per year (ECD: 2009)

        <bullet>  Prototype system to improve data from existing 
        sensors by filtering data to find more objects at the limits of 
        detection: $4.5M (ECD: 2009)

                  Recurring costs estimated at $5M per year

        <bullet>  24 civilian billets (ECD: 2010)

        <bullet>  AFSPC developed a three-tier solution to delivering 
        CA capability: short-term, mid-term, long-term solution

                  Short-term delivery is to build out current 
                capability (described above) by expanding legacy 
                systems with additional computing power, personnel, and 
                procedures to meet CFE needs. Allows for CA services 
                for 800 active maneuverable versus all cataloged 
                objects

                  Mid-term addresses the gap between now and the 2013 
                JMS delivery. AFPSC engaged with the SPO to evaluate 
                commercial or government owned solutions to enhance CA 
                services until JMS delivery.

                  Long-term solution is the 2013 JMS

Q2.  You state in your prepared statement that the relationship between 
DOD and commercial space operators is sound but that challenges remain, 
such as sharing of SSA data. Your statement references a recent round 
table discussion with owner/operators sharing the short- and long-term 
goals of the CFE Program. Was there a meeting of the minds on how 
commercial users' information and analysis needs could be better met?

A2. We have made great strides in developing relationships and 
beginning to understand CFE requirements. There have been two round 
table discussions between the DOD and Commercial and Foreign Entities 
(CFE). The first was conducted on 2 April 2009 during the National 
Space Symposium and the second was held 14 May 2009. We have gained 
tremendous insight into CFE needs by closely working with the entities 
we already have support agreements with. The goal of our interaction 
with CFE is to set expectations, understand CFE needs, and explain to 
CFE what data and services the Joint Space Operations Center can 
provide consistent with National Security interests and on a non-
interference basis. This dialogue will continue with the resurrection 
of the Flight Dynamics Task Force Working Group, which will serve as a 
focused, technical forum comprised of system experts from industry and 
government.
    The Flight Dynamics Task Force (FDTF) is a task force established 
by the Mission Assurance Working Group (MAWG). The FDTF was established 
in 2006 to address commercial SATCOM industry concerns over CFE 
Program. The FDTF surveyed the industry to gather technical information 
from industry and determine their desires for the CFE program which was 
provided to AFSPC in 2007. The current stand-up of the FDTF will be to 
update the information from the previous study and will include more 
commercial SATCOM participants as our numbers have increased along with 
the commercial Remote Sensing operators.
    The DOD Executive Agent (EA) for Space, with CDRUSSTRATCOM and ASD 
(NII) meet at least annually with the commercial SATCOM CEOs to discuss 
issues relevant to the commercial SATCOM operators--one of the primary 
topics is CFE. The National Security Space Office (NSSO), as the staff 
for the DOD EA for Space, leads the MAWG. The FDTF is an appropriate 
forum as the NSSO has an established relationship with the commercial 
SATCOM operators through the aforementioned forums. At present, it is 
the best forum as the Air Force and USSTRATCOM work to determine how 
best to engage with industry on matters such as this.

Q3.  According to a March 9, 2009 article in Space News, the Air Force 
is planning on producing a new space traffic management policy before 
the beginning of June which would ``provide wider access to its high-
accuracy catalog showing the whereabouts of orbital debris and 
operational satellites as part of an effort to enable commercial and 
non-U.S. government satellite operators to better avoid in-orbit 
collisions.'' Is such a policy going to be implemented? And if so, what 
are the details of this policy?

A3. There are currently no plans for the Air Force to conduct a space 
traffic management role. The Federal Aviation Administration's Office 
of Commercial Space Transportation has regulatory oversight of launch 
and reentry operations conducted by U.S. citizens or in the U.S. There 
is currently no authority to regulate commercial on-orbit operations. 
The Air Force does publish basic catalog data on the Space-Track.org 
web site, which can be accessed after registration approval, but has no 
plans to publish any high accuracy space catalog data to Commercial and 
Foreign Entities (CFE) satellite operators.
    However, in an effort provide crucial conjunction assessment 
support to CFE, the CFE may enter into a legal agreement with Air Force 
Space Command. Once approved, the CFE will be able to receive 
conjunction assessment and space support information based on the Air 
Force's high accuracy catalog through a future release on the Air Force 
Space Command sponsored Space-Track.org web site.

Q4.  Your prepared statement notes that ``the global diffusion of space 
technologies, especially the availability of small spacecraft 
technologies and providers, will lead to a larger and more diverse 
population of active spacecraft'' What does a potential increase in 
small satellites mean for estimated debris growth and potential 
collisions in the future? What actions are needed to address any 
questions about an increase in the use of small satellites?

A4. The smaller a satellite gets, the harder it is to track. With less 
tracking data the positional accuracy degrades and so too does our 
ability to provide accurate conjunction assessments. Ensuring that we 
bring new capabilities on line such as the Space Fence and Space 
Surveillance Telescope will be essential in improving our ability to 
track these smaller spacecraft and keep up with small spacecraft 
technology trends.

Q5.  Mr. DalBello's prepared statement notes that ``there is no single 
standard for representing the position of an object in space. Different 
operators characterize the orbital position of their satellites 
differently, depending on the software they use for flight 
operations.'' Is a standard for characterizing the position of an 
object in space needed? If so, what entity or entities would develop 
the standard?

A5. Since different satellite operators have different mission 
requirements, it would not be practical to require one standard for all 
space flight operations. However, within a user community where it is 
necessary to exchange satellite positional information, it is crucial 
to maintain inter-operability. AFSPC currently does this by providing 
inter-operable orbit prediction models to users of JSpOC orbital 
products. Another approach for ensuring inter-operability would be to 
provide a common data exchange format. This format should spell out the 
coordinate systems and time standard for a series of predicted 
satellite positions (this is often referred to as ``satellite 
ephemeris''). However, limitations of legacy communication systems and 
limited bandwidth have made this difficult to implement on a large-
scale basis.

Q6.  What are the challenges associated with fusing data from different 
sources such as radar and optical systems?

A6. The challenge is not in fusing the data but acquiring enough high 
quality satellite tracking from either source for the fusion process, 
especially on small pieces of debris. The current Space Surveillance 
Network has not been optimized for small debris tracking but with 
programs like the Space Fence and Space Surveillance Telescope (SST) 
our ability to track small debris will be greatly enhanced.
    The current legacy Command and Control system (SPADOC) does have 
some throughput limitations in high volume observation correlation 
processing for ``angles only'' data on newly discovered unknown 
satellites (the type you could get from future optical systems like 
Space-based Space Surveillance and SST). The correlation activity 
occurs at the front end of the observation processing flow prior to the 
data fusion process. These capacity limitations should to be addressed 
in the SPADOC replacement system known as the JSpOC Mission System 
(JMS).
    Typically radars focus more on LEO orbits and optical systems more 
on GEO and HEO, although we can get data on all three orbit classes 
from both types of sensors. As new space based optical satellite 
tracking capabilities become available this mix of data may change 
somewhat. However, the two types of data are complementary and we are 
able to readily fuse them and obtain excellent results when we have the 
data.

Q7.  If conjunction analysis and other warning activities could be out-
sourced without infringing on national security considerations, what 
would be the limitations you see as having to be established?

A7. The DOD performs CA and other warning activities for satellites 
conducting DOD mission requirements [i.e., United States Government 
(USG) satellites and non-USG satellites supporting DOD missions]. 
Protection of DOD assets/missions is inherently and should remain a 
government responsibility. Space situational awareness data is critical 
to the security of our DOD assets/missions, characterized by very tight 
decision and maneuver timelines to preserve national assets from debris 
or maneuvering objects.
    Outsourcing poses challenges regarding duplication of effort, 
forcing competition over resources, protection of data, and data 
release control. In light of these challenges it does not seem feasible 
to out-source to a commercial entity other than through government 
contract. However, a government contract poses its own set of 
challenges.
    Contractors would likely have to be collocated with the Joint Space 
Operations Center (JSpOC) for effective comparisons and notifications. 
Appropriate clearances would have to be obtained for the contractors. 
Assurances would have to be made that requested services are 
appropriately screened, securely delivered, and safeguarded by the 
receiver. Finally, with a government contract, upon renewal it may turn 
over to another company, and with it its expertise.
    The space control community is small, experienced operators are 
rare, and continuity is critical. The ideal model to meet the 
increasing need for CA and other warning activities would be to keep 
these functions within government and hire government civilians to work 
in the JSpOC. This would maintain continuity and create a centralized, 
stable location to keep and grow CA/warning expertise.

Questions submitted by Representative Pete Olson

Q1.  During our hearing, you stated that the Air Force is increasing 
its ability to process orbital data, which will eventually lead to 
broadening the system's ability to do conjunction analysis for up to 
1,300 objects. How does the Air Force plan to manage the distribution 
of this data to civilian satellite operators? Will satellite operators 
be charged a fee?

A1. The Air Force is extensively engaged with allies and partners with 
respect to the sharing of SSA data. Through DOD and Air Force 
international cooperation strategies, the DOD details its goals with 
respect to SSA cooperation, data sharing, and plans for future 
expansion of these capabilities.
    AFSPC leads the pilot program for Commercial and Foreign Entities 
(CFE) allowing expanded sharing of space track data.

        <bullet>  This program is generally considered successful, but 
        not without concerns. The pilot program has identified legal 
        and policy issues which must be addressed to allow expanded 
        data services.

        <bullet>  Effective 1 October 09, this pilot program will be 
        taken over by USSTRATCOM, who will continue to work closely 
        with other entities (government and commercial), and when 
        appropriate share data of higher accuracy.

    The DOD and Department of State are leading discussions on SSA 
cooperation with key allies. AFSPC experts support such discussions.

        <bullet>  These discussions provide a foundation for expanded 
        SSA cooperation in support of common civil, commercial, and 
        military requirements.

        <bullet>  These discussions serve as a model for developing SSA 
        cooperation with our space partners in other regions.

    Bilateral SSA Engagements are addressed on a case-by-case basis. 
Each interaction is governed by delegation guidance and DOD and AF 
International Engagement strategies.

Q2.  To what extent is the Air Force coordinating orbital surveillance 
and tracking efforts with other governments? Are there plans to work 
more closely with other governments to share data and increase its 
accuracy?

A2. The Air Force is extensively engaged with allies and partners with 
respect to the sharing of SSA data. Through DOD and Air Force 
international cooperation strategies, the DOD details its goals with 
respect to SSA cooperation, data sharing, and plans for future 
expansion of these capabilities.
    AFSPC leads the pilot program for Commercial and Foreign Entities 
(CFE) allowing expanded sharing of space track data.

        <bullet>  This program is generally considered successful, but 
        not without concerns. The pilot program has identified legal 
        and policy issues which must be addressed to allow expanded 
        data services.

        <bullet>  Effective 1 October 09, this pilot program will be 
        taken over by USSTRATCOM, who will continue to work closely 
        with other entities (government and commercial), and when 
        appropriate share data of higher accuracy.

    The DOD and Department of State are leading discussions on SSA 
cooperation with key allies. AFSPC experts support such discussions.

        <bullet>  These discussions provide a foundation for expanded 
        SSA cooperation in support of common civil, commercial, and 
        military requirements.

        <bullet>  These discussions serve as a model for developing SSA 
        cooperation with our space partners in other regions.

    Bilateral SSA Engagements are addressed on a case-by-case basis. 
Each interaction is governed by delegation guidance and DOD and AF 
International Engagement strategies.

Questions submitted by Representative Dana Rohrabacher

Q1.  When a commercial user asks the Air Force to provide satellite 
data, is there a standard set of data and a standard published price 
list that is publicly available? Is the typical data set that you 
provide sufficient, or do most commercial users require additional 
information?

A1. The most commonly requested data, two line element sets, are 
provided on the AFSPC Space-track.org web site to registered users free 
of charge. The two line element sets provide basic orbital parameters, 
based on general perturbations, and the level of accuracy is sufficient 
for the majority of registered users; however, commercial operators 
often require/request data with a higher accuracy level. The Joint 
Space Operations Center (JSpOC) can provide high-accuracy data and 
conjunction assessment based on special perturbations; however, this is 
done only for commercial users who enter into an agreement with the 
U.S. Government.
    Commercial operators can request special perturbations data and 
advanced services by registering on the Space-track.org web site, and 
then submitting a Space Support Request (SSR) to AFSPC. AFSPC will 
review the SSR to ensure security and legal requirements are met. If 
the SSR is supportable, a legal agreement is signed, and the SSR then 
goes to the JSpOC. The JSpOC works directly with the commercial users 
to deliver high-accuracy information (based on the special 
perturbations) and advanced services free of charge. Since we do not 
charge for services, this is no published price list.

Q2.  Although we have not yet seen widespread commercial human space 
flight, it is clear that within a few years there will be several 
commercial entities capable of regular sub-orbital, and possibly 
orbital, service. In the planning for future programs, is any 
consideration being given to this industry? Is there concern that these 
entities might present further dangers to civil and commercial users?

A2. The space situational awareness support required for any future 
commercial human space flight is the same as the orbital safety and 
anomaly resolution support provided today for NASA human space flight. 
The services include launch conjunction assessment, on-orbit 
conjunction assessment, on-orbit anomaly resolution, positional data, 
and reentry support. Our planning for future systems such as JSpOC 
Mission System includes requirements to deliver these services and is 
scalable to handle the future growth of new customers who need these 
types of services. DOD policy related to CFE support would need to be 
modified to include language covering the commercial human space flight 
needs and priorities.

Q3.  What are the hurdles in expanding our international agreements 
beyond debris mitigation to include debris remediation? Are there 
nations or commercial operators who would be against such an expansion?

A3. Directing debris remediation efforts for international governments 
and CFE are beyond DOD authorities. Initiatives would need to be 
coordinated with the DOS and FAA.
    Debris remediation is one potential approach to increasing the 
safety/security of both manned and unmanned space systems. AFSPC is 
prepared to examine such options as a part of the larger space 
protection suite of capabilities.
    There are several hurdles that must be addressed before debris 
remediation can be become operationally feasible, these include: 
policy/legal challenges, technological challenges, and fiscal 
challenges.

        <bullet>  U.S. Policy and international law will need to be 
        addressed prior to developing and employing a U.S. capability, 
        or agreeing to support any foreign/cooperative effort to 
        remediate space debris.

                  The Outer Space Treaty provides that the State of 
                registry of a space object retains ``jurisdiction and 
                control'' while the object is in outer space. This 
                provision applies equally to active satellites and to 
                debris. Therefore, a State could only take remediation 
                measures for its own debris unless there is an 
                international agreement in place.

                  If a remediation capability were developed that 
                permitted the return of an object to Earth, the U.S. 
                Government would need to be aware of the possibility of 
                technology transfer of our sensitive satellites in 
                violation of the International Traffic in Arms 
                Regulations.

        <bullet>  Studies by NASA and Industry allude to the 
        technological feasibility of debris remediation. However, such 
        systems are beyond the scope of current technology development 
        programs. As AFSPC continues to examine the realm of space 
        protection and situational awareness, we will actively seek any 
        technology that will allow us to protect and maintain our space 
        capabilities.

        <bullet>  Fiscal hurdles will also limit the ability of the 
        U.S. to field a space remediation capability. Any system 
        capable of providing a remediation of debris will be expensive, 
        and beyond the current ability of the MAJCOM to budget for 
        without reduction in some other space capability. A joint U.S.-
        Allied approach might be more fiscally tenable.

    Other nations might be against a debris remediation capability. 
Each nation will have its own political and technological reasons for 
either supporting or not supporting debris remediation. Until the U.S. 
begins to discuss this concept with our allies and partners we will not 
have a true sense of what other nations views are on this issue. It 
seems unlikely that commercial entities will have any issues with a 
government agency expending resources to provide a safer domain for 
their commercial enterprises.
                   Answers to Post-Hearing Questions
Responses by Nicholas L. Johnson, Chief Scientist for Orbital Debris, 
        Johnson Space Center, National Aeronautics and Space 
        Administration (NASA)

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  In 1995, NASA was the first space agency in the world to issue a 
comprehensive set of orbital debris mitigation guidelines. It took 
until 2002 for a consensus set of guidelines to be adopted by major 
space agencies. And the U.N. General Assembly endorsed a set of 
voluntary orbital debris mitigation guidelines finally in December 
2007. Why did it take so long to gain global acceptance of urgently 
needed guidelines? What does this bode for the universal endorsement of 
other needed agreements, such as reaching consensus on a space 
surveillance awareness system and code of conduct for space operations?

A1. In January 1998, the ``U.S. Government International Strategy on 
Orbital Debris'' was drafted. This strategy, which was updated numerous 
times, envisioned a multi-year, three-step process: (1) development and 
adoption of U.S. Government Orbital Debris Mitigation Standard 
Practices; (2) development and adoption of orbital debris mitigation 
guidelines by the Inter-Agency Space Debris Coordination Committee 
(IADC); and, (3) adoption of orbital debris mitigation guidelines by 
the United Nations Committee on the Peaceful Uses of Outer Space (UN 
COPUOS). All three steps in the process required considerable 
discussion within the domestic aerospace community, and then across the 
principal foreign aerospace communities to inform them of the threat of 
orbital debris and means to mitigate that threat.
    Step (1) was completed in February 2001, and step (2) was completed 
in October 2002. In February 2003, the IADC Space Debris Mitigation 
Guidelines were formally presented to the Scientific and Technical 
Subcommittee (STSC) of UN COPUOS. The hope was that the STSC, and then 
the full COPUOS, would adopt or endorse the IADC guidelines by 2004. 
However, after two years of discussion, the STSC decided to develop an 
independent set of guidelines, but one which would be based upon the 
IADC guidelines. Two additional years were required for the completion 
and adoption of the guidelines.
    The groundwork, including the development of organizational and 
personal relationships, established during the process of creating 
international orbital debris mitigation guidelines should facilitate 
future efforts related to space surveillance awareness systems and 
potential codes of conduct for space operations. However, these topics 
involve complex issues of technology and policy, and it is difficult to 
predict how long either would take to reach an initial consensus.

Q2.  Your office's April 2009 issue of Orbital Debris Quarterly News 
indicates that debris caused by the February 10 collision between the 
Iridium satellite and a defunct Russian Cosmos spacecraft were observed 
by a pair of radars at Goldstone, CA because they were too small to be 
seen by the Space Surveillance Network.

     Considering the heavy workload the aging radars of the Deep Space 
Network already perform for NASA's Science missions, what is the 
likelihood similar space debris observations will continue to be made 
in the future? Do you know if this particular use has been incorporated 
by NASA in establishing the requirements of the future Deep Space 
Network?

A2. Orbital debris observations made with the radars at Goldstone are 
carried out on a non-interference basis with the principal missions 
being tracked by the facility. Typically, about 100 hours are available 
annually. The Goldstone data fill in a relatively narrow gap between 
one mm (about the largest size of debris found in returned spacecraft 
surfaces) and five mm (smallest debris size normally seen by the 
Haystack radar). While generally helpful to NASA orbital debris 
environment assessments, these data are not critical. NASA is currently 
reviewing requirements for the Deep Space Network's future 
capabilities, including orbital debris tracking, as part of the 70 m 
antenna replacement study.

Q3.  Dr. Pace's prepared statement notes that radio astronomy 
telescopes could possibly be used to aid space situational awareness 
efforts. Has NASA taken any steps to explore the potential use of radio 
astronomy telescopes for this purpose or engaged the international 
scientific community on this question?

A3. In 1989, the Arecibo radio telescope was used successfully in a 
pioneering effort to detect small orbital debris. This exercise led to 
the ongoing work with the Goldstone radars noted in the NASA response 
to Question for the Record number two immediately above. To date, NASA 
has not identified a need to employ radio astronomy telescopes to 
support the characterization of orbital debris populations. The use of 
the U.S. Space Surveillance Network and the Haystack, Haystack 
Auxiliary, and Goldstone radars, and the examination of spacecraft 
returned surfaces span the entire size regime of orbital debris.

Q4.  Mr. DalBello's prepared statement notes that ``there is no single 
standard for representing the position of an object in space. Different 
operators characterize the orbital position of their satellites 
differently; depending on the software they use for flight 
operations.'' Is a standard for characterizing the position of an 
object in space needed? If so, what entity or entities would develop 
the standard? Do you envision this to require international 
involvement?

A4. Since the 1960s, the U.S. Government, through the U.S. Space 
Surveillance Network, has established standards for representing the 
position and trajectory of objects in space. These standards are widely 
used domestically and in the international community and have evolved 
as needs have arisen and technology has permitted. The Department of 
Defense, as the operator of the U.S. Space Surveillance Network, is 
best-suited to maintain and, if required, improve these standards.

Q5.  You were recently quoted in a National Geographic article that it 
may be time to think about how to remove orbital debris from space. 
While recognizing that current technology makes it neither technically 
feasible nor economically viable to do so at present, you equated this 
to an environmental problem. What are the steps that need to be taken 
before any sort of active debris removal strategy can be established? 
Are there any technology R&D efforts that should be undertaken to give 
us future options for debris removal?

A5. The International Academy of Astronautics (IAA) is nearing the 
completion of a multi-year assessment of concepts for remediating the 
near-Earth space environment, i.e., the removal of orbital debris. This 
report will be the first comprehensive look at the problem with respect 
to both small and large debris and for debris at low and high 
altitudes. NASA plans to take advantage of the work done by the IAA in 
addressing how best to proceed. In addition, NASA and the Defense 
Advanced Research Projects Agency have recently begun discussions on 
joint work with the U.S. aerospace and academic communities to 
investigate possible cost-effective means of removing hazardous orbital 
debris.

Q6.  If conjunction analysis and other warning activities could be out-
sourced without infringing on national security considerations, what 
would be the limitations you see as having to be established?

A6. At this time, out-sourcing conjunction assessment analyses and 
other warning activities would be extremely challenging. In addition to 
inseparable national security issues, only the U.S. Space Surveillance 
Network (SSN) has the raw data and the expertise necessary to perform 
these operations. Moreover, conjunction assessments and other warning 
activities involve interactive processes, such as realtime tasking of 
individual space surveillance sensors to acquire new data, which cannot 
be accomplished via out-sourcing. Conjunction assessments currently 
performed by some using publicly available data from the SSN are of 
insufficient accuracy upon which to base collision avoidance decisions.

Questions submitted by Representative Pete Olson

Q1.  During our hearing, it was suggested that one solution to mitigate 
the likelihood of future orbital collisions would be the provision of 
high-accuracy data to the commercial sector for those objects that are 
not maneuvering. Were the Air Force to provide such data, would civil 
operators have the capability to generate their own conjunction 
analysis for their satellites? Instead of relying on the Air Force to 
perform conjunction analyses for the universe of operators, is it more 
effective to rely on operators (or coalitions of operators) to do their 
own analysis based on raw data provided from multiple sources, 
including the Air Force?

A1. At this time, out-sourcing conjunction assessment analyses and 
other warning activities would be extremely challenging. Conjunction 
assessments and other warning activities involve interactive processes, 
such as real-time tasking of individual space surveillance sensors to 
acquire new data, which cannot be accomplished via out-sourcing. In 
addition, the U.S. Space Surveillance Network (SSN) uses a set of 
validated software which is designed to work specifically with the raw 
data provided by the SSN sensors. Further, national security issues 
prevent the release of information needed to provide the most accurate 
conjunction assessments.

Q2.  You stated that ``the international aerospace community has 
already made significant strides in the design and operation of space 
systems to curtail the creation of new orbital debris, but more can be 
done.'' Please explain what additional steps could be taken?

A2. First and foremost is to continue to improve compliance with the 
recently established United Nations space debris mitigation guidelines. 
This is done primarily via reporting and discussions at the annual 
meeting of the Scientific and Technical Subcommittee of the United 
Nations' Committee on the Peaceful Uses of Space and via the various 
major international space conferences, e.g., the annual International 
Astronautical Congress and the biannual Scientific Assembly of the 
Committee on Space Research Some spacecraft and launch vehicle design 
changes could also reduce the risk of the inadvertent generation of 
debris. For example, not all pressurized vessels are designed to be 
vented when no longer needed.

Questions submitted by Representative Dana Rohrabacher

Q1.  Although we have not yet seen widespread commercial human space 
flight, it is clear that within a few years there will be several 
commercial entities capable of regular sub-orbital, and possibly 
orbital, service. In the planning for future programs, is any 
consideration being given to this industry? Is there concern that these 
entities might present further dangers to civil and commercial users?

A1. Member States of the United Nations (UN) are expected to implement 
the 2007 UN Space Debris Mitigation Guidelines in their national 
regulations of future commercial human space flight operations. Human 
space flight is currently conducted at low altitudes where the orbital 
debris population is low and where the inadvertent creation of new 
orbital debris is mitigated by short orbital lifetimes. The vast 
majority of civil and commercial spacecraft operations take place above 
the regime used for human space flight.

Q2.  What are the hurdles in expanding our international agreements 
beyond debris mitigation to include debris remediation? Are there 
nations or commercial operators who would be against such an expansion?

A2. The principal hurdle is to identify practical and affordable means 
of removing debris from orbit. The International Academy of 
Astronautics has been conducting a survey of many concepts during the 
past few years. In general, the concepts are either not technically 
feasible or are too costly. At this point, it would be premature to 
judge whether there would be opposition to the development of 
practical, affordable debris removal systems; as such systems have not 
yet been identified.
                   Answers to Post-Hearing Questions
Responses by Richard DalBello, Vice President, Legal and Government 
        Affairs, Intelsat General Corporation

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  At the hearing you urged DOD to be creative in the development of 
data sources in recognition of the high costs associated with upgrading 
the Space Surveillance Network. You suggested, as a potential 
alternative to utilizing expensive terrestrial infrastructure, that DOD 
place sensors on every commercial platform going into orbit. How big an 
impact would making provision for such sensors be on your commercial 
satellite operations?

A1. Making provisions for the accommodation of sensors on every 
commercial satellite need not create an operational burden for 
industry. If the sensors were relatively small and consumed a modest 
amount of power, they could be accommodated without a significant 
impact to the commercial mission. Multiple classes of sensors may be 
needed to match various commercial satellite configurations. The 
government would need to play a role in the development and 
coordination of these devices. Specialized, larger, or `single mission' 
sensors could also be flown, but, the bulk of the program should 
probably be built around common and relatively inexpensive units. The 
communication component of the mission (returning the sensor data to 
Earth) could be handled easily through the use of the satellites 
commercial transponders.
    In order to routinely add space surveillance sensors to commercial 
satellites, the private sector would need:

        <bullet>  A clear statement of government objectives and 
        requirements;

        <bullet>  Government provided or designed low-cost, sensors;

        <bullet>  Well-defined and common technical interfaces to 
        reduce cost and allow the package to be `designed in' at the 
        start of the programs;

        <bullet>  A commitment that the government would have `insight, 
        not oversight' of the commercial program;

        <bullet>  Contracts that are simple, are based upon commercial 
        terms, and are for a sufficient length of time to justify 
        commercial sector efforts.

Q2.  Commercial space users have indicated concern about inadequate 
funding. An article in Aviation Week and Space Technology reported on a 
satellite communications official's concern that there is a question on 
``whether there will be enough money to get more than the two-line 
elements currently available.'' The article added that industry 
analysts say existing data sets do not satisfy operators' accuracy 
needs. Do you believe inadequate funding will translate to your 
industry not receiving data that is as accurate as it needs?

A2. It is our current understanding that DOD intends to expand 
significantly the resources available to its Space Situational 
Awareness Program. How much of this funding will eventually be 
allocated to the CFE program is unclear. Our current conjunction 
monitoring systems depend on the two-line elements provided through CFE 
for initial screening. Should future funding constraints result in 
limitations on our access to the current two-line elements, or further 
degrade their accuracy, satellite operators would lose the ability to 
perform initial screening. The current accuracy of two-line elements 
does not support reliable conjunction monitoring. However, because this 
is the only means available for providing the orbital elements for the 
objects in the catalog, operators rely on it for initial screening 
only. Once a potential alert is detected, operators typically request 
assistance from JSpOC via the CFE Form-1 process. If the two-line 
elements are unavailable or their accuracy is degraded, operators will 
need to rely more on the direct aid of JSpOC which will increase the 
workload and expense of this operation. Alternatively, if higher 
accuracy data are made available to the public, operators could tighten 
the collision thresholds in their initial screening and thus reduce 
false alarms and unnecessary requests of assistance from JSpOC for 
second screening. This would reduce the unnecessary workload on JSpOC 
and allow for optimal use of its resources.

Q3.  In your prepared statement, you advocate beginning an 
international dialogue on ``Rules of the Road'' for space to develop 
guidelines such as protocols for informing other operators when one of 
their spacecraft could potentially cause damage to other space objects. 
How would you initiate such a dialogue and what do you consider the 
major obstacles to agreeing on such Rules of the Road?

A3. An international dialogue on ``Rules of the Road'' should be 
pursued through both government and non-government channels. The United 
States Government should take a leadership role in discussions on space 
traffic management in international bodies such as the United Nations 
Committee on the Peaceful Uses of Outer Space (COPUOS), the 
Consultative Committee for Space Data Systems (CCSDS), and the Inter-
Agency Space Debris Coordination Committee (IADC). Leadership and 
engagement in these fora will be instrumental in efforts to develop a 
common international understanding of definitions and standards. In 
addition to these activities, significant attention should be paid to 
current operational practices. Specific ``'best practices''' should be 
developed by the appropriate communities currently engaged in space 
operations. The commercial industry's proposal to create a Data Center 
for the coordination of space traffic information would be one 
mechanism to engage the participation of commercial satellite 
operators. Other space actors, such as the science community and the 
human space flight community, will also need to engage to capture their 
own unique ``best practices.'' The U.S. Government can play a 
meaningful role in coordinating the sharing of information between and 
among these various communities. It is important that the development 
of ``Rules of the Road'' be based on practical, experienced-based 
lessons. Attempts to create a top-down, treaty-based approach or an 
approach that emphasizes the creation of new international 
bureaucracies is unlikely to be productive.

Q4.  Your prepared statement notes that ``there is no single standard 
for representing the position of an object in space. Different 
operators characterize the orbital position of their satellites 
differently, depending on the software they use for flight 
operations.'' What are some concrete examples showing how this lack of 
standard is affecting the ability of some operators to share 
information on close approach monitoring?

A4. Different operators represent the orbital position and velocity of 
their spacecraft in different reference frames, time systems and 
formats based on the flight dynamics systems they use for flight 
operations. The table below illustrates some examples of the different 
systems that Intelsat must accommodate when we exchange orbital 
elements with other operators based on our experiences.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The problem is further complicated due to inconsistent use of terms 
and definitions. There are many subtle differences even if the ``same'' 
reference frames are used and if not carefully accounted for will lead 
to errors of a few of kilometers in the satellite positions.

Q5.  Given that the need for and benefit of space surveillance 
awareness is worldwide and cuts across military, civilian government, 
and commercial lines, what are the prospects for establishing a cost-
sharing approach to the provision of the space surveillance function? 
Does the U.S. derive sufficient benefits from the information that it 
should provide the services free of charge, or should users pay a fee? 
What are the pros and cons of establishing user fees?

A5. It may be more immediately productive to characterize space traffic 
management as a ``burden sharing'' rather than a ``cost sharing'' 
opportunity. The commercial industry stands ready to provide valuable 
information to the U.S. Government by sharing with the government its 
satellite ephemeris data based on their its dedicated ranging systems. 
This high quality data will provide better accuracy than the special 
perturbation orbital data derived from DOD's space surveillance 
network. In addition, the industry ephemeris data contains the maneuver 
information which is essential for predictions in the future and for 
reliable close approach analysis. By sharing this high quality data 
with the government, operators also free up the government resources so 
they it can focus on monitoring the high priority targets. This will 
result in cost savings to the government. We believe, therefore, in 
exchange for the industry ephemeris data, that the government should 
provide the close approach monitoring services for free. Since any 
collision in space will create more debris and thus impact the 
operation safety for all others sharing the same space, it is important 
to encourage as many satellite operators as possible to participate in 
the close approach monitoring. If a fee is imposed on the service, it 
may discourage some operators from participating.

Q6.  If conjunction analysis and other warning activities could be out-
sourced without infringing on national security considerations, what 
would be the limitations you see as having to be established?

A6. Intelsat believes that it would be feasible to out-source the space 
traffic management function to a private entity or to a consortium of 
operators. To successfully carry out the space traffic management task, 
it is essential that the designated entity have access to high quality 
information on all space assets. Such information would likely be 
derived from U.S. and foreign observations and from data sharing 
between commercial and government entities. Obviously, the sharing of 
information on the location and maneuver of government space assets can 
raise important security concerns. Initially, an out-sourced space 
traffic entity might have to segregate its information into ``open'' 
and ``restricted'' categories. ``Open data'' might reasonably be 
accessible by all, whereas ``restricted data'' might be limited to a 
pre-designated group of entities. Such segregation would be complicated 
by the need to include non-U.S. entities in the data sharing plan. Over 
time, as more nations develop the ability to monitor space activities 
and space is rendered increasingly transparent, the difference between 
``open'' and ``restricted'' data sources is likely to diminish.

Questions submitted by Representative Pete Olson

Q1.  During our hearing, it was suggested that one solution to mitigate 
the likelihood of future orbital collisions would be the provision of 
high-accuracy data to the commercial sector for those objects that are 
not maneuvering. Were the Air Force to provide such data, would civil 
operators have the capability to generate their own conjunction 
analysis for their satellites? Instead of relying on the Air Force to 
perform conjunction analyses for the universe of operators, is it more 
effective to rely on operators (or coalitions of operators) to do their 
own analysis based on raw data provided from multiple sources, 
including the Air Force?

A1. If the Air Force were to provide the high quality data for non-
active satellites and debris, the industry would be able to use this 
data to conduct conjunction monitoring with respect to those objects. 
One of the goals of the Data Center initiative is to enable operators 
to provide close approach monitoring for as many space objects as 
possible. One of the limitations in our effort is the lack of high 
quality data for non-active objects and non-cooperative operators. 
Provision of high quality data regarding non-operational objects would 
not be sufficient to perform conjunction analysis in all cases, since 
operators would still have to account for active government and non-
cooperating satellites. Nonetheless, such a sharing approach would 
enhance commercial operators' assessment capabilities, while reducing 
the burden on the Air Force JSpOC.
    Over time, it would be possible to use raw data provided from 
multiple and disparate sources to substitute for the services currently 
provided through the CFE program. However, such sharing arrangements--
particularly between different nations--are not yet in place. Even if 
countries and companies were committed to data sharing, there are still 
important data format and data validation issues to resolve. So, in 
short, it is not today more effective to rely on data from coalitions 
of operators and multiple sources to perform conjunction analysis; 
however, we hope and expect that it will be in the future.

Questions submitted by Representative Dana Rohrabacher

Q1.  Although we have not yet seen widespread commercial human space 
flight, it is clear that within a few years there will be several 
commercial entities capable of regular sub-orbital, and possibly 
orbital, service. In the planning for future programs, is any 
consideration being given to this industry? Is there concern that these 
entities might present further dangers to civil and commercial users?

A1. For Intelsat's part, the expansion of commercial human space flight 
should have no impact on its operations. Typically, human space flight 
activities take place within a few hundred miles of the surface of the 
Earth. Intelsat's satellites are in geostationary orbit at 
approximately 22,000 miles from the Earth.
    Our interests notwithstanding, there are many commercial operations 
in communications and imagery that will have to share `low-Earth orbit' 
with future commercial human space flight activities. It is my 
understanding that currently NASA, working with DOD's JSpOC, pays very 
close attention to the safety of the space station. As other human 
space flight activities proliferate, the JSpOC, or other future space 
traffic management entity, will need to add these activities to its 
list of actively monitored objects. The number of objects represented 
by future commercial human space flight activities is likely to be 
small and therefore should not challenge our state-of-the-art 
computational capabilities for space traffic management. So, in short, 
increased human space flight activity does add another set of 
challenges for space traffic management, but these challenges should be 
well within our technical competence.

Q2.  What are the hurdles in expanding our international agreements 
beyond debris mitigation to include debris remediation? Are there 
nations or commercial operators who would be against such an expansion?

A2. In Intelsat's opinion, there are no practical technologies 
available today that could be used to provide low risk, cost effective, 
and reliable debris remediation. Intelsat closely monitors progress in 
this field and is routinely briefed by entrepreneurs and innovators 
regarding emerging debris remediation techniques. For example, we 
recently reviewed several ``space tug'' concepts that would be designed 
to remove whole satellites from the geostationary orbit. Intelsat would 
support government and industry efforts to advance the state-of-the-art 
in this important field.
                   Answers to Post-Hearing Questions
Responses by Scott Pace, Director, Space Policy Institute, Elliott 
        School of International Affairs, George Washington University

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Your prepared statement advocates international cooperation 
focusing on sharing basic information using open standards while 
recognizing that proprietary ``value-added'' products will arise on 
their own in response to user needs.'' Can you elaborate on what basic 
information should be shared and what open standards you envision?

A1. The basic information that should be shared is the object's 
location and enough data to be able to estimate (or ``propagate'') the 
object's position forward in time with sufficient accuracy to do 
conjunction analysis. In addition, there should be a ``point of 
contact'' for that object if possible (i.e., who to call regarding 
maneuvers or impending collisions).
    The two-line elements (TLE) put out by the Commercial and Foreign 
Entities (CFE) pilot program are a common means of representing an 
orbit. They contain position information, orbital characteristics, and 
time information about each object in a comprehensive catalog of space 
objects. ``Orbital characteristics'' are represented by parameters such 
as the orbital period, inclination, apogee, perigee, eccentricity, 
semi-major axis, longitude of the ascending node, argument of 
periapsis, mean anomaly, etc. With information about an object at a 
particular time (or epoch), the future orbit can be calculated. 
Realistically, this means taking into account complex perturbations 
including, among other effect, atmospheric drag, solar radiation 
pressure, gravity field variances, third-body effects due to the Moon 
and Sun, and spacecraft maneuvers.
    The International Standards Organization (ISO) has two 
subcommittees (ISO/TC20/SC13 and ISO/TC20/SC14) which between them 
develop the full body of international space standards. In cooperation 
with these ISO subcommittees the international Consultative Committee 
for Space Data Systems (CCSDS) has developed a recommended standard for 
``Orbit Data Messages'' which provides a common framework for the 
interchange of orbit data across the international space-faring 
community. There are three general types of messages: 1) Orbit 
Parameter Message which specifies the position and velocity of an 
object at a specified epoch or time; 2) Orbit Mean-elements Message 
which specifies the orbital characteristics of a single object at a 
specified epoch or time; and 3) Orbit Ephemeris Message in which the 
position and velocity of a single object is specified at multiple 
epochs within a specified time range. For a given object, analysts may 
use all three types of messages to get an accurate ephemeris (or 
description of the object's behavior).
    In addition, scientific information about the space and Earth 
environment, such as space weather, models of the Earth's gravity and 
atmosphere, are needed to accurately predict orbital behavior over 
time. The basic framework of required standards needs to be more 
comprehensively defined and their development responsibility assigned 
to the appropriate standards organizations. Once the basics are agreed 
via open international standards, value-added augmentations from the 
private sector will follow. One way to establish the basic framework 
could be to assign its definition as a joint working activity between 
the two existing ISO subcommittees.

Q2.  Some European space agencies have signed the European Code of 
Conduct for Space Debris Mitigation. Is there a need for a code of 
conduct to be followed by all space-faring nations?

A2. A goal of having a code of conduct followed by all space-faring 
nations is a worthwhile one. The current EU-proposed code is a starting 
point but other nations such as the United States, Russia and China, 
need to be part of the shaping of any code if voluntary adherence is to 
be effective. The code of conduct can be expected to evolve as 
countries gain more space experience. It should be kept in mind that 
this proposal Is separate from the current Space Debris Mitigation 
Guidelines. The Inter-Agency Space Debris Coordination Committee (IADC) 
that includes all the major space agencies produced these guidelines.

Q3.  What are the main challenges associated with active debris 
removal? What research should be undertaken to better understand the 
technical, policy, and cost issues associated with such removal?

A3. There are complex technical, cost, policy, and legal issues 
associated with active debris removal. At a technical level, the 
challenge is how to accurately impart sufficient energy to create a 
change in an object's velocity to de-orbit or put it into intersection 
with the Earth's atmosphere so it will reenter. For object too high for 
atmospheric reentry (e.g, MEO and GEO orbits), the challenge is to put 
the satellites into stable disposal orbits and vent residual propellant 
to mitigate the possibility they disintegrate into a cloud of debris. 
The energy may be imparted by ground-based systems (e.g., lasers) or by 
in-space devices through collision, manipulation, or propulsion. For 
physical contact, it is unclear how one would rendezvous with a 
spinning, potentially unstable object.
    The technical options are all costly with low economic incentives 
to remove any particular piece of debris. What objects would be 
targeted for removal first? Would we target the most massive objects or 
the objects most likely to disintegrate or those in the most crowded 
orbits? Further, it may be difficult to tell the difference between 
intentional and unintentional debris removal and thus the actions of a 
space weapon. From a legal perspective, objects in space still belong 
to States and there is no ``salvage law'' for space to deal with what 
are effectively abandoned objects. This raises policy questions such as 
whether States should only remove their own objects or those whose 
removal has been specifically consented to. Some small objects may be 
both unidentified and unidentifiable as debris below certain sizes are 
very difficult to track if costs of debris mitigation are to be shared, 
then agreement will be needed on which objects should be given prior 
for removal based on some common understanding of potential risk.

Q4.  Your prepared testimony also refers to the increasing deployment 
of small satellites. Can you comment on how this might complicate 
things?

A4. Small satellites typically have little to no internal Delta V 
capability (i.e., ability to change their orbit) for end of mission 
life disposal. Countries, companies, and academic institutions may 
deploy small satellites into uncoordinated orbits or fail to follow 
operational practices developed for larger satellites. This may be a 
particular concern for polar orbits where many satellite orbits 
intersect above the poles. On the other hand, if deployed into very low 
orbits, they wall tend to have low orbital lifetimes and need not be a 
persistent threat: For small ``swarms'' of nano- or pico-satellites, 
their optical or radar cross-sections may be so small as to render 
direct observation difficult, In those cases, small satellites may be 
required to have optical or radar reflectors or radio transponders to 
ease and tracking. Passive reflectors would likely be preferable as 
they would not require satellite power.

Q5.  Your testimony refers to the need for ``a common understanding of 
definitions, standards, operating procedures, and practices for space 
operators to communicate with each other.'' What mechanism do you 
believe is appropriate for developing this ``common understanding'' 
nationally and internationally?

A5. The two ISO subcommittees mentioned previously seem to provide a 
viable and easily activated mechanism for developing a common 
international framework of definitions and open standards. ISO/TC20/
SC13 (the parent of the CCSDS) develops data communications and 
exchange standards for space systems and ISO/TC20/SC14 develops 
electromechanical and process standards. A joint working group could be 
quickly established between these subcommittees to parse the problem 
and to develop the common operating standards and practices to 
accommodate different locations and conditions, e.g., GEO 
communications satellites, environmental monitoring satellites in polar 
orbits. With the necessary standards under development, discussions 
would then occur among IADC members with recommendations incorporated 
into air evolving code of conduct. This avoids premature constraints 
that may be created by a top-down treaty approach while including all 
space-faring nations into a common, fact-based process. Consensus will 
likely be slow but it will also be more reliable and effective than 
attempts at mandates. For this approach to be truly useful to the 
United States, however, strong interagency coordination for a national 
position and active agency support for the international discussions 
will be needed, e.g., in the ISO space standards subcommittees and the 
IADC.

Q6.  What are the challenges associated with fusing data from different 
sources such as radar and optical systems?

A6. I am not an expert in fusing data from optical and radar systems 
and identifying the problems would seem to be another task that might 
be assigned to the joint ISO working group suggested above. I would 
note however that the CCSDS in particular is already defining the 
necessary basis of information architecture, information packaging and 
associated XML-based data interchange standards that provide a common 
platform for the rapid sharing and fusion of multi-source data across 
the international space community.
    Radar and optical systems have advantages and disadvantages so data 
from both are important to have, especially in geographically dispersed 
areas. Radars are useful for finding and ranging objects very quickly 
and they can track multiple objects at once. Unfortunately, radars are 
also expensive and thus there will be relatively fewer sites in use. 
Radar wavelengths can often be greater than really small objects and 
thus not useful for tracking them. Optical tracking is less expensive 
but slow with the need for multiple sightings. Tracking lasers cannot 
find objects but they can be very fast and accurate given optical and 
radar cuing information. At a minimum, it would seem that standardized 
exchange of calibration agreement and verification would be vital as 
the same object can have very different optical and radar cross-
sections and thus verification that data from two systems actually 
concerns the same object can't be assumed.

Q7.  Given that the need for and benefit of space surveillance 
awareness is worldwide and cuts across military, civilian government, 
and commercial lines, what are the prospects for establishing a cost-
sharing approach to the provision of the space surveillance function? 
Does the U.S. derive sufficient benefits from the information that it 
should provide the services free of charge, or should users pay a fee? 
What are the pros and cons of establishing user fees?

A7. The United States is especially dependent on space to support its 
national security and economic interests. We have a Navy to protect our 
interests and dependencies on the sea and in a similar way, the United 
States needs to have a leading role in capabilities like SSA to protect 
our interests and dependencies in space. The fact that the benefits of 
SSA are international and cross all space sectors (and the ground 
systems that depend on space), would argue that SSA is a public good. 
In peacetime, one nation's use of SSA does not reduce the benefit of 
another nation's use of SSA and both may benefit from the positive 
externalities of sharing information. Thus cost sharing is not quite 
the right question to be asking. International space cooperation has 
long been based on the principle of `no-exchange of funds'' and the 
pooling of efforts for shared objectives.
    We should be asking how each space sector and space-faring nation 
could make efforts that improve common SSA. For example, commercial 
firms can share information about their systems and data exchanges with 
each other and they can do independent conjunctions analysis. The same 
is true for civil agencies that may also be able to contribute data 
from ground-based radars and optical tracers. Both industry and civil 
agencies could create opportunities for hosting payloads on their 
satellites to improve SSA from sensors in space. There can be 
international contributions of data from geographically distributed 
optical and radar sources that would otherwise be difficult and 
expensive for the United States to create alone.
    The 1996 National Space Policy (now superseded by the 2006 National 
Space Policy) contained some guidance if fees of any sort were 
considered:

         (a) Prices charged to U.S. private sector, State and local 
        government space activities for the use of U.S. Government 
        facilities, equipment; and services will be based on costs 
        consistent with federal guidelines, applicable statutes and the 
        commercial guidelines contained within the policy. The U.S. 
        Government will not seek to recover design and development 
        costs or investments associated with any existing facilities or 
        new facilities required to meet U.S. Government needs and to 
        which the U.S. Government retains title.

    Improved but still limited SSA services such as those provided by 
the CFE pilot program, should be provided freely to all who contribute 
to stronger SSA capabilities for the United States. This includes civil 
agencies, allied countries, commercial operators with data sharing 
agreements, and even NGOs. If fees were charged, there would be 
incentives to not use safety services and thus increase risk to others. 
Fees would also creates incentives for separate SSA systems and could 
undermine data sharing with common standards which would in turn reduce 
the public good afforded by SSA. Finally, there would be the 
transaction cost associated with the task of calculating and collecting 
the fees.

Q8.  If conjunction analysis and other warning activities could be out-
sourced without infringing on national security considerations, what 
would be the limitations you see as having to be established?

A8. If conjunction analysis and other warning activities were out-
sourced, regulatory guidance would have to be in place to define 
quality standards for analyses and standards of liability for warnings. 
As with other safety services, the government can provide them or allow 
the private sector to provide them, but four the latter approach, 
government requirements for public safety would need to be defined. At 
present, it is too soon to set such requirements.
    The government should be wary of out-sourcing its intellectual 
capability to produce conjunction analyses and warnings. Even though 
the government relies on expert contractors, the existence of a 
substantial fixed cost government capability results in a relatively 
low marginal cost for doing an additional analysis. Thus it is hard to 
see how paying another contractor to serve non-government customers 
would save significant resources. For national security purposes, the 
government may not wish to discuss particular space objects or 
detection capabilities. If the United States doesn't reveal some 
information and an incident occurs, it would be likely held responsible 
for any consequences. Again, this creates a practical problem for out-
sourcing.

Questions submitted by Representative Pete Olson

Q1.  During our hearing, it was suggested that one solution to mitigate 
the likelihood of future orbital collisions would be the provision of 
high-accuracy data to the commercial sector for those objects that are 
not maneuvering. Were the Air Force to provide such data, would civil 
operators have the capability to generate their own conjunction 
analysis for their satellites? Instead of relying on the Air Force to 
perform conjunction analyses for the universe of operators, is it more 
effective to rely on operators (or coalitions of operators) to do their 
own analysis based on raw data provided from multiple sources, 
including the Air Force?

A1. With high precision data, many commercial operators (e.g., GEO 
comsat firms) should be able to generate their own conjunction 
analyses. Such analyses may be more challenging for commercial firms 
operating communication satellites and remote sensing satellites in LEO 
due to the faster moving nature, and stronger orbital perturbation 
effects in the LEO environment.
    As stated elsewhere, conjunction analyses can only be performed 
against objects the satellite operators are told about. A pilot effort 
could be started with the major satellite operators in GEO by sharing 
high accuracy information with them try return for hosted space sensors 
on some of their satellites and routine information on the precise 
location of the commercial GEO satellites. The Air Force, in 
cooperation with other government agencies, should remain responsible 
for conjunction analyses in LEO for now.

Questions submitted by Representative Dana Rohrabacher

Q1.  What are the hurdles in expanding our international agreements 
beyond debris mitigation to include debris remediation? Are there 
nations or commercial operators who would be against such an expansion?

A1. Leaving aside technical and cost difficulties, there are policy and 
legal issues associated with debris remediation. It may be difficult to 
tell the difference between intentional and unintentional debris 
removal and thus the actions of a space weapon. Thus some countries 
might object remediation fearing the creation of a means for hostile 
actions on still operational satellites and spacecraft.
    From a legal perspective, objects in space still belong to States 
and there is no ``salvage law'' for space to deal with what are 
effectively abandoned objects. This raises policy questions such as 
whether States should only remove their own objects or those whose 
removal has been specifically consented to. Some small objects may be 
both unidentified and unidentifiable. If costs of debris mitigation are 
to be shared, then agreement will be needed on which objects should be 
given prior for removal based on some common understanding of potential 
risk. One approach to developing an international agreement on debris 
remediation could be the clarification of any permissible salvage 
rights for man-made objects in space. Some countries may object to this 
as a modification to the 1967 Outer Space Treaty.

Q2.  Although we have not yet seen widespread commercial human space 
flight, it is clear that within a few years there will be several 
commercial entities capable of regular sub-orbital, and possibly 
orbital, service. In the planning for future programs, is any 
consideration being given to this industry? Is there concern that these 
entities might present further dangers to civil and commercial users?

A2. I am not aware of specific regulatory considerations being given Lo 
the commercial human space flight industry. I am aware of an FAA 
licensing requirement for collision avoidance as part of flight safety 
analyses for commercial space launches. The requirement is to maintain 
a distance of at least 200 km from any habitable orbiting object, e.g., 
the International Space Station and perhaps other commercial human 
space flights. It is unclear how that requirement will be met, what 
would constitute an acceptable analysis, and how potential collisions 
would be addresses. Should commercial launch operators be required to 
pay for conjunction analysis by the government, private third parties, 
or will their own work be acceptable? At this stage, it would seem 
prudent for the government to remain flexible and encourage use of non-
proprietary collision avoidance models that allow independent 
verification of a collision avoidance analysis.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                     Statement of Marion C. Blakey
                           President and CEO
                    Aerospace Industries Association

Introduction

    Chairwoman Giffords, Ranking Member Olson and distinguished Members 
of the Committee, thank you for holding this important hearing on space 
debris and space environment safety. I appreciate the opportunity to 
submit this testimony for the record.
    I represent the Aerospace Industries Association--we are an 
association of nearly 300 aerospace manufacturing companies and the 
657,000 highly-skilled employees who make the satellites, space 
sensors, spacecraft, launch vehicles, and the ground support systems 
employed by NASA, NOAA, and the DOD. I welcome the opportunity to 
provide testimony on the major challenges and risks associated with 
debris in the space environment.
    First, let me thank the Committee for its foresight and dedication 
needed to ensure the U.S. maintains our leadership in space, and we are 
grateful for your recognition of the role our nation's space programs 
play in both our economic strength and national security. The stimulus 
package was an excellent first step in providing the necessary support 
our space and aeronautics programs need to keep up with the demands of 
space exploration, aeronautics research and development, Earth 
observation, scientific research, and critically important 
manufacturing technology programs.

Current Threats Facing Our Crowded Space Environment

    Just recently astronauts aboard the Space Shuttle Discovery and 
International Space Station (ISS) were forced to engage in maneuvers to 
avoid a small piece of debris that put their lives at risk. Crew aboard 
the ISS have also taken shelter in their Soyuz spacecraft as a 
precaution against possible collisions several times in the past. These 
incidents highlight a stark reality: space is becoming increasingly 
crowded. Over 60 nations are engaged in space efforts, and tens of 
thousands of man-made objects--including debris orbit the Earth. As the 
number of nations placing objects in space grows, risks to U.S. space 
systems and our ability to operate in space also increases. Space 
technology is a critical infrastructure that contributes to a strong 
and secure America. It needs to be adequately protected. This includes 
additional funding for space protection and space situational awareness 
efforts, better data-sharing with our international allies to limit 
space debris and maintain a safe environment, and improvements to 
government-industry partnerships.
    From the early days of the Space Age, space systems have grown to 
become critical components of the modern U.S. economy, our national 
defense, and our preeminence in science. Today, U.S. satellites provide 
early warning when nations like Iran or North Korea launch a missile. 
They allow secure global communications and provide bandwidth for 
unmanned aerial vehicles used by our troops in isolated battlefields 
like Afghanistan. NASA's Science Directorate provides a better 
understanding of our Earth, and the universe. NASA's Aeronautics 
Research and Development endeavors tie the use of space systems into 
the completion of the NextGen air transportation modernization program 
and continued efforts to reduce aviation's environmental impact. 
Weather satellites give us warnings of storm fronts, deep freezes, and 
hurricanes. Space systems are also an important part of the modern U.S. 
economy; providing business communications, navigation through OPS 
handsets, remote sensing, and digital television and music for millions 
of consumers. In 2008 space system industry sales topped $33 billion 
providing thousands of high-wage, middle class jobs.
    Yet we are not adequately protecting or ensuring the safety of our 
space assets. The Defense Department currently acts as the de facto 
Federal Aviation Administration (FAA) for space--responsible for 
providing space situational awareness for over 18,000 man-made objects 
in the Earth's orbit. This is no easy task. Remember, it's not just 
military satellites the Pentagon has to worry about; multiple systems 
from NASA, the intelligence community, commercial providers, and 
international assets are all circling the Earth at speeds of thousands 
of miles per hour.
    Debris is a major concern. When an airplane accident occurs here on 
Earth, the associated debris does not impact future flights. In space 
however, debris can orbit the Earth for years, decades, or even 
centuries. if debris interacts with additional man-made objects, the 
problem can be compounded and result in the creation of even larger 
debris fields. In January 2007, a Chinese ballistic missile destroyed 
an aging weather satellite, which created a massive debris field that 
will orbit the Earth well into the future. In February 2009, the 
Pentagon's job became even more difficult when a commercial U.S. 
satellite and a defunct Russian satellite collided. Recent reports by 
NASA have detailed multiple debris threats to the Space Shuttle and 
ISS--endangering lives and billions of dollars of space infrastructure. 
Since we don't yet have the ability to clean up space, debris fields 
present a very real impediment for future uses of space by the U.S. and 
our international allies.
    With its current minimal budget for space situational awareness, 
the Defense Department is forced to prioritize what objects it tracks. 
Limited resources force it to track space objects that could interfere 
with humans in space or military satellites as its top priorities. 
Tracking of commercial assets gets an even lower priority. To its 
credit, the Defense Department recently created, along with the 
National Reconnaissance Office, a Space Protection Program that 
supports interagency collaboration on space threat assessments and 
collaboration on space protection strategy. This is an important step 
forward for the military and intelligence community. Yet when compared 
with the FAA, which is provided billions every year for air traffic 
control and safety, our national space situational awareness efforts 
are lagging far behind.

Investment in Space Protection and Space Situational Awareness is 
                    Critical

    Given our reliance upon military, intelligence, civil, and 
commercial space systems, and growing threats including debris and 
other satellites, the U.S. needs to provide robust funding for space 
situational awareness and the protection of our space assets. This 
funding should not only maintain current capabilities, but advance them 
towards significant improvement. This includes funding modernization 
programs for space systems to harden satellites from attack, and 
establishing contingency plans to ensure redundancy of space 
capabilities. Important initiatives like Operationally Responsive Space 
seek to develop systems that can be rapidly deployed and help improve 
space system redundancy, but with more systems in orbit we will need to 
increase the fidelity of tracking items in space. We also need to do a 
better job of sharing information with our international partners and 
between government and industry.
    Space systems are no longer the dreams of rocket scientists of the 
early 20th Century; they have arrived and are part of our way of life. 
The space industry supports thousands of high-tech jobs and billions of 
dollars in economic activity. But without increasing resources for the 
protection of our space systems, we are putting our security and 
economic competitiveness at significant risk. Now, as the 
Administration puts the final touches on its Fiscal Year 2010 budget, 
is the right time to make the right investment in this critical 
infrastructure by providing significant resources to space protection 
and space situational awareness. Interagency partnerships and 
government partnerships with industry should be strengthened to provide 
robust protection of our critical space assets. It will also be 
important to take the steps necessary to work with our international 
allies to prevent additional collisions and the proliferation of debris 
in the global space environment.
                            Statement of the
                        Secure World Foundation
    Secure World Foundation is pleased to provide this written 
statement to the Subcommittee on Space and Aeronautics in its 
consideration of the role of space situational awareness in supporting 
the long-term sustainability of activities in outer space. In order to 
continue to reap the substantial benefits provided by activities in 
Earth orbit, the United States will need to find a satisfactory way to 
enhance space situational awareness.

The current space environment and the value of space situational 
                    awareness

    On February, 10, 2009, the communications satellite Iridium 33 was 
passing over Siberia on its way up over the North Pole and then 
southwards, a journey that had taken place without incident every one 
hundred minutes for the past eleven years, four months, and twenty-
seven days of its mission providing satellite telephone services. That 
day, it experienced a sudden, violent shock and then fell silent. 
Iridium operators later learned that Iridium 33 had collided with 
another space object, a Russian communications satellite that had 
ceased operation years earlier. The two spacecraft had approached each 
other at speeds faster than any human eye could have ever followed.
    If we desire to continue to reap the immense benefits that space 
can provide, we must take steps to preserve the Earth's orbital 
environment. A key concern is the threat of loss of utility of key 
orbits because of a proliferation of space debris. The unavoidable 
first step to this preservation is to determine what is in Earth orbit 
and where it is going: space situational awareness (SSA). Space 
situational awareness is not a new concept--it has been an important 
part of military space activities for many years. But like many other 
space applications, such as global positioning data and satellites 
communications, there is also a growing need for SSA in the civil 
world.
    The fundamental difference between civil SSA and military SSA is in 
the types of information that it provides. Civil space situational 
awareness only needs to focus on the location of an object in Earth 
orbit and a point of contact for that object, along with environmental 
information about space weather. The additional military requirements 
of determining function, intent, and capabilities and limitations are 
not necessary for civil uses.
    Imagine that you are in a car, driving down the road on a clear and 
sunny day. In this situation, the driver has excellent situational 
awareness and has all the information needed to operate the vehicle in 
a safe and efficient manner. However, if the windows are blacked out 
the situation becomes much different. Even if the driver is using a GPS 
device to display the car's position on the road the driver has no 
information about either the locations or movements of the other cars.
    This environment of highly limited information is the same in which 
many of the satellites in Earth orbit are operated today. The owner or 
operator of a particular satellite usually has excellent knowledge 
about the position of that satellite in space, but little to no 
information about the locations of other objects around them. This 
situation was the root cause behind the collision of two satellites in 
February--the owner of the Iridium satellite, which could have 
potentially maneuvered it out of the way, did not know about the 
impending close approach.
    This collision produced close to one thousand pieces of space 
debris larger than four inches, which are currently being tracked by 
the U.S. military. Although still a serious incident, this number could 
have been significantly higher had the two satellites collided with 
more than what seems to have been a glancing blow.
    The debris generated by the February 10th collision is just a small 
fraction of the overall debris population. Over 18,000 pieces of debris 
are being tracked in Earth orbit by various militaries, scientists, and 
amateur observers around the globe. Much of this population will stay 
in orbit for decades and even centuries. This debris, which is the 
result of placing and operating objects in orbit, will pose an ever 
more challenging threat to our continued use of space, including for 
commercial benefit and exploration.
    Space is a vast domain, yet there are only a few regions from which 
we derive the majority of the scientific and economic benefits. These 
regions are limited natural resources, and our use of them can have 
long lasting negative effects on their utility. SSA is crucial not only 
to understanding the effects of humanity's activities in space but also 
in minimizing the costs those effects have on future space activities.

The value of space situational awareness to human space flight and use 
                    of outer space for scientific and commercial 
                    benefit

    Globally, outer space provides many services that are crucial to 
both the US and global economy and to increasing our scientific 
knowledge. Collisions between objects in orbit not only lead to 
potential disruptions in these services but also leave debris in orbit. 
This debris raises the economic costs of future operations in space by 
increasing the measures satellite operators must take to protect their 
assets. These measures include more frequent maneuvers, which expend 
fuel and can cause service outages as well as potentially increasing 
manufacturing and launch costs.
    Space situational awareness is also crucial for the safety of human 
space flight. On March 12th, 2009, the crew of the International Space 
Station (ISS) was forced to prepare for an emergency evacuation inside 
the Soyuz spacecraft in response to an unexpected close approach by a 
piece of debris from the 1993 US launch of a Global Positioning 
Satellite. This was followed by another close approach by a piece of 
debris from an expired Russian satellite on March 16th. On March 22nd, 
the docked Space Shuttle Orbiter and ISS were forced to change orbit to 
avoid an extremely close piece from a Chinese rocket booster launched 
in 1999.
    The remote sensing satellites that make up NASA's primary Earth 
observation A-Train constellation and provide invaluable data for 
climate and resource management also have dealt with the issue of 
satellite collisions. In June of 2007, the $1.3 billion Terra satellite 
was forced to change its orbit to avoid a piece of Chinese debris and 
in July 2007 the CloudSat satellite maneuvered to avoid a near miss 
with an Iranian remote sensing satellite.
    Likewise, operators of commercial satellites in geostationary orbit 
22,000 miles above the Earth are on a constant lookout for debris. 
Their satellites must stay within a fairly narrow assigned slot, both 
to maintain a fixed position for their customers on Earth and to 
prevent possible collisions with other satellites operating nearby. 
Natural forces continually pull these satellites in different 
directions, forcing all geostationary satellite operators to perform 
periodic maneuvers to maintain their precise positioning. Many times 
these maneuvers are made without precise knowledge of the location of 
neighboring satellites.
    For U.S. strategic, commercial, civil and scientific objectives, 
improved space situational awareness of all parties is essential to 
ensure the viability of U.S. interests in space in the long-term.

The importance of increasing SSA capacity

    As the number of actors in space has risen dramatically in recent 
years, there is a pressing need for space situational awareness 
information for all space-faring States. The fallout from a 
hypothetical on-orbit collision between the satellites of two emerging 
space states with limited access to SSA information will unavoidably 
place US space assets at risk. Access to SSA information, along with 
the capacity to interpret it for all space actors, both emerging and 
developed, can significantly enhance the safety of U.S. space assets. 
Improved operational practices through SSA will hopefully help to 
prevent future collisions and other debris causing incidents.
    Unfortunately, most actors in space do not have the resources or 
capacity to provide their own space situational awareness information 
necessary to make safe and secure decisions regarding activities in 
space. The few States that do have the resources to provide this 
information are often limited by national security or military 
restrictions from sharing it with other actors.
    Accurate tracking of all objects in Earth orbit from the ground 
requires a geographically distributed network of both radar and optical 
telescopes. Such a network is very expensive to create and maintain. 
The United States military currently has the world's best SSA network, 
but it still has significant limitations as a result of the lack of 
coverage in areas where the United States does not have a presence. 
Additionally, from an organizational perspective, this network does not 
currently have the financial resources, capacity or requirement to 
provide the necessary SSA data and resources for civil and commercial 
purposes globally Upgrades to this network are planned and underway by 
the U.S. military but are subject to fiscal constraints that may cause 
delays or reductions in desired capabilities.
    The United States is not alone in its capacity to provide SSA data. 
Many other States possess a limited SSA capability, usually not more 
than a few radar or optical telescopes. Taken separately, these sensors 
only provide spot coverage and very limited capacity. However, if the 
data from these existing sensors were combined, they would provide a 
large fraction of the capabilities necessary for global coverage. Thus, 
some level of international data sharing would increase SSA capacity 
without the expense of building additional sensors.
    In addition to global sensor coverage, space situational awareness 
must include data from commercial satellite owner-operators, as they 
have positional data on their satellites that is more accurate than any 
ground-based sensor could obtain. These commercial operators have very 
precise information about the locations of their own satellites, but 
little to no information about other satellites, dead satellites and 
other pieces of debris that float through their slots. Their positional 
data complements the ground-based tracking of debris and also reduces 
the workload requirements for the tracking networks, freeing up 
capacity to focus on inactive satellites and debris.

Concluding Thoughts and Summary of Key Points

    Secure World Foundation's main goal is to improve SSA for all space 
actors as a matter of safety and long-term sustainability of outer 
space activities for all actors. In this regard, we do not necessarily 
support any specific means of accomplishing this goal over another. 
Nevertheless, Secure World Foundation believes that the long-term 
sustainability of outer space activities will in time require a broad 
international approach to space situational awareness.
    To sum up our key points:

        <bullet>  SSA is vital to the continued long term use and 
        sustainability of Earth orbit

        <bullet>  There are civil and commercial requirements and uses 
        for SSA data, the U.S. military currently does not have the 
        resources to provide this service

        <bullet>  An SSA system needs to combine multiple data sources, 
        including ground and space-based sensors, satellite owner-
        operators, and space weather data

        <bullet>  While some elements of the SSA system can and should 
        be done unilaterally, there are multiple options for 
        international participation and engagement

        <bullet>  The key benefit to international participation in SSA 
        is greater capability for relatively low cost, by combining 
        existing sensors and data sources

About Secure World Foundation

    Secure World Foundation (SWF) is headquartered in Superior, 
Colorado, with offices in Washington, D.C. and Vienna, Austria. SWF is 
a private operating foundation dedicated to the secure and sustainable 
use of space for the benefit of Earth and all its peoples.
    SWF engages with academics, policy-makers, scientists and advocates 
in the space and international affairs communities to support steps 
that strengthen global space security. It promotes the development of 
cooperative and effective use of space for the protection of Earth's 
environment and human security.
    The Foundation acts as a research body, convener and facilitator to 
advocate for key space security and other space related topics and to 
examine their influence on governance and international development.

                                   

</pre></body></html>
